<html>
<title> - UNITED STATES-VIETNAM TRADE RELATIONS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




                 UNITED STATES-VIETNAM TRADE RELATIONS

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON TRADE

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 15, 2000

                               __________

                             Serial 106-106

                               __________

         Printed for the use of the Committee on Ways and Means


                    U.S. GOVERNMENT PRINTING OFFICE
71-553 DTP                  WASHINGTON : 2001
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402
 



                     COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
WES WATKINS, Oklahoma                LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida

                     A.L. Singleton, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                         Subcommittee on Trade

                  PHILIP M. CRANE, Illinois, Chairman

BILL THOMAS, California              SANDER M. LEVIN, Michigan
E. CLAY SHAW, Jr., Florida           CHARLES B. RANGEL, New York
AMO HOUGHTON, New York               RICHARD E. NEAL, Massachusetts
DAVE CAMP, Michigan                  MICHAEL R. McNULTY, New York
JIM RAMSTAD, Minnesota               WILLIAM J. JEFFERSON, Louisiana
JENNIFER DUNN, Washington            XAVIER BECERRA, California
WALLY HERGER, California
JIM NUSSLE, Iowa


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.




                             C O N T E N T S
                               __________

                                                                   Page

Advisory of May 30, 2000, announcing the hearing.................     2

                               WITNESSES

Montagnard Advocacy, Y Hin Nie...................................    39
Pacific Ventures, Inc., Barry L. Clark...........................    54
Peterson, Hon. Douglas ``Pete'', U.S. Ambassador to Vietnam......    16
Rohrabacher, Hon. Dana, a Representative in Congress from the 
  State of California............................................     6
U.S.-ASEAN Business Council, and Cargill, Incorporated, Juels 
  Carlson........................................................    45
U.S.-Vietnam Trade Council, Virginia B. Foote....................    32
Vietnamese-American Public Affairs Committee, Falls Church, 
  Virginia, Dan Duy-Tu Hoang.....................................    50

                       SUBMISSIONS FOR THE RECORD

American Legion, John F. Sommer, Jr., letter.....................    57
Anheuser-Busch, St. Louis, MO, statement and attachment..........    58
Boat People S.O.S., Merrifield, VA, Nguyen Dinh Thang, statement.    60
General Electric Company, Andre Sauvageot, statement.............    61
Khmer Kampuchea Krom Federation, Lakewood, CA, statement.........    64
McCain, Hon. John, a United States Senator from the State of 
  Arizona, statement.............................................    68
Montagnard Human Rights Organization, Greensboro, NC, Rong Nay, 
  statement......................................................    70
National Alliance of Families, Bellevue, WA, Dolores Apodaca 
  Alfond, statement and attachments..............................    71
New York Life Insurance, Inc., Sandra J. Kristoff, statement.....    72
Veterans of Foreign Wars of the United States, Bruce R. Harder, 
  statement......................................................    74

 
                 UNITED STATES-VIETNAM TRADE RELATIONS

                              ----------                              TR
ADE RELATIONS


                        THURSDAY, JUNE 15, 2000

                       Committee on Ways and Means,
                                  House of Representatives,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room 1100, Longworth House Office Building, Hon. Philip M. 
Crane (Chairman of the Committee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE COMMITTEE ON WAYS AND MEANS

                         SUBCOMMITTEE ON TRADE

                                                Contact: (202) 225-1721
FOR IMMEDIATE RELEASE

May 30, 2000

No. TR-21

                       Crane Announces Hearing on

                 United States-Vietnam Trade Relations

    Congressman Philip M. Crane (R-IL), Chairman, Subcommittee on Trade 
of the Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing on United States-Vietnam Trade 
Relations, including the renewal of Vietnam's waiver under the Jackson-
Vanik amendment to the Trade Act of 1974 (Trade Act). The hearing will 
take place on Thursday, June 15 , 2000, in the main Committee hearing 
room, 1100 Longworth House Office Building, beginning at 10:00 a.m.
      
    Oral testimony at this hearing will be from both invited and public 
witnesses. Invited witnesses will include the Honorable Douglas 
``Pete'' Peterson, U.S. Ambassador to Vietnam . Also, any individual or 
organization not scheduled for an oral appearance may submit a written 
statement for consideration by the Committee or for inclusion in the 
printed record of the hearing.
      

BACKGROUND:

      
    Vietnam's trade status is subject to the Jackson-Vanik amendment to 
Title IV of the Trade Act of 1974. This provision of law governs the 
extension of normal trade relations (NTR), including normal tariff 
treatment, as well as access to U.S. Government credits, or credit or 
investment guarantees, to nonmarket economy countries ineligible for 
NTR treatment as of the enactment of the Trade Act. A country subject 
to the provision may gain NTR treatment and coverage by U.S. trade 
financing programs only by complying with the freedom of emigration 
provisions under the Trade Act. The extension of NTR tariff treatment 
also requires the conclusion and approval by Congress of a bilateral 
commercial agreement with the United States providing for reciprocal 
nondiscriminatory treatment. The Trade Act authorizes the President to 
waive the requirements for full compliance with respect to a particular 
country if he determines that a waiver will substantially promote the 
freedom of emigration provisions, and if he has received assurances 
that the emigration practices of the country will lead substantially to 
the achievement of those objectives.
      
    Since the early 1990s, the United States has taken gradual steps to 
improve relations with Vietnam. In February 1994, President Clinton 
lifted the trade embargo on Vietnam in recognition of the progress made 
in POW/MIA accounting. The United States opened a Liaison Office in 
Hanoi later that year. On July 11, 1995, President Clinton announced 
the establishment of diplomatic relations, which was followed by the 
appointment of former Congressman Douglas ``Pete'' Peterson as U.S. 
Ambassador to Vietnam. In 1997, the Office of the United States Trade 
Representative began negotiations toward the conclusion of a bilateral 
commercial agreement with Vietnam. An agreement in principle was 
reached with Vietnam on July 25, 1999. The trade agreement, while not 
yet signed, consists of four parts: market access, trade in services, 
intellectual property rights protection, and investment.
      
    Because the bilateral trade agreement with Vietnam has not yet 
entered into force, Vietnam is ineligible to receive NTR tariff 
treatment. However, if the President determines that a Jackson-Vanik 
waiver would substantially promote the freedom of emigration objectives 
under the Trade Act, U.S. exporters doing business in Vietnam are given 
access to U.S. Government credits, or credit or investment guarantees, 
such as those available from the Overseas Private Investment 
Corporation, the Export-Import Bank, and the U.S. Department of 
Agriculture, provided that Vietnam meets the relevant program criteria.
      
    On March 9, 1998, the President first determined that a Jackson-
Vanik waiver for Vietnam would substantially promote the freedom of 
emigration objectives under the Trade Act. On April 7, 1998, the 
President issued Executive Order 13079, under which the waiver entered 
into force. The renewal procedure under the Trade Act requires the 
President to submit to Congress a recommendation for a 12-month 
extension no later than 30 days prior to the waiver's expiration. On 
June 3, 1998, the President renewed Vietnam's waiver for the next 12-
month period. On June 3, 1999, the President issued another 12-month 
waiver. The President is expected to issue a waiver for the next 12-
month period by June 3, 2000. Once renewed, the new waiver authority 
will continue in effect unless disapproved by Congress within 60 
calendar days after the expiration of the existing waiver. Disapproval, 
should it occur, would take the form of a joint resolution disapproving 
of the President's waiver determination. In the first session of the 
106th Congress, a resolution of disapproval, H.J. Res. 58 , was 
considered and failed by a vote of 130 to 297.
      
    In 1999, two-way trade between the United States and Vietnam was 
valued at $900 million. U.S. exports to Vietnam last year totaled $291 
million, and U.S. imports from Vietnam equaled $609 million. Top U.S. 
exports included machinery and transportation equipment, and chemicals 
and related products. Top U.S. imports from Vietnam in 1999 included 
food and live animals, and miscellaneous manufactured articles.
      
    In announcing the hearing, Chairman Crane stated: ``This hearing 
will provide the Subcommittee with an opportunity to review Vietnam's 
Jackson-Vanik waiver and emigration policies. It is also an occasion to 
assess the progress that has been made on accounting for our soldiers 
missing in action.
      
    In addition, I look forward to this chance to review the status of 
the pending bilateral trade agreement, which must be signed and 
approved by Congress before NTR can be extended to Vietnam.''
      

FOCUS OF THE HEARING:

      
    The focus of the hearing will be to evaluate U.S. trade relations 
with Vietnam and to consider the renewal of Vietnam's waiver under the 
Jackson-Vanik amendment to the Trade Act. The Subcommittee is 
interested in receiving testimony about Vietnam's emigration policies 
and practices and on the potential impact on Vietnam and the United 
States of a termination of Vietnam's waiver. Witnesses are also 
encouraged to address the nature and extent of U.S. trade and 
investment ties with Vietnam, as well as issues related to the pending 
bilateral trade agreement with Vietnam.
      

DETAILS FOR SUBMISSIONS OF REQUESTS TO BE HEARD:

      
    Requests to be heard at the hearing must be made by telephone to 
Traci Altman or Pete Davila at (202) 225-1721 no later than the close 
of business, Thursday, June 8, 2000. The telephone request should be 
followed by a formal written request to A.L. Singleton, Chief of Staff, 
Committee on Ways and Means, U.S. House of Representatives, 1102 
Longworth House Office Building, Washington, D.C. 20515. The staff of 
the Subcommittee on Trade will notify by telephone those scheduled to 
appear as soon as possible after the filing deadline. Any questions 
concerning a scheduled appearance should be directed to the 
Subcommittee on Trade staff at (202) 225-6649.
      
    In view of the limited time available to hear witnesses, the 
Subcommittee may not be able to accommodate all requests to be heard. 
Those persons and organizations not scheduled for an oral appearance 
are encouraged to submit written statements for the record of the 
hearing. All persons requesting to be heard, whether they are scheduled 
for oral testimony or not, will be notified as soon as possible after 
the filing deadline.
      
    Witnesses scheduled to present oral testimony are required to 
summarize briefly their written statements in no more than five 
minutes. THE FIVE-MINUTE RULE WILL BE STRICTLY ENFORCED. The full 
written statement of each witness will be included in the printed 
record, in accordance with House Rules.
      
    In order to assure the most productive use of the limited amount of 
time available to question witnesses, all witnesses scheduled to appear 
before the Subcommittee are required to submit 200 copies, along with 
an IBM compatible 3.5-inch diskette in WordPerfect or MS Word format, 
of their prepared statement for review by Members prior to the hearing. 
Testimony should arrive at the Subcommittee on Trade office, room 1104 
Longworth House Office Building, no later than Tuesday, June 13, 2000. 
Failure to do so may result in the witness being denied the opportunity 
to testify in person.
      

WRITTEN STATEMENTS IN LIEU OF PERSONAL APPEARANCE:

      
    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect or MS Word format, with their name, address, 
and hearing date noted on a label, by the close of business, Friday, 
June 23, 2000 to A.L. Singleton, Chief of Staff, Committee on Ways and 
Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements 
wish to have their statements distributed to the press and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Subcommittee on Trade office, room 1104 Longworth House 
Office Building, by close of business the day before the hearing.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette in WordPerfect 5.1 
format, typed in single space and may not exceed a total of 10 pages 
including attachments. Witnesses are advised that the Committee will 
rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.
      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at ``http://waysandmeans.house.gov''.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                <F-dash>

    Chairman Crane. The hearing will come to order.
    Mr. Rohrabacher, we will reserve our opening statements 
until later so that we can take your testimony and then go 
vote.
    With that, Dana, I ask you to try to keep it confined, your 
oral testimony, to about 5 minutes; and any written testimony 
will be a part of the permanent record.
    [The opening statements of Chairman Crane and Mr. Ramstad 
follow:]

Statement of Hon. Philip M. Crane, a Representative in Congress from 
the State of Illinois

    Good Morning. Welcome to this hearing of the Trade 
Subcommittee on U.S.-Vietnam trade relations. Today we meet to 
examine the 2000 Jackson-Vanik waiver for Vietnam and pending 
legislation by Rep. Rohrabacher--H.J. Res. 99--to disapprove 
this waiver.
    Since the early 1990's, the United States has taken gradual 
steps to normalize our relationship with Vietnam. However, this 
process has been contingent upon Vietnam's total cooperation 
with the United States in making the fullest possible 
accounting for our missing servicemen and women.
    In 1998, the President issued the first waiver for Vietnam 
from the freedom of emigration criteria in the Jackson-Vanik 
amendment to the Trade Act of 1974. As many of you know, the 
Jackson-Vanik amendment governs U.S. trade relations with 
nonmarket economy countries, including the extension of normal 
trade relations (NTR). Earlier this month, the President issued 
the annual waiver for the next 12 months because he has 
determined that such a waiver will substantially promote 
freedom of emigration in Vietnam.
    Vietnam is not yet eligible for NTR trade status because 
Vietnam and the United States have not yet signed a bilateral 
trade agreement, which would also have to be approved by 
Congress. Thus, the practical effect of the Jackson-Vanik 
waiver has been to enable U.S. government agencies such as the 
Overseas Private Investment Corporation, the Export-Import 
Bank, and the U.S. Department of Agriculture to provide 
financing to Americans interested in doing business in 
Vietnam--provided that Vietnam meet the relevant program 
criteria. This is a necessary first step on the way to full 
normal trade relations with Vietnam.
    With respect to the bilateral trade agreement between the 
United States and Vietnam, the United States Trade 
Representative announced in July 1999 that it had reached an 
``agreement in principle'' with Vietnam. The agreement is 
reportedly comprehensive in scope and generally covers market 
access, trade in services, intellectual property and 
investment. I look forward to the formal signing of the 
agreement and hope that it can be submitted to Congress for 
consideration in the near future.
    I believe this agreement would provide U.S. firms and 
workers with access to the Vietnamese market, which is the 12th 
most populous in the world. Such market access also would give 
the United States the opportunity to be a positive force for 
change in a country in transition and where over half of the 
population is under the age of 25. If the agreement is signed 
and approved by Congress, Vietnam would be eligible for NTR 
treatment.
    I look forward to our witnesses' testimony today on a broad 
range of bilateral issues and policy objectives in U.S. 
relations with Vietnam. I now recognize Mr. Levin, the Ranking 
Member of the Subcommittee, for his opening statement. 
[statement]
    We have a full schedule today and in the interest of time, 
I ask our witnesses to limit their oral testimony to five 
minutes each. We will include your longer written statements in 
the hearing record. Our first witness is our colleague, 
Congressman Dana Rohrabacher of California.

                                <F-dash>


Statement of Hon. Jim Ramstad, a Reprensentative in Congress from the 
State of Minnesota

    Mr. Chairman, thank you for calling today's hearing to 
discuss U.S.-Vietnam Trade Relations.
    I am pleased that we are once again reviewing the progress 
being made in Vietnam on reform of the country's economy as it 
moves toward a more market-oriented approach. These policies of 
political and economic reintegration in the world must be 
encouraged.
    Hopefully, as the Vietnamese Communist Party continues to 
relinquish some of its control over the economy to spur its 
growth, they will also see the benefits of political freedoms 
for the citizens. While there are signs of personal freedoms 
and considerable power at the local levels, there is 
significant need for greater democracy in Vietnam.
    Two-way trade between the U.S. and Vietnam has greatly 
increased since 1994, reaching $900 million in 1999. I am very 
pleased that Amb. Peterson, our former colleague and a true 
American hero as a former POW, is here today to update us on 
the status of our bilateral trade negotiations and the general 
economic and political situation in Vietnam today.
    Knowing the crucial value of an engaged relationship 
between the US and Vietnam, I want to thank you again, Mr. 
Chairman, for calling this hearing. I look forward to hearing 
from all of today's witnesses about the importance and 
implication of U.S.-Vietnam trade relations.

                                <F-dash>


    STATEMENT OF HON. DANA ROHRABACHER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Rohrabacher. Mr. Chairman, it has been 2 years since 
President Clinton issued the first Jackson-Vanik waiver for 
Vietnam, allowing for taxpayer-funded subsidies and insurance 
for investment in that dictatorship. Each year we have been 
assured by the administration and by our ambassador to Hanoi 
that this action would lead to greater political openness and 
prosperity for the Vietnamese people and a better economic 
climate for American investors. Unfortunately, the exact 
opposite has happened.
    As the Washington Post stated on May 3rd, ``Vietnam remains 
a one-party state. Rampant corruption retards foreign 
investment, and the Communist party fears more openness to the 
outside world could bring in more political heterodoxy for 
which the party shows zero tolerance..''
    Human Rights Watch recently linked the ongoing persecution 
of dissidents and religious believers in Vietnam to pervasive 
economic and political corruption. There is no free press; all 
information is controlled by the state. Radio Free Asia 
broadcasts are routinely jammed.
    A recent poll of international businessmen by Political and 
Economic Risk Consultancy Group, which is a respected Hong 
Kong-based research firm, rated Vietnam among the three worst 
legal systems in Asia; and that is saying a lot when you 
consider that includes Burma, China, Communist China, North 
Korea, and so forth. Official Vietnamese data shows that 
foreign investment has dropped by 75 percent during the past 
year, and the country's annual growth rate of around 4 percent 
has fallen to half of what it was when President Clinton 
normalized political and economic relations with Hanoi.
    I fully agree with the Wall Street Journal's assessment 
that, ``The biggest barrier to growth in Vietnam is, as it 
always has been, the Communist party itself. Until the party 
sees its way to limiting its own power, Vietnam will be saddled 
with widespread corruption and slow economic growth.'' .
    Another troubling development, based on numerous reports by 
western diplomats, is that Hanoi has sent large numbers of 
troops into Laos to defend the corrupt and repressive Pathet 
Lao regime from its internal opponents. Thus, we continue to 
subsidize investment in this dictatorship while they are 
engaged in military action in their neighbor's country. This 
military intervention to prop up a neighboring Communist regime 
will further deplete Vietnam's economy. But, also, it should 
say to the world, we should not be guaranteeing American 
investments in that country with taxpayers' dollars.
    The repeated promises by Hanoi of economic reform have been 
no more credible than any past pledges. There is still not even 
the slightest hint of free and fair elections, and that 
repressive government is basically still looking to the United 
States and foreign investment through businesses to bail them 
out, and that is what we do when we grant this status. When we 
give them a Jackson-Vanik waiver, we permit American 
businessmen to go in with American dollars backed up by the 
U.S. taxpayers--to make investments in this dictatorship and 
bail them out of their bad policies.
    As this panel is aware, the Jackson-Vanik provision 
primarily addresses the issue of freedom of emigration for 
people who have fear of prosecution and persecution in Vietnam. 
The Vietnamese Exit Permit system for immigration, including 
for long-time reeducation camp survivors, Amer-Asians, 
Montagnards and other people of interest to America, remains 
rife with corruption. Many Vietnamese on the U.S. migration 
list have not been able to come to the United States because 
they could not afford to pay the bribes that are necessary to 
get those papers, that paperwork done.
    My joint resolution, disapproving the President's waiver 
for the corrupt Vietnamese dictatorship, does not intend to 
isolate Vietnam nor to stop U.S. companies from doing business 
there. It simply prevents Communist Vietnamese from enjoying a 
trade status that enables American businessmen to make 
increasingly risky investments with loan guarantees subsidized 
by the American taxpayer.
    If private banks or insurance companies will not back up or 
ensure private business ventures in Vietnam, why should the 
American taxpayers be asked to guarantee those loans? Rampant 
corruption, mismanagement, as well as abuses in the emigration 
program, the lack of free trade unions, the suppression of free 
expression, and the persecution of dissidents and religious 
believers are valid reasons to oppose the Jackson-Vanik waiver 
for Vietnam.
    Mr. Chairman, we do no favors to the Vietnamese people nor 
to American investors by once again reflexively supporting the 
President's unjust Jackson-Vanik waiver. I propose that we give 
the Communist dictators of Vietnam a strong message from the 
U.S. Congress that their corruption, mismanagement and 
repression will no longer be, at the very least, subsidized by 
the American taxpayers. By supporting my legislation, we can 
put the Vietnamese leaders on probation for a period of 1 year.
    If they then enact reforms, which they have promised to do, 
and begin developing a truly credible judicial system, and they 
begin ending their corruption in the migration program and take 
their jack-boots, or you might say Ho Chi Minh sandals, off the 
face of the Vietnamese people, I personally will reconsider my 
support for this waiver next year. I am not holding my breath 
on that one.
    The Vietnamese Communists have manipulated American 
generosity to further impoverish and repress their people. 
There is no reason in the world for us to provide taxpayer 
guarantees for the people who are investing in this 
increasingly risky venture, when there are democracies like the 
Philippines who would love to have those investments of those 
American companies go to their country instead of this 
dictatorship.
    Thank you very much, Mr. Chairman. I would ask, for the 
record, to submit several of the articles that I have quoted 
about the situation in Vietnam.
    Chairman Crane. Without objection, so ordered. Thank you 
for your testimony.
    [The prepared statement and an attachment follow:]

Statement of Hon. Dana Rohrabacher, a Representative in Congress from 
the State of California

    Mr. Chairman:
    It has been two years since President Clinton issued the 
first Jackson-Vanik waiver for Vietnam, allowing for taxpayer-
funded subsidies and insurance for investments there. Each year 
we have been assured by the Administration and by our 
ambassador to Hanoi that this action would lead to greater 
political openness and prosperity for the Vietnamese people, 
and a better economic climate for American investors. 
Unfortunately, the exact opposite has happened.
    As the Washington Post stated on May 3, ``Vietnam remains a 
one party state... rampant corruption retards foreign 
investment and... the Communist Party fears more openness to 
the outside world could bring in more political heterodoxy--for 
which the party shows ZERO tolerance.'' And Human Rights Watch 
recently linked the ongoing persecution of dissidents and 
religious believers in Vietnam to pervasive economic and 
political corruption. There is no free press--all information 
is controlled by the state. Radio Free Asia broadcasts are 
routinely jammed.
    A recent poll of international businessmen by Political and 
Economic Risk Consultancy Group, a respected Hong Kong-based 
research firm, rated Vietnam among the three worst legal 
systems in Asia. Official Vietnamese data shows that foreign 
investment dropped by 75% during the past year and the 
country's annual growth rate of around 4 percent has fallen to 
half of what is was when President Clinton normalized political 
and economic relations with Hanoi. I fully agree with the Wall 
Street Journal's assessment that, ``The biggest barrier to 
growth in Vietnam is--as it always has been--the Communist 
Party itself. Until the party sees its way to limiting its own 
power, Vietnam will be saddled with widespread corruption and 
slow economic growth.''
    Another troubling development, based on numerous reports by 
Western diplomats, is that Hanoi has sent large numbers of 
troops into Laos to defend the corrupt and oppressive Pathet 
Lao regime from its internal opponents. This military 
intervention to prop up a neighboring communist regime will 
further deplete Vietnam's economy.
    The repeated promises by Hanoi of economic reform, have 
been no more credible than any past pledges. There is still not 
even the slightest hint that free and fair elections will be 
conducted in Vietnam. In that repressive environment, it is 
hardly surprising that foreign investors and businesses are 
bailing out.
    As this panel is aware, the Jackson-Vanik provision 
primarily addresses the issue of freedom of emigration for 
people who fear or have experienced persecution. The Vietnamese 
Exit Permit system for immigration--including for long time 
reeducation camp survivors, Amer-Asians, montagnards and other 
people of interest to America--remains rife with corruption. 
Many Vietnamese on the U.S. emigration list have not been able 
to come to the United States because they could not afford to 
pay the bribe price.
    My joint resolution, disapproving the President's waiver 
for the corrupt Vietnamese dictatorship, does not intend to 
isolate Vietnam nor to stop U.S. companies from doing business 
there. It simply prevents Communist Vietnam from enjoying a 
trade status that enables American businessmen to make 
increasingly risky investments with loan guarantees and 
subsidies provided by U.S. taxpayers.
    If private banks or insurance companies will not back-up or 
insure private business ventures in Vietnam, the American 
taxpayers should not be asked to do so. Rampant corruption, 
mismanagement, as well as abuses in the emigration program, the 
lack of free trade unions, the suppression of free expression 
and the persecution of dissidents and religious believers, are 
valid reasons to oppose the Jackson-Vanik waiver for Vietnam.
    Mr. Chairman, we do no favors to the Vietnamese people or 
American investors by once again reflexively supporting the 
President's unjustified Jackson-Vanik waiver. I propose that we 
give the Communist dictators of Vietnam a strong message from 
the U.S. Congress that corruption, mismanagement and repression 
will no longer be, at the very least, subsidized by American 
taxpayers. By supporting my legislation, we can put the 
Vietnamese leaders on probation for the period of one year.
    If they enact the reforms that they have promised, and 
begin developing a truly credible judicial system, end the 
corruption in the migration program and take their jack-boots--
or Ho Chi Minh sandals--off of the faces of the Vietnamese 
people, I will then consider support for the waiver next year. 
But I won't hold my breath.
    The Vietnamese Communists have manipulated American 
generosity to further impoverish and repress their people. I 
ask my colleagues to support my resolution.

                                <F-dash>


[GRAPHIC] [TIFF OMITTED] T1553.001

    [Additional attachments are being retained in the Committee 
files.]

                                <F-dash>


    Chairman Crane. How can the United States most effectively 
influence the pace and direction of economic and political 
reforms in Vietnam?
    Mr. Rohrabacher. We should, number one, as Ronald Reagan 
did with the Soviet Union, the number one goal should be not to 
help them grow economically. Because Ronald Reagan said about 
the Soviet Union, every week he would say, what have we done to 
undermine the Soviet Union economy, which eventually led to 
freedom in Russia.
    What we must do instead is what Reagan did, support those 
people in Vietnam and in that region who seek democracy and 
support communications with the people of Vietnam themselves 
who are for a more free and open democratic society. We have 
lots of avenues open to us. We should have major efforts 
through our national Endowment for Democracy and bolstering 
Radio Free Asia, and so forth. That is the way to bring a 
better, more peaceful and freer Vietnam.
    Chairman Crane. And will that contribute in a positive way 
to the fullest possible accounting of POW-MIA cases and 
progress on remaining emigration cases?
    Mr. Rohrabacher. I think the most important thing that 
could bring an accounting for MIA-POWs is the elimination of 
the Communist dictatorship in Vietnam, instead of continuing 
support for the Communist dictatorship of Vietnam. They have 
not given us a full accounting, and I know that there are some 
people who have testified to that before this Committee.
    Again, let me state for the record, this Congressman has 
asked over and over again for the Vietnamese government to 
simply provide the records of all the prisons in which 
Americans were held during the Vietnam War. They have 
steadfastly refused to do that. If we had those records, we 
could find out exactly how many men they were holding. They 
claim to me and to others who were at the negotiations that all 
of those records were destroyed during the war. They have not 
given us a full accounting, not by a long shot. The way to get 
a full accounting of our men is to try to put pressure on them, 
rather than trying to curry favors with these dictators in 
Vietnam.
    Chairman Crane. Thank you.
    Mr. Levin.
    Mr. Levin. I think there is much shared concern about the 
government of Vietnam. I am not sure there is anything close to 
total disagreement. I think it is closer to total agreement 
about the problems there. The issue becomes how you begin to 
impact conditions within Vietnam.
    We have an ambassador there, a former colleague, and I am 
not saying ambassadors are always right, but I think our 
present ambassador has some special credibility and also a 
relationship with us that I think underlines his credibility. I 
just urge that you take a look at his testimony--I think you 
were here last year perhaps when he testified--and to see his 
perspective on how we try to bring about change with Vietnam, 
within Vietnam. Because, as you know, his perspective is very 
different in terms of how we respond to the problems there, 
whether it is the POW-MIA issue that you just commented on or 
whether it is emigration issues or whether it is commercial and 
related issues. So I just urge that we try to have a serious 
dialog on that.
    When you talk about taxpayer subsidization, I just hope 
that that does not become kind of the rallying cry. I am not 
sure how much it really costs, if anything. As I understand it, 
there is one OPIC project now under way, just begun with 
Caterpillar, and Ex-Im has just signed an agreement, I think it 
may be the initial one, where there hasn't been any funding. So 
I don't want taxpayers to think that the ambassador or anybody 
is suggesting that we provide taxpayer moneys to prop up the 
government of Vietnam. It is really, in a sense, the opposite. 
It is how to impact change within that country.
    Mr. Rohrabacher. Well, number one, I have the utmost 
respect for Pete Peterson. I consider him a friend, and he is a 
former colleague, but I have some disagreements with him, 
obviously. But, again, I hold him in high esteem, and I think 
of him as a personal friend as well.
    With that said, let me say that I do disagree with him. I 
think that you could only judge someone's opinion as how right 
it is by how it plays out in reality, and we have had this 
Jackson-Vanik waiver now for several years and has Vietnam 
become more democratic? No.
    There is a definition of insanity, and that is doing the 
same thing over and over again but expecting to have different 
results. Things are not getting better in Vietnam. I have 
quoted many sources here from the Wall Street Journal and other 
economic analyses, as well as politically. It shows that things 
are not getting better. I hope when Pete comes to testify here 
today that he will be asked again whether or not the 
Vietnamese--here is a very easy thing the Vietnamese can do to 
show good faith on an accounting of MIA/POWs come up with the 
records for all of the prisons that Americans were held in 
during the war. Please ask him, why, after that has been 
requested, have not the Vietnamese complied with that. If they 
are dealing with us in good faith, they could do that with a 
snap of their fingers.
    Mr. Levin. We will ask him about that and your other 
comments. I would simply urge, a few years is not a true test 
of where a country is going.
    Mr. Rohrabacher. I agree, but we have been doing this with 
China for 10 years, and it is becoming more repressive. We have 
the same pattern.
    One last thought in terms of the subsidy that you are 
talking about. That is the essence of the argument. If you take 
away the portion of what we are dealing with here and we say 
you could have everything else but you are not going to get any 
more taxpayer guarantees through the Export-Import Bank and any 
other internationally financed, subsidized--taxpayer-subsidized 
financial institution, saying we are just going to eliminate 
that from the mix here, you will find that that is what this 
debate is really all about.
    That is why the business community is pushing this. They 
want a subsidy so that they can close up here and open up in 
this dictatorship where they have no unions, they can pay dirt 
wages, and they think they are going to have this tremendous 
profit by doing it that way.
    Mr. Levin. My time is up, but I think Caterpillar might say 
to you that the purpose of their project is not to close up 
here, it is to help to shape relationships so that what is 
produced here by Caterpillar can be sold and used in Vietnam.
    My time is up. Thank you.
    Chairman Crane. Thank you.
    Thank you, Dana, for your testimony. We have no further 
questions.
    We will now stand in recess subject to the call of the 
Chair.
    [Recess.]
    Chairman Crane. The Committee will come to order.
    I want to welcome you all to the Subcommittee hearing on 
U.S.-Vietnam trade relations. Today we meet to examine the 2000 
Jackson-Vanik waiver for Vietnam and pending legislation by 
Representative Rohrabacher, H.J.Res. 99, to disapprove this 
waiver.
    Since is early nineties, the United States has taken 
gradual stops to normalize our relationship with Vietnam. 
However, this process has been contingent upon Vietnam's total 
cooperation with the United States in making the fullest 
possible accounting for our missing servicemen and women.
    In 1998, the President issued the first waiver for Vietnam 
from the freedom of emigration criteria in the Jackson-Vanik 
amendment to the Trade Act of 1974. As many of you know, the 
Jackson-Vanik amendment governs U.S. trade relations with 
nonmarket economy countries, including the extension of normal 
trade relations, or NTR. Earlier this month, the President 
issued the annual waiver for the next 12 months because he has 
determined that such a waiver will substantially promote 
freedom of emigration in Vietnam.
    Vietnam is not yet eligible for NTR trade status because 
Vietnam and the United States have not yet signed a bilateral 
trade agreement, which would also have to be approved by 
Congress. Thus, the practical effect of the Jackson-Vanik 
waiver has been to enable U.S. Government agencies such as the 
Overseas Private Investment Corp., the Export-Import Bank, and 
the U.S. Department of Agriculture to provide financing to 
Americans interested in doing business in Vietnam, provided 
that Vietnam meet the relevant program criteria. This is a 
necessary first step on the way to full normal trade relations 
with Vietnam.
    With respect to the bilateral trade agreement between the 
United States and Vietnam, the U.S. Trade Representative 
announced in July, 1999, that it had reached an agreement in 
principle with Vietnam. The agreement is reportedly 
comprehensive in scope and generally covers market access, 
trade in services, intellectual property and investment. I look 
forward to the formal signing of the agreement and hope that it 
can be submitted to Congress for consideration in the near 
future.
    I believe this agreement would provide U.S. firms and 
workers with access to the Vietnamese market, which is the 
twelfth most populous in the world. Such market access also 
would give the United States the opportunity to be a positive 
force for change in a country in transition and where over half 
of the population is under the age of 25. If the agreement is 
signed and approved by Congress, Vietnam would be eligible for 
NTR treatment.
    I look forward to our witness' testimony today on a broad 
range of bilateral issues and policy objectives in U.S. 
relations with Vietnam.
    I now recognize Mr. Levin, the Ranking Member of the 
Subcommittee, for his opening statement.
    Mr. Levin. Thank you, Mr. Chairman. Welcome to everybody 
who is here for this hearing, and thank you for calling this 
hearing.
    As you indicate, the immediate question before the 
Subcommittee and then before the Congress as a whole is whether 
to approve or disapprove of the President's recent decision to 
waive the Jackson-Vanik prohibitions with respect to Vietnam 
for an additional year. I support that decision. It should be a 
small, but hopefully, significant step in stimulating forward 
momentum in our relationship with Vietnam and reforms within 
Vietnam. It will not confer normal trade relations status nor 
GSP status for Vietnam. It will enable U.S. producers exporting 
to and investing in Vietnam to continue to receive the benefits 
of trade financing provided by the Department of Agriculture, 
Ex-Im, OPEC and other Federal agencies. Gradually, this should 
help to strengthen U.S.-Vietnam commercial relations.
    In addition to the immediate question of a Jackson-Vanik 
waiver for Vietnam, we must begin to focus more sharply on 
longer term questions relating to the future of U.S.-Vietnam 
relationships.
    Last July, our trade negotiators concluded an agreement in 
principle with the government of Vietnam. This agreement 
reportedly would be far-reaching in its scope. Vietnam has made 
significant market access commitments, agreeing to extend MFN 
and national treatment to U.S. goods. It also would agree to 
cut tariffs on key U.S. exports and to eliminate quotas on most 
imports.
    In the area of intellectual property rights protection, 
Vietnam would agree to bring its laws into compliance with 
standards that, in some cases, go beyond the obligation of the 
WTO Agreement, TRIPS.
    In the services sectors, Vietnam has agreed to phase in 
over relatively short periods of time the right for foreign 
firms to establish businesses in areas including law, 
accountancy, information technology, banking and insurance. 
While the commitments that Vietnam would make in its agreement 
in principle with the U.S., while those commitments are 
significant, much work, in my judgment, remains to be done. 
There are areas of concern that must be addressed as we 
consider taking further steps toward normalization of trade and 
economic relations with Vietnam.
    First, we must insist on improved compliance with 
internationally recognized labor standards in Vietnam, and we 
must find ways to implement that compliance. The Human Rights 
Report of the State Department issued earlier this year states 
that ``Vietnam's record in this area is poor.'' in particular, 
the State Department observes that, and I quote, ``There were 
reports that thousands of children work in exploitative child 
labor.'' this must change.
    A second area of concern is the pace of economic reform in 
Vietnam. Our approval of a bilateral trade agreement would 
require reassurance that Vietnam is taking steps to reform its 
economy, including steps to root out corruption, enforce 
intellectual property rights, and improve the reliability of 
government-published data.
    I am looking forward to hearing what our witnesses today 
have to say on these and other issues, because there are, 
indeed, problems in our relationship. In particular, I am 
pleased that our ambassador to Vietnam and former colleague, 
Pete Peterson, is once again appearing before this 
Subcommittee. His perspectives on Vietnam have been valuable to 
us in the past, as I am sure they will be today.
    In conclusion, Mr. Chairman, our work is cut out for us. We 
may be on the threshold of taking important new steps in our 
trade and economic relationship with Vietnam. In the short 
term, it is important that we not take steps backward. For that 
reason, I support renewal of the waiver for Vietnam. In the 
longer term, it is critical that we address these many issues--
these many outstanding issues affecting our trade and economic 
relationship with Vietnam.
    Thank you, Mr. Chairman.
    Chairman Crane. Thank you.
    Now I would like to yield 1 minute to our distinguished 
colleague from the State of Washington, Ms. Dunn.
    Ms. Dunn. Thank you very much, Mr. Chairman.
    I would like to thank the Chairman for his willingness to 
hold hearings on this issue, and I support the policy of 
engagement with Vietnam that began earlier this decade. I have 
long thought that Vietnam should be doing more to help answer 
the many questions that families of American POWs and MIAs have 
had to endure for well over two decades. This issue continues 
to trouble me deeply.
    At this time, however, I continue to believe that it is in 
the best interests of the United States to move forward with 
our relationship with Vietnam. My conversation with many 
experts on our Nation's policy toward Vietnam, including 
Ambassador Peterson who traveled a great distance to be at our 
hearing today, have led me to this conclusion. If we are to 
work with the Vietnamese to win further concessions on the POW-
MIA issue and help them move toward a market-based economy, 
continuing our engagement with them will only increase our 
leverage in the future.
    The United States has entered into bilateral trade 
negotiations with Vietnam, and it is well on the way to 
finalizing a historic agreement. At the same time, I will 
insist that we use every tool at our disposal to extract 
further concessions on the issue of POW/MIAs, and I look 
forward to hearing from Ambassador Peterson on this issue 
today.
    If Vietnam wants to enjoy the benefits of open trade with 
the United States, it must live up to its obligations to 
provide access to all POW/MIA records and to make substantial 
progress in reforming its economic structure and ensure human 
rights and religious freedom.
    Mr. Chairman, thank you once again for bringing attention 
to this very important matter, and I look forward to working 
with you in the future as we continue a new era in our 
relations with Vietnam.
    Chairman Crane. Thank you, Ms. Dunn.
    We have a full schedule today, and in the interest of time 
I ask our witnesses to limit their oral testimony to 5 minutes, 
and we will include any longer written statements in the 
hearing record.
    Chairman Crane. Our next witness is Ambassador Pete 
Peterson, our U.S. ambassador to Vietnam, former colleague of 
ours here in the Congress, resident of the Hanoi Hilton for 6-
1/2 years, is that not correct, Pete?
    Mr. Peterson. That is correct.
    Chairman Crane. And a man who has, I think, special 
insights on our relations with Vietnam and who has 
inconvenienced himself to make that long trip to get over here 
to participate in our hearings.
    We welcome you, Pete; and we are glad to have you here 
today to testify.

STATEMENT OF HON. DOUGLAS ``PETE'' PETERSON, U.S. AMBASSADOR TO 
              VIETNAM (FORMER MEMBER OF CONGRESS)

    Ambassador Peterson. Thank you very much, Mr. Chairman. It 
is an honor to be back with you and your colleagues.
    I see on the dais three of my classmates, which would 
suggest some success here with the elevation of the Ways and 
Means Committee. I also see high-tech coming up with the new 
timing devices, which I am impressed with, instead of the old 
bulbs, which is rather significant.
    This morning, I would like to consult with you once again 
on the President's decision to waive Jackson-Vanik for this 
year. Since the waiver was first granted in March 1998, it has 
been an essential component of our policy of engagement with 
Vietnam, and I am confident that this extension of the waiver 
will continue to advance U.S. national interest as we deal with 
Vietnam.
    The one common point here that I think that you will hear 
throughout my testimony is that engagement works. We are now at 
our fifth anniversary of our recognition of normalization of 
our diplomatic relations with Vietnam; and, of course, another 
anniversary that we have all just witnessed was the 25th 
anniversary of the fall of Saigon. That is the past, and now we 
are looking to the future. Getting to where we are, relations 
between our two countries have been difficult over the last 25 
years, but we are now stepping out into a new millennium with 
great aspiration and anticipation.
    The engagement progress since 1995 has been much smoother, 
quicker, and more sustainable. An example of that is just the 
very fact that 500,000 Vietnamese have resettled permanently in 
the United States since we have engaged in that program.
    It is also significant that we continue to look at the 
executive and legislative cooperative process in the 
establishment of Vietnamese policy, and this Committee and 
other Committees here have been very helpful, and I want to 
give you my personal thanks for that. I want to also thank you 
for your outstanding support staff. They have been just 
remarkable in helping me out and my staff out in establishing 
our positions here.
    But we are now building a spirit of cooperation between our 
two peoples, and we are producing results in the areas of POW-
MIAs, which Ms. Dunn has talked about, emigration, human 
rights, and economic reform. On the emigration issue, the 
cooperation between the United States and Vietnam has been 
excellent. We have completed nearly all of our emigration 
processing under the Orderly Departure Program, resettlement 
opportunities of the returnees, the ROVR program, the 
subprograms of the former reeducation camps, the HO program, 
and the Montagnard program.
    Since I last spoke to you a year ago, 3,786 persons have 
departed Vietnam and resettled in the United States. That is an 
example of what is happening in the emigration policy and the 
levels of cooperation to be measured between the United States 
and Vietnam. I am confident that renewal of the Jackson-Vanik 
waiver this year will continue to sustain the excellent 
cooperation that we have had with the Vietnamese.
    Now, on MIA and POW. This is a very, very significant 
program. It remains the number one foreign policy issue with 
our engagement with Vietnam, and I am only here to tell you 
that we are making significant progress. The fact is that we 
have gone into the field, we have discovered remains, and the 
Vietnamese, because of their unilateral actions, have enhanced 
significantly the works that we are doing in Vietnam. Because 
of time, I cannot give you all the details, but in my testimony 
you will find where we have been and where we are going.
    The human rights area is another area of major concern 
between our two countries, and in the last 3 years, the times 
that I have been posted to Vietnam, I have seen myself 
significant improvements in the human rights process in 
Vietnam. No, it is not a perfect situation, and it will not be 
for a long time. Much work needs to be done. But I share with 
Congress and the American people the deep concern for the human 
rights situation in Vietnam, and we continue to keep it as the 
cornerstone of our dialog.
    In fact, just last week we held our human rights dialog, 
our annual dialog with Vietnam with significant results, and I 
am confident that that will continue.
    The labor issue comes up often. The International Labor 
Organization, ILO, is involved in Vietnam. We are hooking up, 
hopefully, the AFL-CIO with them for training and to help move 
the Vietnamese along in that area as well.
    Now, very quickly, trade and economic reform. It has slowed 
down, and clearly the reform has stagnated because of a lot of 
reasons, but it looks like there is light at the end of the 
tunnel. I have been told informally that the Vietnamese would 
like to come to the United States to finalize the clarification 
of the BTA, the Bilateral Trade Agreement, and it is likely 
that we should see them back to the United States within the 
next month. Should that occur, it is conceivable that that 
agreement could be signed and, therefore, then submitted to 
your Committee for consideration later this year.
    In conclusion, I would remind you that this is a 1-year 
extension. This is not something that you do not get another 
look at in the next year. In fact, if you will, it is 
significant in the sense that it is a probationary process, and 
you will have the opportunity to look at Vietnam's conduct in 
all of these areas of which I have touched.
    Congressional approval of this waiver sends a vital message 
to the Vietnamese that we are committed to the rule of our 
policy of engagement and that we do want to have a 
constructive, cooperative relationship with Vietnam and that we 
want to stimulate U.S. exports to Vietnam, thereby increasing 
the job potentials here in the United States. I am confident 
that the extension of the Jackson-Vanik waiver this year once 
again will further our sense of engagement and further our 
national interests as we deal with the Vietnamese in the next 
year.
    Thank you, Mr. Chairman.
    Chairman Crane. Thank you, Mr. Ambassador.
    [The prepared statement follows:]

Statement of the Hon. Douglas ``Pete'' Peterson, U.S. Ambassador to 
Vietnam (former Member of Congress)

    Mr. Chairman, I would like to thank you for once again 
inviting me to consult with you about the President's decision 
to waive Jackson-Vanik again this year. Since the waiver was 
first granted in March 1998, it has been an essential component 
of our policy of engagement with Vietnam. I am confident this 
extension of the waiver will continue to advance U.S. national 
interests in Vietnam.
    Before opening our discussion of the current state of U.S.-
Vietnam relations, I thought I might take a brief retrospective 
look at the history of our relationship. In three weeks we will 
celebrate the fifth anniversary of the normalization of United 
States--Vietnam diplomatic relations. This year also marks the 
twenty-fifth anniversary of the fall of Saigon. Anniversaries 
provide a useful opportunity to put relationships into some 
perspective.
    The years between 1975 and 1995 were difficult, as we faced 
both differences over history and our commitments to resolve 
POW/MIA questions and to deal with the tens of thousands of 
refugees flowing out of Vietnam. Progress since 1995 has been 
much smoother, quicker, and more sustainable. As an example, 
our successful and cooperative emigration programs have paved 
the way for nearly 500,000 Vietnamese citizens to resettle 
permanently in the United States.
    Much of what has been accomplished over these five years 
can be directly attributed to the vigorous and productive 
executive/legislative cooperation that has been developed 
relative to Vietnam policy. I would like to take this 
opportunity to thank the members of this subcommittee and the 
members of the House for their continuing interest in U.S.-
Vietnam relations. Your visits to Vietnam, meetings with 
Vietnamese leaders visiting Washington, and other congressional 
interventions on a wide range of issues have reinforced our 
policy of engagement. The House and its members have made 
clear, both privately and publicly, to Vietnam's leaders and 
its people that the United States remains committed to enhanced 
U.S.-Vietnam relations. Progress on some bilateral issues would 
not have occurred without direct assistance rendered by members 
of Congress. In that regard, I would like specifically to thank 
Chairman Archer, Chairman Crane and the members of this 
committee for your direct support and counsel.
    Looking back at the last five years, there is one common 
theme to everything involved in the development of the 
relationship; one factor that should be evident from our 
experience in Vietnam--engagement works. On every issue in 
which we have been able to demonstrate mutual interests and in 
which both sides have been convinced of each other's commitment 
to build a relationship, we have made progress. Each side has 
made gestures to advance this process--the United States lifted 
its trade embargo and Vietnam agreed to assume long-term debt 
and settle property claims. Vietnam, by joining the ASEAN 
Regional Forum and the Asia Pacific Economic Cooperation Forum, 
signaled its desire to play a constructive role on regional 
security, trade issues, and economic development. Vietnam will 
take over chairmanship of the ASEAN Standing Committee (ASC) 
and the ASEAN Regional Forum (ARF) after the July ASEAN 
Ministerial Meeting. This change marks the first opportunity 
for Hanoi to assume leadership positions within ASEAN.
    Bilaterally, engagement at all levels is building a spirit 
of cooperation between our two peoples and producing results in 
those areas that are most important to us--POW/MIAs, 
emigration, human rights, and economic reform. Vietnam's 
cooperation on emigration policy, the test issue for the 
Jackson-Vanik waiver, is exemplary. In the past five years, we 
have completed nearly all immigration processing under the 
Orderly Departure Program, Resettlement Opportunities for 
Vietnamese Returnees (ROVR) sub-program, the Former Re-
education Camp Detainees (``;HO'') program, and the Montagnard 
programs. Since I last spoke to you, a total of 3786 persons 
have departed Vietnam and resettled in the United States under 
all of our various refugee programs.
    This year we relocated refugee and resettlement processing 
from our Embassy in Bangkok to our full-service Consulate 
General in Ho Chi Minh City. This move has enhanced our ability 
to provide essential services. While this move was accomplished 
relatively smoothly, there have been some start-up pains. We 
still hope to finish processing of eligible applicants under 
the ODP and ROVR programs by the end of this calendar year. I 
want to emphasize that we will not consider our refugee 
programs to be completed until the last eligible applicant has 
had the opportunity to be interviewed, or we have an acceptable 
accounting of each case. Vietnamese officials have continued 
their excellent cooperation over this past year and we will 
continue to build on this strong foundation to gain 
authorization to interview all those who wish to be interviewed 
for resettlement in the United States under all refugee and 
related programs. I am confident that the renewal of the 
Jackson-Vanik waiver this year will further enhance the 
excellent cooperation and coordination we now receive from 
Vietnamese officials.
    Like emigration, we have established an impressive spirit 
of cooperation with the Vietnamese in the search for our 
servicemen and women still missing in action from the war. In 
March Secretary Cohen's visit provided an enormous boost to our 
progress in building the people-to-people relationships that 
are slowly replacing suspicion with trust and understanding. 
This is vitally important at this juncture because we have 
finished the easy work; the tasks ahead are becoming 
progressively more difficult. We are now searching in some of 
the most difficult and dangerous terrain in the world--in thick 
primeval jungle and on top of rugged mountain peaks. We face 
unpredictable weather conditions from torrential rains and high 
winds, along with increasingly treacherous situations involving 
the clearing of unexploded ordinance. Nonetheless, young 
volunteer American servicemen and women and their Vietnamese 
counterparts continue to brave these severe and highly 
dangerous conditions to locate the remains of our MIAs. I am 
never more proud than when I meet these young people, most of 
whom were born well after any of the loss incidents they are 
investigating.
    Vietnam continues to support the President's Four Measures 
of Cooperation on the POW/MIA issue. Since 1993, thirty-nine 
(39) joint field activities have been conducted in Vietnam, 288 
possible American remains have been repatriated, and the 
remains of 135 formerly unaccounted for American servicemen 
have been identified, including 26 since January 1999. This 
would not have been possible without bilateral cooperation 
between the U.S. and Vietnam. Of the 196 Americans that were on 
the Last Known Alive list, fate has been determined for all but 
41 men. Many of the American losses occurred in Laos and 
Cambodia. To date, Vietnam has provided 39 witnesses for 
investigation of possible loss sites along the border and 
within Laos and Cambodia. The Vietnamese continue to provide 
documents and films to investigation teams. Since 1993, 
approximately 28,000 items have been reviewed for possible 
information that would lead to an accounting for our fallen 
comrades. As presented here, Vietnam's cooperation in our 
efforts to account for missing Americans from the Vietnam War 
remains excellent and in good faith; without such cooperation, 
closure for the many families of our missing warriors would not 
occur. Let me assure you, the quest for fullest possible 
accounting of POW/MIAs remains our number one foreign policy 
priority with Vietnam.
    Since my posting to Hanoi, I have seen significant human 
rights improvements in Vietnam. It is not a perfect situation 
and we have additional work to do in encouraging Vietnam to 
make further improvements in this critical area. I share with 
the Congress and the people of the United States a deep concern 
for the human rights situation in Vietnam. We have established 
a serious dialogue with the Vietnamese on human rights issues, 
and, just last week, we held annual high-level human rights 
discussions with Vietnam's representatives here in Washington. 
Secretary Albright raised human rights issues with Vietnamese 
senior leadership during her visit last year. In addition, my 
staff and I constantly work with Vietnamese officials to keep 
this issue a cornerstone of the bilateral relationship. I am 
pleased to report that our policy of engagement and dialogue 
has produced encouraging results.
    This year, Vietnam liberalized its policy toward tolerating 
public dissent, and the Vietnamese Communist Party continued 
its efforts to reform procedures on internal debate and to 
allow a mechanism for citizens to petition the Government with 
complaints. We have seen evidence of this in various 
publications, but one of the clearest demonstrations can be 
seen on the streets outside the National Assembly Hall, where 
delegates are currently in session. Ordinary Vietnamese 
citizens are carrying placards demanding change on political 
and economic issues. Some placards I personally witnessed 
complained about corrupt local officials in their home 
districts.
    Additionally, the Vietnamese released nearly 20 religious 
or political prisoners and thousands of others from jail this 
year. Among those released were 12 Hmong Protestants and three 
Catholic priests. Participation in religious activities 
throughout the country continued to grow significantly. 
Churches are generally full on days of worship and on special 
days of remembrance large numbers of followers celebrate. An 
estimated 500,000 Hoa Hao gathered in An Giang province for a 
religious festival and an estimated 200,000 Roman Catholics 
attended the annual La Vang pilgrimage. The Vatican and Vietnam 
have regular dialogue. We are also encouraging Vietnam to 
recognize more than one group of Hoa Hao adherents. Ambassador 
for Religious Freedom Robert Seiple visited Vietnam last year 
and witnessed many of the improvements and issues first hand. 
Still, much remains to be done, but there has been progress and 
we want to encourage further progress in the future.
    Conditions for workers have also improved. The 
International Labor Organization has opened an office in Hanoi 
and has moved quickly to assist Vietnam to implement its new 
labor law. The ILO is also providing technical assistance to 
help establish a workers' compensation and social security 
program, to improve occupational health and safety standards 
and inspectors, to train union members for negotiation of 
collective bargaining agreements, and to review overtime 
procedures. The ILO also conducted a two-day seminar in Vietnam 
to educate Vietnamese officials on the importance of ILO 
Conventions 138 and 182 on Child Labor. We anticipate that the 
AFL-CIO, working with the ILO, will bring to Vietnam in the 
near future its tremendous experience and dedication to the 
cause of Workers' rights.
    You should also know that there were numerous 
(approximately 60) private and public strikes during the year, 
primarily against foreign-owned or joint venture companies, but 
a number also involved state-owned and private firms. The 
Government tolerated these strikes, even though most were 
spontaneous and supported by organized labor after the fact. In 
some cases, the Government disciplined employers for illegal 
practices that led to strikes. In October 1999 the Government 
reduced the length of the workweek for government employees and 
employees of companies in the state sector from 48 hours to 40 
hours.
    Organizing this year's annual Human Rights Dialogue was the 
easiest I have yet experienced, and for the first time 
Vietnam's delegation met with U.S.-based human rights NGOs. In 
last week's human rights dialogue, Assistant Secretary for 
Democracy, Human Rights, and Labor Harold Koh raised freedom of 
speech, association and religion, Vietnam's administrative 
detention decree, prison conditions, labor rights, information 
on former prisoners of conscience, as well as specific 
detention cases of concern to us. Vietnam's delegation also met 
with the Council on International Religious Freedom. The tone 
of the meetings was the best ever. I believe that we have 
finally established in-depth mutual understanding on this issue 
that will encourage a spirit of cooperation on human rights.
    Expanding economic linkages between the U.S. and Vietnam 
has been another challenging mission. Although we have made 
excellent progress over the past five years in expanding U.S. 
exports to and investment in Vietnam, this past year has been 
particularly frustrating. Perhaps the relationship is just 
experiencing growing pains. When I spoke with you last year, we 
were in the middle of the 8th round of trade negotiations with 
Vietnam. One month later in July, we reached agreement in 
principle on the bilateral trade agreement. Following technical 
discussions in August, we had high hopes of signing the 
Bilateral Trade Agreement during the APEC Summit in September, 
but Vietnam balked at the last minute. I know all of us were 
disappointed by this outcome, because concluding the BTA will 
bring real benefits to both sides. Not only would the BTA open 
markets to American companies, but implementation of its terms 
would mean that, over time, Vietnamese citizens would gain 
significant freedom to determine their own economic destinies.
    Nonetheless, I still hope we can complete the agreement 
before the end of this administration. We are currently 
awaiting Vietnam's answer to the United States Trade 
Representative's May 17 invitation to Vietnam's Trade Minister 
for discussions in the U.S. to finalize the BTA. Ambassador 
Barshefsky's invitation responded to Vietnam's March letter 
indicating issues on which Vietnam desired further 
clarification. Without access to the U.S. market on competitive 
terms, Vietnam cannot attract the foreign direct investment and 
expertise to be able to compete in international markets with 
its neighbors in ASEAN and China.
    Over the last six months, selected macroeconomic indicators 
have given the leadership of Vietnam a sense of comfort that 
has led to a slowdown in economic reform. Although foreign 
direct investment flows have plummeted as economic reform has 
stalled, higher oil revenues, improving exports to recovering 
regional trading partners, increasing remittances from overseas 
Vietnamese, and rising levels of official development 
assistance have stimulated Vietnam's economy. Growth has risen 
from less than 4% one year ago to an estimated 5.6% in the 
first quarter of this year, seemingly validating arguments for 
slowing the pace of change.
    We have seen some progress on economic reform, 
nevertheless. Vietnam's State Bank issued important new 
prudential regulations and took the first steps in 
restructuring Joint Stock Banks and State Owned Commercial 
Banks. The National Assembly approved an important new foreign 
investment law and the new Enterprise law, which streamlined 
domestic business formation. The government moved to simplify 
equitization, divestiture, transfer, sale, or lease of small 
State Owned Enterprises (SOEs) and allowed foreigners to own 
equity in SOEs. Minor steps were also taken toward trade 
reform; the government reduced tariffs, liberalized import/
export rights, removed some import licensing requirements, and 
improved foreign exchange regulations. The National Assembly 
has also extended, on a temporary basis, normal trading 
relations status to United States goods pending completion of 
the Bilateral Trade Agreement.
    The reform agenda remains long and the next steps--
expanding competition in the financial sector, removing further 
protections for SOEs, and opening to the global economy--can 
free Vietnam's people to stimulate more rapid economic growth. 
With approximately 1.3 million annual entrants into the job 
market, Vietnam's annual growth rate needs to approach 10% to 
absorb new job seekers and to keep pace with its neighbors.
    This past year, Ex-Im, OPIC, TDA, and USDA programs made 
available by the Jackson-Vanik waiver began to have the 
positive impact on U.S.-Vietnam commercial relations we all 
expected. USDA's Cooperator Program is improving dietary 
sensitivities that can lead to greater demand for U.S. 
agricultural products. A 25,000 MT wheat donation authorized 
under Section 416(b) of the Agriculture Act of 1949, generated 
considerable positive publicity and good will among the 
Vietnamese people. The grain's timely arrival in Vietnam's 
Central Provinces just before major flooding augmented a 
considerable United States humanitarian effort to provide 
relief to thousands left homeless. Local currency earned from 
the commercial sale of the wheat will be applied to disaster 
mitigation and rural development projects in Vietnam. These 
projects build Vietnamese goodwill for the U.S. More 
specifically, OPIC lent Caterpillar's local distributor $2.3 
million for an expansion of the company's facilities and OPIC 
has approved an $8 million loan for a new pharmaceutical 
factory. A few more project finance applications are in the 
pipeline. The Trade and Development Agency continued to support 
U.S. businesses through funding of feasibility studies and 
technical training. Finally, Ex-Im Bank signed two agreements 
making its insurance and loan programs available for the first 
time to U.S. exporters.
    The Jackson-Vanik waiver remains a prime example of 
executive/legislative cooperation on foreign policy and an 
essential element of our engagement with Vietnam. It has 
promoted greater Vietnamese cooperation on the total range of 
bilateral issues. Congressional approval of the waiver sends a 
vital message to Vietnam's leadership and people that the 
United States wants a cooperative, constructive relationship 
with Vietnam. The policy tools the Jackson-Vanik waiver makes 
available build the people-to-people relationships that will 
strengthen trust between our societies. I am confident that 
this extension of Jackson-Vanik will further advance the 
national interests of the United States in Vietnam. I urge 
members of the House to support the President's waiver.

                                <F-dash>


    Chairman Crane. Could you elaborate any further on why the 
agreement has not been signed?
    Ambassador Peterson. Yes. I think, by and large, the 
Vietnamese became very, very frightened at the complexity of 
this trade agreement. The trade agreement is patterned and 
created under the auspices and principles of the WTO. When we 
first began speaking to the Vietnamese about these principles, 
frankly, they did not understand them at all. And even if we do 
not get the agreement signed, the very fact that we have 
educated the Vietnamese on these very complex issues will be a 
benefit to future relationships on trade. But they became very 
frightened. I think there was an internal debate that took 
place within the halls of the Politburo and the National 
Assembly and others, and they just came to the point where they 
said, you know, we are not ready.
    It has been nearly a year since we initialled the Principle 
Agreement. I think now that there is much greater understanding 
in the country as to the benefits associated with this, and now 
I think, too, that the concern that they had of losing control 
of the economic situation in Vietnam is becoming a lesser 
matter, and that has been, I think, stimulated again by the 
very fact of the passage of permanent NTR for China here in 
this hall just last month. I think all of those factors have 
given the Vietnam a comfort factor in moving ahead to the 
future.
    Chairman Crane. Could you describe a little bit the scope 
of the agreement in principle that was reached last year in the 
bilateral commercial agreement?
    Ambassador Peterson. I can't tell or relate all of the 
details because they are not--I am not a trade expert, for one, 
and I don't understand some of these complex issues. 
Nevertheless, I can assure you that they do take the Vietnamese 
to the next step.
    The agreement is largely designed with the evaluation of 
the Vietnamese market and the potentials for implementation, 
but it addresses very concretely the intellectual property 
issues that are very important to any kind of commercial 
engagement. It has the opening up of sectors of the market that 
we are concerned about. It addresses tariff issues that are 
always of concern; and, just in general, it has a small chapter 
on investment that is critical to any kind of engagement we 
might have.
    Chairman Crane. Our previous witness talked about 
government subsidies of businesses going over there and implied 
they are just losing taxpayer dollars. Those businesses that 
have had assistance to do business in Vietnam through such 
things as the Ex-Im Bank loans or OPIC or the Department of 
Agriculture providing assistance, have there been significant 
American businesses going in there that have failed?
    Ambassador Peterson. No, I don't think any would come out 
and just say they have failed, but there have been businesses 
that lost patience with the process, and that is clear. Because 
some of the reforms that were necessary for some to be 
successful in various sectors, the energy sector is a case in 
point, that just did not materialize as was expected, and so 
some of those companies obviously saw opportunities in other 
countries, so they pulled their investments out and went to 
another country. That is how business works.
    But the programs of OPIC and the Ex-Im are infant, and only 
a very few have been used. Because we just haven't had that 
much interest on the American side to invest in these last 
couple of years because of the downturn of the FDI interest in 
Vietnam in general. But I don't think that you are looking at--
certainly you are not looking at a subsidy program, if you 
will, with the enticement of American companies to come to 
Vietnam.
    Chairman Crane. Finally, what impact would denying the 
Jackson-Vanik waiver have on our relationship with Vietnam and 
any future progress on the POW-MIA accounting and immigration 
issues?
    Ambassador Peterson. I think failure of the renewal of the 
Jackson-Vanik waiver between the two countries would be very, 
very damaging to our overall relationship. While it wasn't 
meant to be, it has become the symbol of American commitment of 
engagement and of cooperation into the future. I don't think 
that the Vietnamese would negatively in any way impact--allow a 
negative impact to our MIA search efforts. They have long 
stated that as a humanitarian issue; and, in fact, we have now 
established, I believe, a partnership in that regard in that we 
are helping them locate the lost persons from the war, which 
number 300,000, by the way.
    So we are working this back and forth in a very 
humanitarian way. So I don't think there is any threat there of 
withdrawal should this not pass. Nevertheless, there is a whole 
host of other things that we are working with the Vietnamese 
on, be it counternarcotics, be it health programs, be it 
environmental programs and things like that that would likely 
suffer greatly if we were not able to pursue.
    Now, again, I don't think it would have a negative impact, 
a severe negative impact on the emigration policy, because the 
Vietnamese have indeed moved forward to embrace international 
standards of emigration policy, which, of course, is the basis 
for the Jackson-Vanik waiver.
    Chairman Crane. Thank you, Mr. Ambassador.
    Mr. Levin.
    Mr. Levin. Thank you. Welcome.
    Ambassador Peterson. Thank you.
    Mr. Levin. Nice to see you again, Pete.
    Would you like to comment--and it is not necessary, 
perhaps, but you heard Mr. Rohrabacher's comments about POW-MIA 
issues. Would you like to say a word about that?
    Ambassador Peterson. I only would cite the fact that I have 
personally seen, if you will, the master list of POWs held in 
Vietnam. We have had that in our possession since at least 
1992, which was a very ragged, very wide--on very bad paper, I 
might add--list of everybody that the Vietnamese claim to have.
    Now, it wasn't by prison. It was just the master list. It 
was almost like checking in at a hotel, the registrar's 
listing. And we have that in our possession, and my name is on 
it, a number of other names that you would be familiar with are 
on it. I have forgotten the exact number of names on that, but 
even some that did not come out of prison on--who lost their 
lives there after having been captured are on that list.
    And so, I don't know that there is a prison-by-prison list, 
and I doubt it seriously. There were at least 11 prisons in 
Vietnam, and we moved around in those prisons frequently. So at 
any 1 day, you would get a snapshot list but you would not get 
a list, if you will a definitive list, of persons who had been 
in that one prison for the entire time that we were 
incarcerated.
    Mr. Levin. Thank you. In your testimony, and you referred 
to it briefly in our oral presentation, you mentioned in terms 
of conditions for workers, we anticipate that the AFL-CIO, 
working with the ILO, will bring to Vietnam in the near future 
its tremendous experience and dedication to the cause of 
workers' rights. And maybe this is too preliminary for further 
comment, but is there anything further that you could tell us 
about that?
    Ambassador Peterson. Well, for the last 3 years we have had 
a dialog with AFL-CIO and they have had at least three 
delegations visit Vietnam to evaluate the possibility of 
engaging in, perhaps through the good offices of the ILO, a 
dialog with the Vietnamese on the establishment of labor law 
and the implementation of the labor law. The labor law in 
Vietnam actually is pretty good.
    Mr. Levin. On paper.
    Ambassador Peterson. On paper. The problem of course is 
implementation. And in a general sense, the ILO is working with 
the Vietnamese very diligently to pursue greater implementation 
nationwide on that document and to further expand that into the 
areas that it does not quite meet the test.
    And the AFL-CIO have, without commitment yet, but have 
signaled an interest in coming in and marrying up with the ILO 
to conduct technical assistance.
    Mr. Levin. And that is being pursued by the embassy? By 
your staff?
    Ambassador Peterson. Yes, I personally have been involved 
with this myself since actually before I ever even was posted 
to Hanoi.
    Mr. Levin. By the way, and I perhaps should know this, it 
indicates why we should have a better idea of the real dynamics 
within Vietnam, the state-owned enterprises, are they still the 
majority of the economy within Vietnam?
    Ambassador Peterson. Yes.
    Mr. Levin. They are?
    Ambassador Peterson. Yes, and there is a move, of course, 
for the equitization--that is their word for privatization--of 
the SOEs, the state-owned enterprises. They are moving not as 
fast as we would like to see them move, but there is enormous 
problems with valuation in those SOEs. Those are ancient 
companies whose inventories and accounting practices have been 
pretty bad, and so they are having the difficulty of 
establishing valuation.
    They have gone so far, however, to say in the process of 
equitization that foreign entities can, in fact, purchase up to 
I believe 30 percent of the SOEs in that process. And that is a 
breakthrough, and a further breakthrough is that on July 1st, 
the Vietnamese will open its very first stock market in Ho Chi 
Minh City, and that will open up the opportunity for a greater 
SOE equitization, so that they can build capital from the stock 
market.
    Mr. Levin. Thank you.
    Chairman Crane. Mr. Ramstad.
    Mr. Ramstad. Thank you, Mr. Chairman. And Ambassador 
Peterson, it is good to see you again. As one of your three 
classmates on the panel, I just want to say that you made all 
of us very, very proud and I certainly appreciate all the hard 
work that you have done to improve relations with Vietnam and 
the work you have done with the Vietnamese government to 
improve economic conditions there and your work on economic 
reforms as well.
    I certainly agree with you, Pete, that opening Vietnam's 
economy and markets will make Vietnam stronger and improve the 
lives of the Vietnamese people, and of course it is music to my 
ears whenever we have an opportunity for more export markets. 
My farmers appreciate it. Our businesspeople appreciate it and 
need it, and so it is obviously good for our economy as well.
    While I firmly believe that trade and economic development 
are vital to the development of democracy in Vietnam, I am 
concerned about the benefits of trade and economic development 
reaching down to the oppressed ethnic minorities. I have read 
the accompanying statement from the State Department 
accompanying the waiver request. I am concerned about what the 
government of Vietnam is doing, if anything, Mr. Ambassador, to 
promote economic development among minority groups, especially 
our former allies, the Hmong, the Khmer Rouge and the 
Montagnards.
    Two questions: What is the government of Vietnam doing to 
promote economic development among these minority groups, 
particularly the three I referenced? And second, what is your 
country team doing to encourage and monitor the situation?
    Ambassador Peterson. The Vietnamese, it is really quite a 
mixed process as to the minority groups. There are 54 minority 
groups in Vietnam. In some provinces, it is totally merging and 
you really cannot see any differentiation between one to the 
other. But once you get out into the very, very serious rural 
areas, mountainous areas where the Hmong and some of the Thai 
and others locate, it is very, very distinguished that there is 
a separation. And some of it is self-imposed. It is not 
necessarily something that the government can do much about.
    Those are extremely poor areas which we are talking about, 
and the Vietnamese have, and through the good offices the World 
Bank, ADB and through the donor programs that other nations 
have, have worked very hard to move the investment out into 
those rural areas because they see that that is a major need. 
In fact, they have identified 1,600 communes that have special 
needs for the alleviation of poverty and hunger.
    Now, you can say how do you fix that? Clearly, it is not by 
just going into that commune and dropping off bags of rice. 
What you have to do is create sustainable jobs. And so those 
programs are focused on that. And to a very minor, minor 
extent, the American programs that we have are assisting in 
that regard. We have very little USAID money, as you know, and 
so we are not so much involved with economic development in 
that program but more humanitarian and in a sense some of those 
hunger and poverty issues become humanitarian.
    But the overall is positive, and our country team watches 
very closely. I have traveled to--personally, to well over 50 
of the 61 provinces and my staff is out in those areas 
virtually weekly. And we report that rather frequently back to 
the U.S. through the State Department and I am sure those 
reports would be made available to you if you would like.
    Mr. Ramstad. And I appreciate that. And that certainly 
corroborated what my friends from Cargill tell me. You have 
traveled throughout the country to the hinterlands and you have 
helped American companies as well in the process. Let me just 
conclude, if your team could get to me, because of my concern 
before this goes to the floor, if possible, the economic 
condition of each of the three groups I pointed out, and then 
any planned actions either by the government or NGOs to help 
ensure that the benefits of U.S. trade do reach the minorities.
    Ambassador Peterson. OK. We will work on that. I would 
ask--the term ``Montagnards'' is a very generic term and it 
means all of those groups essentially and I would need, if you 
would, to just jot down now we are talking two groups, and I 
will get that back to you.
    [The following was subsequently received:]
    What are the economic conditions of the Hmong, Khmer, and 
``Montagnard'' minority groups and what are actions planned by 
the Vietnamese government and non-governmental organizations to 
help ensure that the benefits of U.S. trade do reach the 
minorities?
    The ``Montagnard'' people, some 6.5 percent of the total 
population of 78 million, comprise more than 30 ethnic groups 
in the Central Highlands. The Hmong number approximately one 
percent of the population and live in the highland regions of 
the northwest border provinces. Both groups have a lower 
standard of living than the majority Vietnamese population and 
many of their communities suffer from severe poverty. This is 
due to a variety of factors, including high population growth, 
environmental degradation, isolation, and social and cultural 
marginalization. The Khmer constitute one and a quarter percent 
of the total population with the majority residing in the 
eastern coastal provinces of the southern Mekong River delta 
where they engage in wet rice cultivation and are relatively 
prosperous. On the other hand, the Khmer of the western Mekong 
delta near Cambodia live in relatively isolated pockets and 
their overall standard of living is much lower than their 
eastern brethren.
    In general, increased economic development and expanded 
trade and tourism have helped ethnic minority communities in 
Vietnam, though progress in developing these communities has 
been uneven. Many of these groups have long been isolated, and 
expanding trade and increasing investment clearly help to 
improve living standards and economic and educational 
opportunities for members of ethnic minority groups, especially 
those in areas located near larger cities and in the delta. 
Over the past ten years, Vietnamese government and NGO programs 
have made gains in increasing educational opportunities and 
health conditions for persons in ethnic minority communities.

    Mr. Ramstad. I will break that down and be more specific. 
Great to see you. Thanks for the wonderful job you are doing 
and God bless.
    And I yield back.
    Chairman Crane. Ms. Dunn.
    Ms. Dunn. Thank you very much, Mr. Chairman. Ambassador, it 
is great to welcome you here. We were disappointed last 
December, when Congressman Crane was going to lead a delegation 
to Vietnam, that we were not able to secure the airplane we 
needed and so we couldn't visit you. I would like to see 
firsthand how things are doing there. But just for the benefit 
of somebody like me, who comes from a state that is very 
reliant on trade, one out of four, almost one out of three jobs 
almost are now related to trade, I am curious for your feel 
about what is going on in Vietnam with regard to the level of 
activity by American firms in Vietnam. How does it compare to 
other countries that are doing business? Are you in a position 
to help out our American firms?
    Boeing is an example. Microsoft. What do you see as the 
future of trade from the United States with Vietnam?
    Ambassador Peterson. I think the opportunities and the 
potential are enormous. But, in fact, the economy has stagnated 
because the government has, in fact, stagnated their reform 
process. And as a result, with the increase, if you will, of 
the recovery of the Asian financial crisis, the neighbors of 
Vietnam become more attractive as to attracting that investment 
that would otherwise come to Vietnam. So we are not seeing a 
lot of new companies come to Vietnam but those who are already 
there--and Boeing is there. Vietnam Air flies three 767s right 
now, and they are looking at the potential purchase of 
additional Boeing aircraft in the next year or two.
    But the others, like Microsoft certainly is there in a very 
big way. We just had a dinner celebrating the--what is it--the 
new program that Microsoft has just come out with, the 2000 
program, and that was a big hit in Vietnam and virtually 
everyone knows those two companies there.
    Some companies though, I have to tell you, are not doing so 
well. Some companies are doing very well. And it has a lot to 
do with sector opportunity, and it also has to do with 
management of those companies because some companies have not 
really patterned their opportunities or actions against what 
the realities are yet in country.
    But the potential is there for American export. We have 
your apples in Vietnam. We have a whole host of Washington-
based companies that are involving themselves there, and I see 
nothing but a bright future for the export market into Vietnam 
as it adheres to greater reforms.
    Ms. Dunn. Thank you, Mr. Chairman.
    Chairman Crane. Mr. Nussle--Mr. Camp.
    Mr. Camp. Thank you, Mr. Chairman. Welcome, Ambassador. It 
is good to see you. Your testimony always has great weight 
before this Committee and partly because we all know you and 
have great respect for the job that you did as a Member of 
Congress and the job that you are doing now as Ambassador to 
Vietnam and also your experiences. Thank you for being here and 
for your testimony.
    My question, I just wanted to go into a little more detail, 
if you could, about some of the concrete steps the Vietnamese 
have taken to help us resolve the remaining POW/MIA cases and 
what you see as the greatest obstacle to resolving those cases 
that remain.
    Ambassador Peterson. You know, Dave, I think the biggest 
obstacle is just the logistics now. We have, from the 
Vietnamese side, had enormous unilateral efforts on their part 
to help us discover locations, establish identities of 
witnesses that will give us information concerning the cases 
that remain unresolved. All the things that give us access to 
their archives, all of those things are there.
    But just the pure logistics is enormous. I wish I could 
take you out and show you, and you might have seen, in fact, 
when Secretary of Defense Cohen visited. He visited one of the 
most difficult sites that we had had for some time, and people 
are working in water up to their chest and mud up to their 
knees at least or beyond in effecting the kinds of search 
efforts. And now we are going into circumstances where the 
sites are so remote that people are having to walk for hours 
into the jungle to get to those sites and then camp out in some 
of the most dangerous places in the world and on mountain tops 
and on sides of mountains as well.
    So the logistics are becoming our major obstacle for making 
faster progress, because now when we get out to one of those 
sites what might have taken you 3 weeks to do is now taking 6 
or 8 weeks when we have to go back. And then there is another 
factor and that is the danger. We put so many of our cases sort 
of back off to the side because the site itself was too 
dangerous because of unexploded ordnance that was associated 
with the crash site. And now we are having to go into those 
places, and I am very concerned about that because I don't want 
to lose any life or have anyone injured associated with that.
    But I think the bottom line is the biggest problem is the 
logistical issue, access is not a problem. Unilateral action is 
not a problem, and cooperation is not a problem.
    Mr. Camp. Thank you very much for that summary. On some 
economic issues, obviously some of the trade statistics are not 
as good in recent years as they were beginning to be in sort of 
the mid-nineties, and the foreign direct investment figure has 
begun slipping, and I understand some new commitments are 
expected. To what extent do you believe that the lack of 
implementing structural reforms to revitalize the economy has 
affected foreign investment?
    Ambassador Peterson. It has had a devastating impact on 
attracting foreign direct investment. Their lack of moving 
forward with the kind of reforms they needed to do in the 
financial sector and the re-equitization of the state-owned 
enterprises and the trade issues has severely restricted the 
importation of foreign direct investment.
    They could turn that around virtually overnight by signing 
the bilateral trade agreement, because that has in all of it a 
reform package essentially that they would buy in. And it also 
in a sense allows time, because there are time lines associated 
with it, for them to build the infrastructure, the institution 
infrastructure that has to be in place for them to implement. 
And it is a good agreement in that respect.
    But the fact that the Vietnamese stalled on their reform 
efforts has directly impacted negatively their opportunities to 
attract investment. But I would say that there is an 
encouraging sign on the American side. In the last quarter, 
American exports to Vietnam were $110 million. That is quite a 
step above last year and might be an indicator for the future.
    Mr. Camp. Thank you very much for your insight and your 
comments, and it is great to see you, Pete, and congratulations 
on all of your successes. Thank you. I yield back.
    Chairman Crane. Mr. Neal.
    Mr. Neal. Thanks, Mr. Chairman. Great to see you, Pete. I 
read where the Chinese often describe their new approach to 
economics as being a mixture of socialism and capitalism. How 
would you describe the Vietnamese framework for their economic 
system?
    Ambassador Peterson. It is very close. Very close to that. 
Their idea is they still are saying that they want the state-
owned enterprises to have a majority piece of the economic 
well-being of the country, which means that they want to 
maintain a significant portion of control.
    On the other hand, it becomes unrealistic because of the 
state-owned enterprises. They are so badly managed, many of 
them are in serious debt, and over 50 percent of them are not 
profitable. And so they might make a statement like that but it 
is not sustainable. But in a general sense, they would probably 
say and describe their new marketplace as that same combination 
as the Chinese.
    Mr. Neal. As we recently concluded the debate on permanent 
normal trading relations with China, much of the discontent 
that surrounded that debate dealt with the issue of human 
rights. Could you just quickly give us your sense of whether or 
not American values introduced into a free market advance our 
interests or whether or not a tight economic system precludes 
that?
    Ambassador Peterson. I am convinced that through 
engagement, through dialog and through the creation of a strong 
economic engine, that we are at our apex of having the greatest 
amount of influence on the improvement of human rights in any 
country.
    In the process of building the economic engine, you empower 
people, and through that empowerment they then determine their 
own destinies. And you can see it happening, in the urban areas 
particularly, in Vietnam right now. You will see even greater 
adherence to that once the economic engine kicks in and the 
economic engine reaches even somewhere close to the potentials 
that exist in Vietnam. Those citizens will be enriched. The 
government will be more comfortable because there will not be 
so many pressures, financial pressures, and they then in the 
process will have a new role for individuals.
    In the process the quality of life for everyone, in this 
case 80 million people, improves, and I think that in itself is 
a human rights issue. If you have that many people having a 
greater lifestyle and more comfortable life, a healthier life 
and one in which individual potential is realized, I think that 
is a significant improvement.
    Mr. Neal. Do you have a time line? Do you have any sense of 
where we are in history and where we are going with that?
    Ambassador Peterson. Well, I think it is really hinged on 
the Vietnamese courage in signing the BTA, because the BTA is 
the one thing that is going to really kick the economy in 
Vietnam.
    Now, it is not all American. The bilateral trade agreement 
will be a very significant psychological lift to not only 
American investors but investors all over the world, because if 
in the process of implementation of that agreement the 
Vietnamese reform their financial sector, and of course reform 
their state-owned enterprise sector and reform their trade 
sector, the entire world trade organizations will benefit and 
you are going to see probably, if this trade agreement was to 
be signed and implemented, that the first major influx of 
foreign direct investment is likely to be not American but is 
likely to be in some of those industries that are already 
there, like from Korea or Taiwan or Singapore. But then 
Americans are sitting there at the doorstep to take advantage 
of that as well.
    Mr. Neal. You are always most welcomed here and great to 
see you, Pete.
    Ambassador Peterson. Thank you.
    Chairman Crane. Mr. Watkins.
    Mr. Watkins. Thank you, Mr. Chairman. Mr. Ambassador, 
welcome again. Always delighted to see you here, and appreciate 
the job and the professionalism that you go about doing that 
job in Vietnam.
    I am proud of Oklahoma. We were the first state to step 
forward to put in a trade office in Vietnam. As you well know, 
States have limited dollars and it is one of those decisions 
that was made to try to be there early and to try to be of 
assistance. There is always a little debate on where that money 
should go. And especially without the bilateral trade 
agreement, there is a lot of people who say we should not have 
been there. Some of us think it is always good to be a leader 
in areas.
    I know that debate will continue as we try to position 
ourselves in trying to help our business and industries and 
others in the area.
    The question is, you know, do you have other States there 
full-time now? Or is Oklahoma still basically the only one?
    Ambassador Peterson. It turns out that Oklahoma has the 
record for staying power.
    Mr. Watkins. We have always been a hardy bunch.
    Ambassador Peterson. And I think it has been very 
beneficial to you. Florida had an office there and it actually 
was withdrawn because of funding issues in January, I believe 
is when that office closed.
    But Oklahoma has for not so much cost actually been there 
over these years and has established a very strong relationship 
with their counterparts in Vietnam, which is going to serve 
Oklahoma issues or interests a great deal once the opportunity 
breaks through for the BTA. For instance, if the BTA was to be 
signed this year and implemented next year early or something 
like that, your office would be in first place to reap the 
benefits from that, particularly as it might apply to the 
energy sector or the agricultural sector, of which you have 
great interest.
    So I think it is a good investment, and I think that to 
stay there now would be wise and to carry this out, and I think 
it is really minimal costs.
    Mr. Watkins. How close do you think we are, Pete, in 
getting to that agreement? I mean, do you see any--what is the 
problem, do you think? What can we do to help break the ice and 
get that?
    Ambassador Peterson. Well, we really have been working on 
this very hard. USTR--and Joe Devane is with me, our chief 
negotiator--have done yeoman's work in pursuing this, as has 
our State Department and my mission in Vietnam, to encourage 
the Vietnamese to move forward with the signing of this 
agreement. It is very key to their economic recovery and their 
road toward WTO. As I said earlier, I have been told 
unofficially that the Vietnamese intend to come back to the 
United States to work out the final details on this trade 
agreement as early as the end of this month and perhaps into 
July. But if that were to occur, then I think we are very, very 
close to signing that agreement.
    Mr. Watkins. Pete, let me ask you along this line, and I am 
kind of just thinking out loud with the chairman, as you know, 
Congresswoman Dunn indicated that--I forgot when it was, Mr. 
Chairman, but I know you invited me to go along, we were 
looking at going to Vietnam. Do you think it is timely? I mean, 
maybe this is a timely--would that possibly help focus a little 
bit if a congressional delegation came?
    Ambassador Peterson. It is always helpful for a 
congressional delegation to visit Vietnam. Every delegation has 
been received very warmly. I encourage strongly as I can for 
you all to come. I know Chairman Crane attempted to come out 
last December and for reasons beyond his control was not able 
to with a good delegation. I hope that we can renew that. But a 
delegation right now would be a useful issue, I think.
    Mr. Watkins. We have a contest coming November that may 
have to take precedence. But let me say, Mr. Ambassador, again, 
I appreciate what you are doing there. In Oklahoma, I have 
tried to lift the vision of a lot of our people about the 
importance of international trade and it is a constant battle 
to try to convince a lot of people that investments have to be 
made. At my alma mater at Oklahoma state we have established an 
international trade area. Also, I have the honor of a 
lectureship that is in my name and I would like to visit with 
you sometimes about coming maybe to Oklahoma and those hardy 
people there that have got that stick-to-it-ness and maybe 
share and lift the vision of our people concerning Vietnam and 
the potential and all there. We have been making investments in 
that country, time, energy, and money, and I know Mr. Clark is 
going to be on the next panel, but I think I could always use 
some great help in trying to be more positive about what we are 
trying to do in that area of the world. So I would like to 
visit with you afterward.
    Ambassador Peterson. I would be happy to help in any way 
that I can. I have to tell you that your trade missions--trade 
delegations from Oklahoma have been probably the most 
successful of any that we have had visit Vietnam, very 
professional, very focused, and have really given a boost to 
the process.
    Mr. Watkins. Well, as a daddy, I am just trying to catch 
up. My son has already been there, and when the opening--so I 
hate for him to always say, daddy, I have already been there. 
So I need to catch up, Mr. Chairman.
    Thank you, Mr. Ambassador, for what you are doing.
    Chairman Crane. I did not realize, Wes, that your son 
served in Vietnam.
    Mr. Watkins. No, he is a world traveler. He majored in 
international trade. He did not serve in Vietnam. He got his 
degree in international trade, and I think he figured out a way 
to travel around the world, Mr. Chairman, and he has been 
there.
    Chairman Crane. I want to thank you very much, Pete. It is 
a delight always to have the opportunity to share time with you 
and to get your insights, especially from the perspective that 
you bring to this debate, and we look forward to ongoing 
contacts with you and hopefully we can get our Trade 
Subcommittee on a trip over there. We will continue working on 
that and look forward to visiting with you over there, too. And 
in the interim any way we can be of assistance you let us know.
    Ambassador Peterson. Thank you very much, Mr. Chairman.
    Chairman Crane. Thank you.
    Now our next panel: Virginia Foote, President of the U.S. 
Vietnam Trade Council; Y Hin Nie, President, Montagnard Dega 
Association, Inc.; Juels Carlson, Associate, Cargill, on behalf 
of the U.S.-ASEAN Business Council; Dan Hoang, Vice President, 
Public Relations, Vietnamese-American Public Affairs Committee; 
and Barry Clark, the Director, Oklahoma Vietnam Office, 
Oklahoma Department of Commerce, and President and Director, 
Pacific Ventures, Inc., in Tulsa, Oklahoma.
    And if our witnesses will please all take their seats. I 
would remind you again we will have your presentations in the 
order that I presented you. If you can keep your oral testimony 
to 5 minutes, let me assure you that any printed testimony will 
be made a part of the permanent record.
    With that, we shall proceed first with Virginia Foote.

 STATEMENT OF VIRGINIA B. FOOTE, PRESIDENT, U.S.-VIETNAM TRADE 
                            COUNCIL

    Ms. Foote. Thank you, Chairman Crane and members of the 
subcommittee. I am pleased to be here today representing the 
U.S.-Vietnam Trade Council to testify in strong support of the 
Jackson-Vanik waiver renewal for Vietnam. As you suggested, I 
will submit my full statement into the record and we have fact 
sheets on Jackson-Vanik and NTR plus a chronology of the 
normalization process which I would like to submit into the 
record as well.
    The Vietnam Trade Council was founded in 1989 as a trade 
association. We have strong membership within the American 
business community. We have offices in Washington and Hanoi, 
and have worked through our educational affiliate, the U.S.-
Vietnam Forum, to help improve relations between the United 
States and Vietnam with educational exchange programs, annual 
conferences, congressional delegations, and programs designed 
to provide assistance on international trade norms and 
standards.
    Today I would like to address why the renewal of the 
Jackson-Vanik waiver for Vietnam is so important for both the 
United States and Vietnam. As we discussed earlier, beginning 
in the late eighties Vietnam's government committed to end its 
isolation and began working to normalize relations worldwide. 
The Reagan, Bush and Clinton administrations recognized 
Vietnam's goal of ending its international isolation and 
responded with a policy of normalizing relations with Vietnam 
through a step-by-step process pegged to cooperation on the 
U.S.'s principal goal of seeking the fullest possible 
accounting for our missing in action from the Vietnam War.
    Since the normalization process betweem the U.S. and 
Vietnam has moved far more slowly than other nations did, 
American business involvement in Vietnam has lagged behind 
other nations and still operates with severe handicaps. Without 
NTR status, a trade agreement and initially without trade 
support programs, American companies nonetheless began 
traveling, investing, and trading with Vietnam. Today the 
United States is the ninth largest investor, with slightly over 
$1 billion committed to foreign investment projects and a 
billion in two-way trade. Two-way trade is up 30 percent the 
first quarter of the year 2000.
    But Vietnam's impressive foreign direct investment growth 
peaked in 1996. It has dropped substantially since then. For 
Vietnam the easy parts of economic reform have been 
accomplished. Harder issues loom large and important steps 
toward reform have been postponed or avoided. But important 
economic reform continues to be made in Vietnam, albeit slowly.
    One of the most significant recent reforms for the domestic 
private sector in Vietnam is the enterprise law, which came 
into effect in January this year. Since that time, 5,000 new 
private enterprises have been started in Vietnam. The number of 
enterprises founded since the law went into effect in January 
equals the numbers founded in the previous 9 years put 
together.
    Vietnamese businesses and foreign investors will not be 
successful until additional reforms are made, and Vietnam knows 
this. Toward this end, additional commercial reform is under 
way in the banking-insurance sector, customs law, and 
competition policy; they are working to eliminate the 
burdensome registration and licensing procedures; intellectual 
property rights are being protected and administrative 
procedures are being streamlined.
    The international community is involved in these reforms. 
Specifically through AID projects, the U.S.-Vietnam Trade 
Council is working on the bilateral trade agreement and legal 
reform in general. It is in this complex and changing economic 
environment that the U.S. and Vietnam are hoping to finalize a 
bilateral trade agreement, and once again Congress is 
discussing the annual waiver of Jackson-Vanik.
    On the merits of the progress in the ROVR program alone, 
Jackson-Vanik ought to be renewed. In assessing orderly 
departure programs, Jackson-Vanik ought to be renewed. But on 
the economic front the renewal of Jackson-Vanik is equally 
important for achieving U.S. Goals. American involvement in the 
economic integration process is welcomed in Vietnam and is 
extremely important to our mutual development and relations 
there overall.
    Americans set a high standard for trade investment, labor 
and business practices. The Jackson-Vanik waiver plus a 
bilateral trade agreement pave the way for normal trade 
relations, which is the crucial goal for both sides. While 
Vietnam has extended NTR status to goods entering the United 
States, the U.S. has not done the same for Vietnam, making it 
one of only six countries that do not have NTR status.
    Yes, Vietnam has a corruption problem. Yes, Vietnam is 
bogged down in its bureaucracy and constituency driven 
decisionmaking process. But are these problems unique to 
Vietnam? They are not.
    The Jackson-Vanik waiver is a crucial building block of 
bilateral trade relations, allowing Ex-Im and OPIC programs to 
continue for American companies in Vietnam.
    Vietnam's strategic and economic role in the region will be 
greatly affected by U.S. policy, and this bilateral policy of a 
step-by-step process of normalizing relations with Vietnam, 
while slow, has produced positive results for American 
interests. The Jackson-Vanik waiver has produced important 
results since the initial waiver was issued by the President in 
1998, and on behalf of my membership I urge to you renew the 
waiver again this year.
    Thank you.
    [The prepared statement follows:]

Statement of Virginia B. Foote, President, U.S.-Vietnam Trade Council

    Chairman Crane, members of the Committee, I am pleased to 
be here today representing as the U.S.-Vietnam Trade Council to 
testify in strong support of the Jackson-Vanik waiver renewal 
for Vietnam. If there are no objections, I would like to submit 
for the record two fact sheets we have put together on the 
importance of this waiver and NTR status, and a chronology of 
the overall normalization process between the United States and 
Vietnam, which began in the Reagan Administration.
    The U.S.-Vietnam Trade Council, founded in 1989, is a trade 
association with strong membership from the American business 
community. With offices in Washington D.C. and Hanoi we have 
worked along with our educational affiliate, the U.S.-Vietnam 
Forum, to help improve relations between the United States and 
Vietnam with educational exchange programs, annual conferences, 
Congressional delegations and programs designed to provide 
assistance on international trade norms and standards.
    Today I would like to address why the renewal of the 
Jackson-Vanik waiver for Vietnam is so important to both the 
United States and to Vietnam. Beginning in the late 1980's 
Vietnam embarked on a bold economic reform program, which 
showed impressive results almost immediately. Vietnam went from 
near famine to become the third largest rice exporter behind 
Thailand and the United States in a matter of a few years. 
Growth rates climbed to 8 and 9%. Foreign investors flocked to 
Vietnam. From 1988 -1999 over $36.6 billion in foreign 
investment was committed. Vietnam had a very low per capita 
income of approximately $250 per year in the early 1990s and 
the international donor community began generous overseas 
development assistance programs, reaching pledges of $2.8 
billion for 1999. Total ODA committed since 1993, when Vietnam 
became eligible, to the end of 1999 equals $16 billion. (UNDP 
Hanoi).
    Also beginning in the late 1980's, the Vietnamese 
government committed to end its isolation and began working to 
normalize relations worldwide. In this area, Vietnam has had 
tremendous success in establishing relations in Europe, within 
Asia and with the United States. Vietnam joined ASEAN in 1995, 
APEC in 1998, and now belongs to over a dozen international 
organizations. Vietnam has observer status in the WTO and is 
committed to joining.
    The Reagan, Bush and Clinton administrations recognized 
Vietnam's goal of ending its international isolation and 
responded with a policy of normalizing relations with Vietnam 
through a step-by-step process pegged to cooperation on the 
U.S.'s principal goal of seeking the fullest possible 
accounting for our missing in action from the Vietnam War.
    As the attached timeline shows, this process has proceeded 
slowly through three administrations but has led to the lifting 
of the trade embargo, the establishment of diplomatic relations 
and the beginnings of economic normalization including the 
initial waiving of the Jackson-Vanik amendment in 1998. On its 
part, Vietnam has greatly enhanced its efforts on issues of 
high priority to the U.S. including the MIA efforts, 
immigration goals, and now economic integration. Just the 
latest in a long line of normalization steps, in March of this 
year Secretary of Defense William Cohen became the first US 
Defense Secretary to visit Vietnam since the end of the War.
    Since the U.S. normalized relations far more slowly than 
other nations did, American business involvement in Vietnam has 
lagged behind other nations and still operates with severe 
handicaps. Without NTR status*, a trade agreement, and 
initially without trade support programs, American companies 
and individuals nonetheless began traveling, investing and 
trading with Vietnam. Today the U.S. is ninth largest investor 
with slightly over $1.0 billion commitment to foreign 
investment projects, and $899 million in two-way trade. And 
two-way trade is up 30% in the first quarter of 2000.
    And Americans are traveling to Vietnam in great numbers. In 
1997 Vietnam issued 98,000 visas for Americans wishing to 
travel to Vietnam, over 66,000 for Vietnamese Americans wanting 
to visit their homeland. In 1998, Vietnam issue 180,000 for all 
Americans. In 1999 the Embassy of Vietnam in DC alone issued 
64,386 visas to Americans traveling to Vietnam, 46,113 of those 
were to Vietnamese Americans.
    By 1996, Vietnam's impressive FDI growth had peaked at $8.6 
billion. Foreign investment dropped by 40% in 1997 to $4.6 
billion and has continued to decline since. In 1998, FDI 
commitments totaled approximately $3.8 billion and in 1999 
dropped to $1.5 billion. Official GDP growth rates were 
calculated at around 5% in 1998 and 4.7% in 1999, a ten-year 
low. Independent observer estimates are even lower. The IMF 
estimates that growth rates may have actually been as low as 3-
3.5 percent in 1999. In 1999 unemployment climbed to 7.4 
percent from a low of 5.9 percent in 1996. And although Vietnam 
was in a sense one step removed from the Asian financial crisis 
with a non-convertible currency and plans for a stock market 
still in the works, 70% of its foreign investment nearly and 
70% of its international trade had been coming from Asian 
countries, and therefore saw a dramatic decrease.
    For Vietnam, the easy parts of economic reform have been 
accomplished. Harder issues loom large and important steps 
towards reform are often postponed or avoided. But important 
economic reforms continue to be made in Vietnam, albeit slowly. 
One of the most significant recent reforms for a domestic 
private sector is the Enterprise Law, which came into effect 
this January 2000. Since that time the 5,000 new enterprises 
have been founded in Vietnam with a total registered capital of 
US$285.7 million. These figures are very significant given the 
small size of Vietnam's fledging private sector. The number of 
enterprises founded since the law went into effect in January 
equals the number founded in the previous nine years. This 
figure does not include the 2,647 enterprises in Ho Chi Minh 
City alone who have switched to new business fields or expanded 
their operations, investing a combined $67.7 million.
    But Vietnamese businesses and indeed foreign investors will 
not be successful unless additional reforms are made. Towards 
this end, additional commercial law reform is underway in the 
banking and insurance sector, customs law, competition policy, 
the elimination of burdensome registration and licensing 
procedures, intellectual property protection, and 
administrative procedures. With the support of USAID, the Trade 
Council's educational affiliate is actively involved in 
supporting these efforts with expert technical assistance. The 
United States should do more in this area--and could do more in 
this area.
    How? As a step towards fully normalized relations, the U.S. 
required the current government of Vietnam in Hanoi to repay 
the $145 million debt the former South Vietnamese government 
owed to the U.S. While it was an extremely bitter pill for 
Vietnam to assume this debt, since 1997, Vietnam has been 
making multi-million dollar payments to the U.S. Treasury. This 
year Vietnam will make payments totaling around $8.0 million 
and payments range from $6-12 million annually until the year 
2019. This debt money could be put to tremendous use through a 
fund focused on educational programs, technical assistance 
work, and business and legal training.
    During the cold war period, it is estimated nearly two 
hundred thousand Vietnamese students spent their college, post-
graduate, and additional training years in universities and 
institutes in the former Soviet Union and Eastern Europe. In 
this post-cold war period when an educated and trained 
population is key to a country's success, a comparatively small 
tens of hundreds students are coming to the U.S. each year, due 
to the lack of funds. This year some 1800 Vietnamese students 
are studying in the U.S. The Vietnamese government just 
recently has committed to funding 400 students abroad annually. 
Would it not serve both Vietnamese and American interest to see 
these numbers grow dramatically? A debt settlement fund could 
be used to help address this problem as well.
    It is in this complex and changing economic environment 
that the U.S. and Vietnam are hoping to finalize a bi-lateral 
trade agreement and once again the Congress is discussing the 
annual waiver of the Jackson-Vanik amendment.
    Initially U.S. policy pegged the Jackson-Vanik waiver to 
progress on the ROVR program specifically and immigration in 
general. While difficult to reach agreement on, the 
implementation of the program has been fairly smooth and rapid. 
The State Department reports that the government of Vietnam has 
cleared over 96% of the ROVR cases. On the merits of progress 
on the ROVR alone, Jackson-Vanik ought to be renewed again this 
year. And in assessing the Orderly Departure immigration 
program overall, Jackson-Vanik ought to be renewed. 
Approximately half a million Vietnamese have come to the United 
States under ODP. Only a small number of ODP cases remain to be 
processed. Since the initial waiver of Jackson-Vanik, the 
Vietnamese have allowed all remaining ODP cases--including the 
Montagnard cases which are of particular concern to the U.S.-to 
be processed under the new and far quicker system developed by 
the Vietnamese initially just for ROVR cases.
    The ODP office in Bangkok has been closed and 
responsibility for handling the few remaining cases 
successfully transferred to the Refugee Resettlement Section 
(RRS) at the Consulate General of Ho Chi Minh City, which 
opened in August 1999. Interviews of remaining ODP and ROVR 
applicants, of which a few hundred remain, are expected to be 
completed by the end of 2000.
    On the economic front, the renewal of a Jackson-Vanik 
waiver is equally important for achieving U.S. goals. American 
involvement in the economic integration process is welcome in 
Vietnam and could be extremely important to overall development 
in the long run. American companies and government negotiators 
set a high standard for trade, investment, labor and business 
practices. American management and technology is greatly 
admired in Vietnam. American companies are actively involved in 
training programs through the Trade Council and individually. 
American products are popular. With a population of 77 million 
with over half under the age of 25 and well educated, Vietnam 
has great potential as a significant trading partner.
    The Jackson-Vanik waiver, plus a bi-lateral trade agreement 
will lead the way for normal trade relations, a crucial goal 
for both sides. While Vietnam has extended NTR status to goods 
entering from the United States, the U.S. has not done the same 
for Vietnam and it remains one of only 6 countries that do not 
have NTR status from the U.S, including Afghanistan, Cuba, 
Laos, North Korea, Serbia, and Vietnam.
    Vietnam has signed an agreement in principle with the U.S. 
on a bilateral trade agreement in July last year and finally 
appears now to be in the final stages of its internal decision 
making process on the signing a final document. The issues in 
the agreement, such as liberalizing the trade and investment 
regimes and the strengthening of intellectual property rights, 
are of great importance to anyone doing business in Vietnam, 
now or in the future, or anyone hoping to see Vietnam's 
standard of living increase.
    The United States should stay involved in this process. It 
is in our interest to see an economically healthy Vietnam in 
the Southeast Asian region. The Economist Intelligence Unit 
estimates that although GDP growth will continue to fall in 
2000 to 4.2% but the completion of a bilateral trade agreement 
with the US this year could boost Vietnam's GDP growth to 5.9 % 
in 2001. With fully normalized economic relations, the United 
States could well join the top ranks of investors in Vietnam.
    Yes, Vietnam has a corruption problem. Yes, Vietnam is 
bogged down by its bureaucracy and conscientious driven 
decision making process. Yes, the vested interests are fighting 
reform. Yes, there is fear of massive unemployment if their 
companies can't compete. Yes, they worry about what lessons are 
to be learned from the economic crisis in the region and the 
role of foreign interests. But are these problems unique to 
Vietnam? They are not.
    Vietnam was slow to set out on an economic reform path that 
other countries in the region began years earlier. And it has 
been a slower process in Vietnam than many hoped and therefore 
it has not been easy for our companies to operate there. But 
the Jackson-Vanik waiver is a crucial building block of bi-
lateral trade relations allowing Ex-Im Bank and OPIC to open 
programs for American companies doing business in Vietnam. In 
1999 the framework agreements, which allow Exim to begin 
operations in Vietnam were completed, and OPIC made its first 
loan to an American company operating in Vietnam. Operations of 
both Exim and OPIC programs are dependent on a renewal of the 
Jackson-Vanik waiver.
    Vietnam's strategic and economic role in the region will be 
greatly affected by U.S. policy overall and by the course of 
bilateral relations in the short run. The bi-partisan policy of 
a step-by-step process of normalizing relations with Vietnam, 
while very slow, has produced positive results for American 
interests. The Jackson-Vanik waiver has produced important 
results since the initial waiver by President Clinton in March 
of 1998 year and it is crucial that the waiver be renewed again 
this year at this important time in our relationship. On behalf 
of our membership, I urge your favorable consideration.
            Thank you.

VIETNAM NTR STATUS AND THE BILATERAL TRADE AGREEMENT

    <bullet> Why does the U.S. need a bilateral trade agreement 
with Vietnam?
    A bilateral trade agreement with Vietnam is important to 
the U.S. because, together with the Jackson-Vanik waiver, it 
allows for Normal Trade Relations (NTR) status to be extended 
to U.S. goods entering Vietnam, and reciprocally to Vietnamese 
goods entering the U.S. The bilateral trade agreement, which 
addresses issues relating to trade in goods, trade in services, 
intellectual property rights and foreign investment, not only 
guarantees NTR but creates more open market access, and greater 
transparency for U.S. exporters and investors in Vietnam. 
Through this trade agreement and provision of NTR status, the 
U.S. will receive the same status that Vietnam affords its 
other trading partners such as the EU, Australia and Canada.
    <bullet> How does Vietnam receive NTR status under U.S. 
Law?
    In order to receive NTR status from the U.S., the following 
criteria must first be met under Title IV of the Trade Act of 
1974, as amended: 1) A waiver of the Jackson-Vanik Amendment 
must be renewed annually by the President; and 2) the U.S. and 
Vietnam must conclude a bilateral trade agreement. Once the two 
governments sign a bilateral trade agreement, it will be 
submitted to Congress with a request for the granting of NTR 
for Vietnam. Non-discriminatory treatment can only be extended 
through a joint ``approval resolution'' passed by both the 
House and the Senate. NTR status for Vietnam would then be 
subject to annual renewal each summer through the continuation 
of the Jackson-Vanik waiver. Currently, countries that do not 
have NTR status are Afghanistan, Cuba, Laos, North Korea, 
Serbia & Montenegro, and Vietnam.
    <bullet> What are the Congressional procedures?
    Pursuant to Section 152 (b) of the Trade Act of 1974, as 
amended, an approval resolution for NTR status is first 
introduced (by request) to the House and the Senate and then is 
referred to the House Ways and Means Committee and the Senate 
Finance Committee. Both the House and the Senate must vote in 
favor of NTR for it to be granted. Because Vietnam is a 
Jackson-Vanik country, the NTR request has built-in procedures 
for Congressional consideration--the agreement cannot be 
amended and the request must be voted on by the House and the 
Senate within 60 session days from when the President's request 
is submitted to Congress, with a maximum of 45 legislative days 
in committee and 15 days on the floor within which time a vote 
must be taken. Debate on the floor is limited to 20 hours each 
for both Houses. Upon Congressional approval and a Presidential 
signature, diplomatic notes are exchanged between the two 
sides, formally extending reciprocal NTR status.

THE JACKSON-VANIK AMENDMENT FOR VIETNAM

    <bullet> What is the Jackson-Vanik Amendment?
    It is an amendment to the U.S. Trade Act of 1974, that 
precludes the participation of 30 some non-market economy 
countries in any U.S. Government program that extends credits 
or credit and investment guarantees if the country restricts 
emigration. Before the waiver was issued, American projects in 
Vietnam were not eligible for assistance from the Export-Import 
Bank (Ex-Im) or the Overseas Private Investment Corporation 
(OPIC). To remove this restriction on a country such as 
Vietnam, the President must either certify that the country 
permits free emigration, or the President can waive the 
emigration requirement on the grounds that the waiver will 
promote U.S. emigration objectives.
    On March 11, 1998, President Clinton issued a Jackson-Vanik 
waiver for Vietnam based on improvements of emigration 
procedures, particularly its cooperation on the Resettlement 
Opportunity for Vietnamese Returnees (ROVR). The waiver must be 
renewed annually. On July 30, 1998, the U.S. House of 
Representatives voted 260-163 in favor of extending the waiver 
for Vietnam. When the waiver was first issued in March 1998, 
American projects in Vietnam became potentially eligible for 
trade and investment support programs such as the Export-Import 
Bank of the U.S. (Ex-Im) and the Overseas Private Investment 
Corporation (OPIC). In June, 1999 President Clinton extended 
the waiver to Vietnam again, and on August 3, 1999 the House of 
Representatives renewed the waiver by a vote of 297 in favor 
and 130 opposed. The President has requested a renewal for the 
year 2000.
    <bullet> Why the Jackson-Vanik waiver is important?
    The availability of export promotion programs is a critical 
factor in a number of major procurement decisions being made 
now in Vietnam. The Jackson-Vanik waiver also allows the U.S. 
Department of Agriculture and the U.S. Maritime Administration 
to make their trade support programs available for projects in 
Vietnam. The ability of U.S. companies to utilize these 
programs now places them on a more level playing field with 
their foreign competitors who have enjoyed a high level of 
government support for their projects in Vietnam. Though the 
U.S. currently is the ninth largest investor in Vietnam, the 
investment and trade opportunities for U.S. companies could 
expand significantly with continued availability of Ex-Im and 
OPIC financing.
    <bullet> What role does Congress play now?
    On an annual basis, the President must submit to Congress 
by June 3rd a request to renew his authority to issue waivers 
of the Jackson-Vanik amendment in principle, and a decision to 
continue waivers for individual countries where he determines 
this will substantially promote freedom of immigration from 
that country. Congress then has the opportunity to reject the 
overall authority, or to withhold it for an individual country 
through a joint resolution of disapproval, which must pass both 
the House and Senate before September 1st. If Congress does not 
act the authority is automatically renewed.
    <bullet> What the 2000 Jackson-Vanik waiver for Vietnam 
does not do:
    The waiver does not grant Normal Trading Relations (NTR, 
formerly MFN) status to Vietnam as the Jackson-Vanik waiver is 
only one step in the NTR process. A bilateral trade agreement 
must first be negotiated and signed and then Congress must vote 
whether or not to approve the granting of NTR status to 
Vietnam. Vietnam and the U.S. signed an agreement in principle 
on July 25, 1999 on a trade agreement. It is hoped that the 
agreement will be concluded in the year 2000.

Chronology of U.S.-Vietnam Relations

    April 30, 1975--North Vietnamese forces take over the 
southern part of Vietnam, ended the war and unified the 
country. Washington extends embargo to all of Vietnam and 
breaks diplomatic relations.
    1978--Secret talks between Hanoi and Washington on 
normalizing relations break down
    1988--Under the Reagan Administration, Vietnam begins 
cooperation with United States to resolve fate of American 
servicemen missing in action (MIA)
    September 1989--Vietnam completes Cambodia withdrawal.
    April 1991--Under the Bush Administration, Washington 
presents Hanoi with ``roadmap'' plan for phased normalization 
of ties. The two sides agree to open U.S. government office in 
Hanoi to help settle MIA issues.
    April 1991--U.S. begins humanitarian aid projects for war 
victims to be administered by U.S. Agency for International 
Development (USAID).
    October 1991--Vietnam supports U.N. peace plan for 
Cambodia. Secretary of State James Baker announces Washington 
is ready to take steps toward normalizing relations with Hanoi.
    December 1991--Washington lifts ban on organized U.S. 
travel to Vietnam.
    1991--U.S. Congress authorizes the United States 
Information Agency (USIA) to begin exchange programs with 
Vietnam.
    April 1992--Washington eases trade embargo by allowing 
commercial sales to Vietnam for basic human needs, lifts curbs 
on projects by U.S. non-governmental and non-profit groups and 
allows establishment of telecommunications links with Vietnam.
    July 2, 1993--President Clinton clears way for resumption 
of international lending to Vietnam.
    September 13, 1993--Clinton eases economic sanctions to let 
U.S firms join in development projects.
    January 27, 1994--Senate in favor of a resolution urging 
the Administration to lift embargo, saying this would help get 
a full account of MIAs.
    February 3, 1994--President Clinton lifts trade embargo.
    January 28, 1995--United States and Vietnam sign agreements 
settling old property claims and establishing liaison offices 
in each other's capitals.
    May 15, 1995--Vietnam gives U.S. presidential delegation 
batch of documents on missing Americans, later hailed by 
Pentagon as most detailed and informative of their kind.
    June 1995--Veterans of Foreign Wars announces support of 
U.S. normalization of diplomatic relations with Vietnam.
    July 11, 1995--President Clinton announces ``normalization 
of relations'' with Vietnam.
    August 6, 1995--Secretary of State Warren Christopher 
visits Hanoi and officially opens U.S. embassy.
    May 1996--U.S. presents Vietnam with trade agreement 
blueprint.
    July 12, 1996--U.S. National Security Adviser Anthony Lake 
visits Hanoi to mark first anniversary of normalization and 
press forward on slow-moving economic and strategic ties, 
stressing that MIA issue tops Washington's agenda.
    April 7, 1997--U.S. Treasury Secretary Robert Rubin and 
Finance Minister Nguyen Sinh Hung sign accord in Hanoi for 
Vietnam to repay debts of approximately $145 million, which 
Vietnam assumed from former government of South Vietnam.
    April 10, 1997--Senate confirms Douglas ``Pete'' Peterson, 
Vietnam War veteran and former prisoner of war, as Ambassador.
    April 16, 1997--United States and Vietnam reach agreement 
on providing legal protection for copyright owners.
    May 9, 1997--Peterson takes up post as U.S. Ambassador in 
Hanoi.
    May 9, 1997--Vietnam's Ambassador to the United States, Le 
Van Bang, arrives to take up post in Washington, DC June 1997--
Secretary of State Madeleine Albright attends ceremony to lay 
cornerstone for U.S. consulate in Ho Chi Minh City.
    August 1997--U.S. government under the U.S. Agency for 
International Development (USAID) begins a commercial law 
program.
    October 1997--Vietnam institutes new processing procedure 
in ROVR program significantly improving progress.
    November 1997--Vietnam opens consulate in San Francisco, CA
    March 1998--U.S. opens talks on a Civil Aviation Agreement 
held.
    March 10, 1998--President Clinton issues waiver of Jackson-
Vanik Amendment for Vietnam, paving the way for OPIC, EXIM, 
USDA and MARAD operations.
    March 19, 1998--OPIC and the Government of Vietnam signed a 
new Investment Incentive Agreement, allowing OPIC to offers 
services in Vietnam.
    March 26, 1998--Minister of Planning & Investment Tran Xuan 
Gia and Ambassador Pete Peterson finalize signing of the OPIC 
bilateral for Vietnam.
    July 23,1998--The U.S. Senate votes 66-34 to continue 
funding for the U.S. Embassy in Vietnam based on ongoing 
cooperation on the POW/MIA issue.
    July 30, 1998--The U.S. House of Representatives passes the 
Jackson-Vanik waiver for Vietnam by a 260 to 163-vote margin.
    October 1998--Deputy Prime Minister and Foreign Minister 
Nguyen Manh Cam make Vietnam's highest--level visit to 
Washington since normalization.
    October 1998--Deputy Prime Minister Hanh visits U.S. for 
planning meeting on military-to-military activities.
    October 1998--U.S. and Vietnam agree to negotiate a Science 
& Technology Agreement.
    December 28, 1998--Bilateral Copyright Agreement enters 
into force.
    January 1999--EXIM team visits Vietnam to negotiate an EXIM 
bilateral agreement.
    January 29, 1999--The U.S. receives a proposal from the 
Vietnamese indicating substantial progress on the U.S.-Vietnam 
bilateral trade negotiations.
    March 1999--The most recent round of trade talks are held 
in Hanoi.
    June 1999--Trade talks held in Washington, DC--Ambassador 
Barshefsky cites progress, noting that the number of remaining 
issues had been significantly narrowed in this negotiation.
    June 30, 1999--President Clinton re-extends the Jackson-
Vanik waiver for Vietnam
    July 25, 1999--Negotiators from the U.S. and Vietnam agree 
to a bilateral trade agreement in principle in Hanoi, Vietnam
    August 3, 1999--The Jackson--Vanik waiver passes the House 
by a vote of 297 to 130.
    August 16, 1999--The U.S. opens a consulate in Ho Chi Minh 
City
    September 1999--President Clinton and Prime Minister Phan 
Van Khai speak informally at the APEC summit in New Zealand.
    September 5-7--Secretary Albright visits Vietnam
    November 30, 1999--The first OPIC investment in Vietnam is 
announced-a $2.3 million loan to Caterpillar Inc.'s authorized 
dealership in Vietnam.
    December 9, 1999--Ex-Im and the State Bank of Vietnam 
complete the framework agreements, which allow Ex-Im to begin 
operations in Vietnam.
    March 13, 2000--Secretary of Defense William Cohen became 
the first US Defense secretary to visit Vietnam since the end 
of the War.

                                <F-dash>


    Chairman Crane. Thank you.
    Mr. Nie.

 STATEMENT OF Y HIN NIE, PRESIDENT, MONTAGNARD ADVOCACY, INC., 
                   GREENSBORO, NORTH CAROLINA

    Mr. Nie. Honorable Philip Crane, ladies and gentlemen, my 
name is Y Hin Nie. On behalf of the Montagnard community, I 
want to thank Congressman Crane for his help bringing this 
hearing together. Further, I want to thank the Members of the 
Subcommittee for holding the hearing on U.S.-Vietnam trade 
relations, and we place our trust in today's hearing.
    Today, I want to emphasize that there is not free 
immigration for Montagnards in Vietnam. The waiver of the 
Jackson-Vanik amendment has not promoted free immigration for 
Montagnards. There are many obstacles for Montagnard family 
members to reunite with their loved ones in Vietnam.
    I would like to remind this legislative body that the 
Montagnards have been punished today because Montagnard 
soldiers were allies of the U.S. Army during the Vietnam War. 
There is extreme prejudice to our people for this reason, and 
other reasons.
    Almost all the people are Christians. They are not allowed 
under Hanoi to worship freely. The Christian church under Hanoi 
authority is not permitted to practice their religious beliefs. 
Many Montagnards became Christians through the effort of 
American missionaries in Vietnam. Most Members of this 
Committee are probably not aware that the Vietnamese government 
does not permit any Protestant church to exist throughout the 
entire central highlands. This basic human right is denied to 
our people. Also, this same basic human right that allows 
families to be together is restricted from our people.
    The Jackson-Vanik waiver should not be renewed because in 
the last year, the Montagnard people still have terrible 
obstacles to travel freely and to unite with their loved ones. 
Even when we communicate by letter, local security tears letter 
and sends less than one piece of four pieces to the children in 
Vietnam.
    Many of you not may know that we, as American citizens, 
when we return to Vietnam are harassed by local police. The 
local security demand that we answer questions about other 
Montagnards living in our community. We are treated as enemy in 
our home. Americans citizens should not be treated that way in 
Vietnam. And we are Montagnard-American citizens when we return 
to visit our families.
    Vietnam may be a police state, but we refuse to become a 
tool of the Hanoi government simply because we love our family 
and we miss them. This situation happened every single time 
when we return to family in Vietnam.
    Montagnard families still have to pay huge bribe money or 
land to get emigration documents that U.S. and Hanoi requires. 
The Vietnamese government still investigates Montagnards as 
terrorists.
    I would like to emphasize to our U.S. Department of state 
that in Vietnam the Montagnards have right to remain eligible 
under refugee status. We have been persecuted people in Vietnam 
and that situation has not changed.
    With respect to the aforementioned issue, on behalf of the 
Montagnard people I would like to strongly encourage this 
Subcommittee to support Jackson-Vanik of 1974 in hopes that 
issues concerning human rights in Vietnam and emigration 
practices of Hanoi authority may be overcome. The Clinton 
administration should not renew Jackson-Vanik waiver until 
Montagnard and other ethnic minority groups in Vietnam are 
allowed freely to emigrate, practice their religion, and allow 
them to travel free in the central highland of Vietnam and 
allow them free movement for NGO assistance with humanitarian 
aid.
    Please, this is the only honorable and just course of the 
U.S. in its relationship in Vietnam. The Jackson-Vanik waiver 
should not be renewed at this time.
    May God bless you and the United States of America. Thank 
you, Mr. Chairman.
    [The prepared statement follows:]

Statement of Y Hin Hie, Montagnard Advocacy, Greenesboro, North 
Carolina

    Ladies and Gentleman
    My name is Y Hin Nie. On behalf of the Montagnard 
Community, I want to thank Congressman Crane for his help in 
bringing this hearing together. Further, I want to thank the 
members of the Subcommittee for holding this hearing on U.S.-
Vietnam trade relations, and the President decision to possibly 
renew the Vietnam trade waiver under Jackson/Vanik amendment to 
the act of 1974. We also appreciate their interest and 
assistance in the matter of emigration policies and practices 
in Vietnam, particularly, in Montagnard Reunification family's 
cases. I would like to state again, the Montagnard people 
believe in the trustworthiness of the United States of America 
as a leader in democratic freedom. We place our trust in today 
hearing.
    Today, I want to emphasize that there is not free 
emigration for Montagnards in Vietnam. The waiver of Jackson/
Vanik Amendment has not promoted free emigration for 
Montagnards. There are many obstacles for Montagnard family 
members to be reunited with their loved-ones in Vietnam. I 
would like to remind this legislative body that the Montagnards 
have been punished today because the Montagnard soldiers were 
allies of the U.S. Army during Vietnam War. There is extreme 
prejudice towards our people for this reason and other reasons.
    Almost all of our people are Christian and we are not 
allowed under the Hanoi authority to worship freely. The 
Christian Church under Hanoi authority does not yet permit the 
practice our religious beliefs. Many Montagnards became 
Christian through the efforts of American Missionaries in 
Vietnam. Most members of this committee are probably not aware 
that the Vietnamese Government does not permit any Protestant 
church to exist throughout the entire Central High lands. This 
basic human right is denied to our people. This same basic 
right to allow families to be together is restricted from our 
people. The Jackson/Vanik waiver should not be renewed because 
in the last year, our Montagnard people still have terrible 
obstacles to travel freely and be reunited with the loved ones. 
Even when we communicated by letter local Security in Vietnam 
pears letter and send last that 1 of 4 pieces to their children 
in the U.S.
    Many of you may not know that we, as Americans citizens 
when we return to Vietnam, are harassed by the local police. 
The local security demands that we answer questions about other 
Montagnards living in our community. We are treated like 
enemies in our own homes. Americans should be not treated this 
way in Vietnam and we are Montagnard American citizens when we 
return to visit our families. Vietnam may be a police state, 
but we refuse to become tools of the Hanoi government simply 
because we love our families and we miss them. This situation 
happens every single time when we return to visit our families 
in Vietnam.
    Montagnard families still have to pay huge bribes, money or 
land to get emigration documents that the U.S. and Hanoi 
require. The Vietnamese government still investigates our 
Montagnard people as terrorists.
    I would like to emphasize to our U.S. Department of State 
that Montagnards have right to remain eligible under refugees' 
status. We have been a persecuted people in Vietnam and that 
situation has not changed.
    May I make very clear today, the war is over and families 
should be together. The Montagnard community is peaceful and 
honorable. We respect the laws of Vietnam, but we Hanoi must 
modify its views today. The relationship between the United 
States and Hanoi government must also change. The Montagnard 
people are no longer the enemy of Hanoi Government. We all 
deserve to be free human beings in a humanitarian world!
    With respect to the afore mentioned issues, and on behalf 
of the Montagnard people; I would like to strongly encourage 
this subcommittee to support the Jackson/Vanik Amendment of 
1974 in the hope that issues concerning human Rights in Vietnam 
and emigration practices of Hanoi authority may be over-come. 
The Clinton Administration should renew the Jackson/Vanik 
waiver until Montagnards and other minority groups in Vietnam 
are allowed to freely emigrate, practice the religion of their 
choosing, travel freely in the Central Highlands of Vietnam, 
and allow free movement for NGO assistance with humanitarian 
aid. Please, this is the only honorable and just course for the 
United States in its relationship with Vietnam. The Jackson/
Vanik waiver should not be renewed at this time. May God bless 
you and the United States of America. Thank you.
[GRAPHIC] [TIFF OMITTED] T1553.002

[GRAPHIC] [TIFF OMITTED] T1553.003

    When the Americans left Vietnam in 1975, certain elements 
of the Montagnard Dega people of the Central Highlands mounted 
a guerrilla movement within their ancestral lands, at the 
behest of the departing Americans, to whom they had been loyal 
throughout the years of the American presence. The Americans, 
on whom the guerrilla depended for support, provided none. Even 
so the Montagnard Dega guerrillas fought on for more than ten 
years, and elements of the resistance persist of this day.
    In retaliation the Vietnamese government has pursued a 
policy of repression of all Montagnard Dega people, whether 
affiliated with the guerrilla movement or not. The Montagnard 
Dega people have been forbidden their lifestyle, their 
languages, their religion, their freedom. Christian marriage 
between Montagnards is forbidden. Cross cultural marriage with 
ethnic Vietnamese is government policy. This is an attempt to 
eradicate the Montagnard Dega culture in one generation.
    The overseas Montagnard community is now launching an 
effort for reconciliation between the Vietnamese Government and 
all the Montagnard people. Continued loss of life and continued 
loss of the several thousand year old Montagnard culture must 
now stop.
    The Montagnard Dega People of the world wish to bring to an 
end the hostilities that have plagued our people for decades. 
We wish to come to an agreement with the Vietnamese people and 
their government concerning the future of the Dega. We are 
tired of and frightened by the terrible suffering our people 
have endured. We are aware that we do not stand guiltless in 
the affairs concerning hostilities with the Vietnamese. We feel 
if the Vietnamese choose to come to terms with the rest of the 
free world then we should be able to reach an agreement 
concerning the world of the Dega. We, though, neither accept 
all blame for the hostilities with the present government of 
Vietnam nor do we place all blame upon them. Many of our 
present problems started during the French-Indochina War and 
were compounded greatly during the Second Indochina War between 
the United States, the North Vietnamese and their counter-parts 
in the South. The world realizes what a terrible position the 
Montagnard Dega were put in and that we were forced to make 
decisions that may not have been in the best interest of the 
Montagnard Dega society as a whole. We were forced to come of 
age quickly and made choices that were appropriate at the time. 
We are guilty of being naive concerning the ways of the world 
and its politics. We were citizens of South Vietnam and 
supported our country the best we could under Vietnam and 
supported our country the best we could under the 
circumstances. We have no ill feelings towards any participant 
of either war and are absolved of any circumstances that we are 
still being persecuted for. We wish for the Montagnard Dega 
people to be able to pursue a life from from the horrors of a 
life of war and rebellion. We feel the United States and the 
Socialist Republic of Vietnam have a moral obligation to help 
end all hostilities. Now is the time of healing between all 
nations involved in the conflicts that have plagued all of 
Southeast Asia for the last fifty years. As many countries and 
their citizens throughout the world now resolve their 
differences, we, the Montagnard Dega, have earned the right to 
resolve honorably our difference with the government of Vietnam 
and to be functional part of the world of Southeast Asia. We 
have many attributes to offer; we wish to be treated with the 
same dignity and respect as other persons of the free world. 
Following are the terms we place before the Socialist Republic 
of Vietnam. We are interested in making our country a beacon of 
light that will shine brightly through all of Southeast Asia 
and the world. No matter what our past differences, we are all 
citizens of Vietnam. It is time for all Vietnamese to reunify 
under a common goal, and we believe that by working together 
with the United States, the United Nations and other free world 
countries these reasonable goals are attainable.
    The above points are hereby presented to all interested and 
legitimate parties. It is our wish to bring to an end the 
hostilities between the ethnic people of Vietnam and the 
Central Government of Vietnam. It is our wish that all people 
of Vietnam be able to live in peace and harmony, extending 
goodwill not only to one another but also the rest of the 
world. It is time for the people of the Socialist Republic of 
Vietnam to come together for the good of our country. If the 
government of the Social Republic of Vietnam desires an end to 
the hostilities that have plagued our country for many years, 
they will sit down with legitimate parties concerned and work 
out a fair and binding solution. We offer ourselves in good 
faith to be government of the Socialist Republic of Vietnam to 
act as a mediator between rival factions of the ethnic, 
indigenous groups and the government. We Montagnard Dega hope 
and pray that the Socialist Republic of Vietnam needs our call 
and acts appropriately.
    During 1994 a detailed team study was undertaken within the 
North Carolina Dega community to better understand the depth of 
retribution by the Socialist Democratic Government of Vietnam 
perpetrated against the Montagnard people of the Central 
Highlands of (South) Vietnam. This study was concluded in late 
1994. New information, when learned and verified, is added to 
that study. The research respondents were voluntary and no 
records exists of who contributed to the research. The research 
fell into several categories, including:
    A. imprisoned/Tortured, B. Missing, C. Murdered/Death.
    As information developed, a pattern of annihilation of the 
Montagnard people in Vietnam surfaced beyond expectations--the 
following documented deaths are in part the cause of the 
``Declaration'' and are added as partial evidence of the 
evidence of reconciliation...and not retribution. If there is 
to be a Montagnard people in Vietnam's future, then the door to 
peaceful coexistence must be opened today.
    This study was funded by the Montagnard-Dega Association.

                                <F-dash>


    Chairman Crane. Thank you, Mr. Nie.
    Mr. Carlson.

 STATEMENT OF JUELS CARLSON, ASSOCIATE, CARGILL, INCORPORATED, 
          ON BEHALF OF THE U.S.-ASEAN BUSINESS COUNCIL

    Mr. Carlson. Mr. Chairman and Members of the Subcommittee, 
I am appearing before you today on behalf of both the U.S-ASEAN 
Business Council and Cargill, Incorporated. Cargill has just 
assumed chairmanship of the Council's Food and Agricultural 
Committee, and Vietnam is one of the 59 different countries in 
which Cargill has operations. The U.S. ASEAN Business Council, 
its over 400 member companies, and Cargill individually 
strongly support extension of the waiver of the Jackson-Vanik 
amendment for Vietnam.
    The Export-Import Bank and the Overseas Private Investment 
Corp. programs, which waiver of the Jackson-Vanik amendment 
authorizes, are vital to Business Council members who rely on 
the support from these government agencies to level the 
competitive playingfield against firms from other countries 
that receive substantial support from their governments.
    Moreover, the United States has completed negotiating a 
groundbreaking bilateral trade agreement with Vietnam. Since 
the agreement was initialed last fall, however, there has been 
no further action. The Vietnamese have insisted on a long 
internal review process that only recently shows some sign of 
coming to an end.
    U.S. negotiators fought hard for this agreement, which is 
viewed by many as a stalking horse for Vietnam's eventual entry 
into the World Trade Organization. The agreement is of course a 
prerequisite for Vietnam to receive the same reduced tariffs 
that all but a handful of countries receive under normal trade 
relations status, but all reports indicate that most of the 
benefits of the agreement will actually flow to U.S. 
individuals and companies seeking to do business with and in 
Vietnam, including U.S. farmers, as Vietnam opens its 
agricultural markets to increased imports.
    This perhaps helps explain why the Vietnamese government 
has been spending so much time reviewing and debating the terms 
of the agreement since it was first initialed.
    I am now working as an independent consultant to Cargill 
and other clients in Vietnam, Russia and the Ukraine. But in 
1994, I opened a one-person office in Saigon for Cargill. Now 
Cargill employs over 300 people in Vietnam and has become a 
leading commodity trading company there. Cargill supplies 
fertilizer to Vietnamese farmers and corn and soybean meal to 
the Vietnamese feed industry and is looking to provide U.S. 
commodities such as wheat, soybeans and cotton to the 
Vietnamese market.
    In addition to the two representative offices in Hanoi and 
Saigon, Cargill runs two new animal feed manufacturing plants 
in Dong Nai and Hanoi and is building a third in Can Tho in the 
Mekong Delta, and it has a poultry breeding farm and hatchery. 
Most recently, Cargill learned it has received approval to 
purchase a 12 percent interest in a deep water port in Vung Tau 
province.
    As I have outlined in my written statement, it has not been 
an easy road, but our business is profitable and we are not the 
only investor pleased with Vietnam.
    Vietnam is making progress, but there is a lot more that 
Vietnam can do to increase foreign and domestic investments 
that will create jobs. In my written statement I list some of 
the steps Vietnam should take to improve its economy. These 
include things like privatizing state-owned entities and 
improving its banking system.
    However, perhaps the most important is that the bilateral 
trade agreement should be signed and implemented as soon as 
possible. Their exporters will have new access to the world's 
biggest market, but the reforms that Vietnam has agreed to 
undertake will do even more for that country's long-term 
economic welfare as well as for U.S. companies seeking to do 
business and invest there. National treatment, transparency, 
improved market access, and other changes are long-awaited 
reforms for the Vietnamese system.
    The United States can do its part by extending the Jackson-
Vanik waiver and working with Vietnam to successfully implement 
the terms of the bilateral trade agreement. The U.S.-ASEAN 
Business Council and Cargill both have found over the years 
that engagement, both commercially and politically, builds the 
best bridges to peace and mutual prosperity. In fact, U.S. 
companies export more than just products when they invest 
overseas. They export U.S. values and good business practices.
    For example, all of our employees in Vietnam have been 
trained to work under world class quality and safety standards, 
and we give them better wages and benefit packages, including 
retirement and medical insurance. For our communities we have 
actively participated in building relations. For example, 
Cargill replaced a rickety footbridge that kept washing out 
near our Dong Nai feed mill with a modern cement and steel 
bridge. We have also built schoolrooms and provided supplies 
for neighborhood schools and provided scholarships for poor 
students, and the company has developed a partnership with a 
training center for the handicapped in Saigon, where we have 
donated playground equipment and a variety of other supplies on 
a regular basis.
    But Vietnam must do its part, too, by becoming more outward 
thinking and responsible in today's world. Otherwise, the 
capital, the management resources and investors that Vietnam 
knows it needs to attract simply will go elsewhere.
    Thank you for the opportunity to testify here today.
    [The prepared statement follows:]

Statement of Juels Carlson, Associate, Cargill, Incorporated, on behalf 
of the U.S.-ASEAN Business Council

    Mr. Chairman and members of the subcommittee, Iam appearing 
before you today on behalf of both the US-ASEAN 
BusinessCouncil, and Cargill, Incorporated. The council is a 
private, non-profit organization that works to expand trade and 
investment between the United States and the member countries 
of the Association of Southeast Asian Nations. ASEAN members 
include Brunei Darussalam, Cambodia, Indonesia, Laos, Malaysia, 
Myanmar (Burma), the Philippines, Singapore, Thailand and 
Vietnam. Cargill hasjust assumed the chairmanship of the 
council's Food and AgricultureCommittee.
    Vietnam is one of the 59 different countries inwhich 
Cargill has operations on the ground. Globally, Cargill is an 
international marketer, processor and distributor of 
agricultural, food, financial and industrial products. The 
company employs some 82,000 people and is headquartered in 
Minneapolis, Minnesota.
    The US-ASEAN Business Council, its over 400 member 
companies, and Cargill individually strongly support 
extensionof the waiver of the Jackson-Vanik Amendment for 
Vietnam. Although in Vietnam Cargill does not utilize programs 
such as the Export-Import Bank or the Overseas Private 
Investment Corporation, which waiver of the Jackson-Vanik 
Amendment authorizes, many business council members do. Many.S. 
companies rely on the support of these government agencies to 
level the competitive playing field against firms from other 
countries that receive substantial support from their 
governments.

The Bilateral Trade Agreement

    But, there is a much more important reason for extending 
the Jackson-Vanik waiver. It is the first real step toward full 
normalization of economic relations with Vietnam. Renewing the 
waiver demonstrates to the Vietnamese government and to 
consumers there that the United States is serious in its desire 
to become a full partner with Vietnam in its trade and its 
development.
    Moreover, since President Clinton first proposed a waiver 
of the Jackson-Vanik Amendment a little over a year ago, the 
United States has completed negotiating a groundbreaking 
bilateral trade agreement with Vietnam. This agreement is of 
course a prerequisite for Vietnam to receive the same, reduced 
tariffs that all but a handful of countries receive under 
normal trade relations status. Since Vietnamese and U.S. 
negotiators initialed a final pactlast fall, however, there has 
been no further action. The Vietnamese have insisted on a long, 
arduous internal review process that only recently shows some 
signs of coming to an end.
    This agreement was hard-fought and contains substantial 
concessions for U.S. traders and investors. In fact, it is 
viewed by many as a stalking horse for Vietnam's eventual entry 
into the World Trade Organization. Unfortunately, the exact 
terms of the agreement are not yet published. However, all 
reports indicate that most of the benefits of the agreement 
will actually flow to U.S. individuals and companies seeking to 
do business with and in Vietnam. U.S. farmers also stand to 
realize gains as Vietnam opens its heavily protected 
agricultural market to increased imports.
    This helps explain, for example, why the Vietnamese 
government has been spending so much time reviewing and 
debating the terms of the agreement since it was first 
initialed. The waiver that you are considering today will help 
demonstrate the U.S. government's continued commitment to the 
bilateral trade agreement and help pave the way for the United 
States to receive the many market-opening benefits and reforms 
that the agreement incorporates.

Cargill's Experience in Vietnam

    Until December 1998, I served for almost five years as 
Country Manager starting up operations for Cargill, 
Incorporated, in Vietnam. I am now working as an independent 
consultant to Cargill and other clients in Vietnam, Russia and 
Ukraine, focusing on agricultural and food products and issues.
    I am not a scholar on Vietnam and in fact had never visited 
the country prior to August 1994. Prior to that I opened the 
first Cargill office in the USSR and developed investments in 
Russia, Uzbekistan and Ukraine in 1990-91, so that I had a good 
deal of experience in doing business in centrally planned 
economies. This experience with state owned enterprises and 
with thefeudal nature of multiple ministries and multiple 
levels of governmentkept me out of lots of trouble in Vietnam.
    In 1994 I opened a one-person office there. Since then, 
Cargill's businesses have grown rapidly, despite start-up 
delays that were mostly caused by the Ministry of Trade, 
Customs, and local district officials who could block land 
leases on plants located outside of industrial zones. Cargill 
now employs some 300 Vietnamese workers in a wide range of jobs 
in businesses fromHanoi in the north to Can Tho in the south. 
Cargill now has representative offices in Hanoi and Ho Chi Minh 
City. The company has built and is operating two new animal 
feed manufacturing plants in Dong Nai and Hanoi that produce 
feed for poultry, cattle, swine and fish. Cargill also operates 
a poultry breeding farm and hatchery, which produces about half 
the day-old chickens in southern Vietnam. Although Cargill is 
in the process of selling its global coffee and rubber 
businesses, Cargill has operated a warehouse facility for both 
those commodities, also in Dong Nai province.
    Most recently, Cargill has just learned that it has 
received approval to purchase a 12 percent interest in the 
former French port at Phu My on the Thi Vai river in Vung Tau 
province. This infusion of capital will allow the port to make 
important improvements to allow the port to stop losing money 
and make full use of its deep water location. This will lead to 
reduced transportation costs for imported fertilizer and feed 
products from the United States and other sources. Once again, 
this was not an easy process, but Cargill persevered and has 
won this approval, just as the United States must persevere and 
see the bilateral trade agreement through to adoption.
    Cargill has also become a leading commodity trading company 
in Vietnam. Cargill has been one of the largest buyers of the 
country's agricultural products, including coffee, rice and 
rubber. Cargill also supplies fertilizer to Vietnamese farmers 
and corn and soybean meal to the Vietnamese feed industry and 
is looking to provide U.S. commodities, such as wheat, soybeans 
and cotton, to the Vietnamese market. As in any market where 
Cargill invests, the company is committed to a long-term 
relationship with its suppliers andcustomers in Vietnam.
    In all, in terms of capital Cargill has invested over 25 
million U.S. dollars and has approval to double this amount 
when market conditions are appropriate. Our business is 
profitable, and we're not the only investor pleased with 
Vietnam. Companies that export clothing, footwear and furniture 
are doing well, as are many of the consumer product companies, 
all of which see sales increases to Vietnamese consumers year 
after year.

Positives and Negatives

    Cargill has had its share of challenges in establishing 
itself in Vietnam. First, however, I'd like to focus on the 
positives, and people certainly top the list. I can't say 
enough about Cargill's 300 Vietnamese employees. They are the 
fastest learning, most loyal, hardest working and most 
competent people Cargill employs anywhere in the world. They 
are proud of what they do, and Cargill is proud of them. As a 
sign of our confidence in the work force there, Cargill has 
reduced the number of its foreign employees in Vietnam down to 
two.
    Vietnam's strong agricultural base is another positive for 
a business like Cargill. Productive private farms produce a 
food surplus, which frees up limited surplus capital for other 
uses. Vietnam also has the advantage of not bearing the burden 
of an inefficient industrial base that plagues other centrally 
planned countries like Russia.
    Vietnam's new industrial and export zones give foreign 
investors some protection from the army of officials who police 
and limit business activity. In some cases, these zones also 
provide infrastructure.
    Vietnam is making progress. The government has been 
speeding up approvals, and some costs like land leases have 
been lowered, but these tend to be small and incremental steps 
and do not represent major changes.
    I would especially like to single out the Ministry of 
Agriculture and Rural Development for praise. It's not perfect, 
but it is one of the most honest and enlightened Ministries in 
Hanoi. Its officials understand that food security is more tied 
to economic well-being than to the country's ability to produce 
all that it needs. They realize the critical need to build a 
competitive food industry, with the help of foreign investment, 
zero import duties and, sometimes, zero import quotas.
    Studies after studies have shown that hunger persists 
around the world largely because poverty persists. For 
countries like Vietnam, where 70 percent of the labor force 
work in agriculture and forestry, increasing agricultural 
productivity can help boost the livelihood of a vast group of 
people.
    A vital agricultural and food sector can then provide 
consumers with affordable and safe food. What they save on food 
they will spend on other products and services--all of which 
help to create more business activities and jobs.
    Agriculture officials certainly recognize this, since 
agricultural growth has been robust. Industrial crops like 
coffee and rubber have experienced the fastest growth, while 
the rice yield has doubled since 1987. Vietnam is now the 
world's second largest rice exporter, and Cargill participates 
in that business.
    Let me turn to some of the negatives for foreign businesses 
in Vietnam. Aside from Vietnam's small market, which cannot 
support large industrial projects, such as car manufacturing, 
many of the country's weaknesses lie with the government.
    Not all the ministries work as cooperatively as the 
Ministry of Agriculture and Rural Development. In its zeal to 
raise revenues, the Ministry of Finance has imposed relatively 
high tariffs on food and feed imports, so that Vietnamese 
consumers and farmers end up paying more for basic needs.
    To many business people, the Ministry of Trade seems to see 
its mission not as promoting trade, but as controlling and 
discouraging trade. In its concern over the need to maintain 
control over rice exports, the Ministry of Trade denies the 
Vietnamese rice farmer access to the higher prices that a free 
market in rice would provide.
    Actions by Customs officials continue to cost investors in 
time and money.
    Overall, government polices discourage wealth creation by 
Vietnamese citizens and small and medium-sized private 
businesses. Multiple levels of government agencies control 
business activities, and it seems at times there are more 
people involved in controlling business than in doing business. 
The most obvious barrier is the 80 to 90 percent income tax on 
all monthly income of Vietnamese citizens above 500 to 600 U.S. 
dollars. Most foreign investors in Vietnam see this tax as a 
manifestation of the government's fear that it will lose 
control if the citizens become wealthy and economically 
independent. In the same light, government officials keep a 
tight lid on businesses by imposing licenses and a repressive 
tax structure, which in effect prevent people and companies 
from doing business. As a result, small and medium-sized 
businesses that could provide new jobs simply aren't being 
formed.
    Foreign investors in Vietnam can also face challenges at 
the provincial level, as provincial leaders sometimes maintain 
their own fiefdoms. Getting land leases outside of industrial 
zones continues to be very time consuming and difficult because 
of the ability of provincial or lower level officials to slow 
down or block investments. However, there are exceptions. For 
example, I do want to highlight the wonderful provincial 
leaders of Dong Nai province. Their honesty and help have 
netted the province many profitable investments and created 
many jobs for their people.
    There are a number of things that Vietnam can do to 
increase foreign and domestic investment that will create jobs. 
With new investment down last year and even lower this year, 
creating jobs for a nation of 80 million people with an average 
age of about 22 years should become a national goal.
    The government can tackle this on many fronts. First, the 
government should discourage joint ventures with state-owned 
enterprises. The government should stop putting more bank 
credits into SOEs. They tend only to be profitable when they 
have a monopoly, and monopolies are always costly for 
consumers, who must subsidize them. In reality, SOEs should be 
privatized, so that the market can work more efficiently.
    Second, Vietnam should encourage investments in industrial 
zones that have the support of provincial and local officials. 
Investing for political reasons is finished. Competitors for 
foreign capital now are Thailand, South America, Eastern Europe 
and a host of other countries around the world. Vietnam needs 
competitive industries. The country does not need more plants 
in politically acceptable locations or in politically desirable 
industries such as capital intensive oil refineries that are 
located far from markets and raw materials.
    Third, Vietnam must improve its banking system. Banks can't 
lend to private borrowers if they can't judge credit risks, and 
foreign banks can't innovate if they are not permitted to 
introduce new products.
    Fourth, Vietnam should encourage investments in small and 
medium-sized businesses that can make quick decisions to grow 
as they gain experience. International funding should also 
focus on small and medium-sized businesses, so that they can 
start up quickly, use local materials and serve domestic and 
export markets. These businesses can create more jobs and 
develop local management skills faster than the big, capital 
intensive projects, whose technology sometimes becomes outdated 
before they are completed.
    Lastly, the bilateral trade agreement should be signed and 
implemented as soon as possible. There is no question about the 
benefits of the agreement to Vietnam, as value-added exporters 
will have new access to the world's biggest market. But, the 
reforms that Vietnam has agreed to undertake will do even more 
for that country's long term economic welfare, as well as for 
U.S. companies seeking to do business and invest there. 
National treatment, transparency, improved market access, and 
the other changes--though we understand there are a number of 
carve-outs and exceptions--are long-awaited reforms for the 
Vietnam system.
    Having laid out both the strengths and weaknesses of 
Vietnam, I am optimistic about its future. The country is well-
positioned to grow: It has the people and natural resources. 
Thousands of overseas Vietnamese are eager to pool their 
talents and skills. Many corporations want to take part.
    The United States can do its part by extending the Jackson-
Vanik waiver and working with Vietnam to successfully implement 
the terms of the bilateral trade agreement. The U.S.-ASEAN 
Business Council and Cargill both have found over the years 
that engagement, both commercially and politically, builds the 
best bridges to peace and mutual prosperity.
    In fact, U.S. companies export more than just products when 
they invest overseas. They export U.S. values and good business 
practices. For our employees, who are used to wearing flip-
flops on construction sites, we require steel-toed shoes and 
hard-hats and safety rails. We give them better than average 
wages and benefits packages.
    For our communities, we actively participate in building 
relations. Cargill, for example, replaced a rickety footbridge 
that kept washing out near our Dong Nai feed mill with a solid 
stone bridge that will last for years and be far safer for the 
citizenry. We used the leftover money from that project, which 
was raised by our employees, to build additional schoolrooms 
for a neighborhood school. And, the company has developed a 
partnership with a training center for the handicapped in Ho 
Chi Minh City, where we have donated playground equipment.
    But Vietnam must do its part, too, by becoming more 
outward-thinking and responsible in today's world market. 
Otherwise, the capital, management resources and investors that 
Vietnam knows it needs to attract simply will go elsewhere.

                                <F-dash>


    Chairman Crane. Thank you, Mr. Carlson.
    Mr. Hoang.

     STATEMENT OF DAN DUY-TU HOANG, VICE PRESIDENT, PUBLIC 
RELATIONS, VIETNAMESE-AMERICAN PUBLIC AFFAIRS COMMITTEE, FALLS 
                        CHURCH, VIRGINIA

    Mr. Hoang. Mr. Chairman, and Members of the Committee, I 
appreciate the opportunity to testify before you today. The 
Vietnamese-American Public Affairs Committee, a national grass-
roots organization of Vietnamese American voters, strongly 
opposes waiving the Jackson-Vanik amendment for Vietnam for two 
main reasons.
    First, the Vietnamese government continues to deny its 
citizens basic human rights. The essence of the Jackson-Vanik 
amendment is to promote human rights in communist world 
countries by conditioning the granting of U.S. investment and 
credits.
    Second, by providing Vietnam with access to cheap U.S. 
Credits and investments while the Hanoi government stalls at 
economic and political reform is a waste of U.S. taxpayer 
money. Moreover, it is a signal to the Vietnamese government to 
continue dragging its feet on reform in all areas.
    We believe that maintaining the Jackson-Vanik amendment in 
the case of Vietnam will help pressure the Vietnamese 
government for more concrete reforms. Let me elaborate on the 
reasons why we oppose extending the waiver.
    At this moment, Dr. Nguyen Xuan Tu, a biologist and writer 
whose pen name is Ha Si Phu, is under strict house arrest in 
Dalat City in Vietnam. In the least year, authorities have 
raided his residence on at least two occasions, each time 
removing his personal computer and working papers. According to 
two credible sources, Human Rights Watch and the Free Vietnam 
Alliance, on MIA 12, 2000, the public security again entered Ha 
Si Phu's home and presented him with a written order 
threatening to bring charges of treason, which carries a 
maximum penalty of death. Ha Si Phu's only activity has been to 
write a series of essays critiquing Marxist-Leninist doctrine 
and advocating political pluralism.
    In Hanoi, geophysicist Nguyen Thanh Giang remains under 
heavy police surveillance and harassment. He was jailed for 2 
months in 1999 for pro-democracy writings. Since MIA of last 
year, Nguyen Thanh Giang has been under virtual house arrest 
with his phone disconnected, mail stolen and home ransacked by 
security officials.
    In Saigon, a medical doctor named Nguyen Dan Que also faces 
house arrest. While Dr. Nguyen Dan Que has not been charged 
with any crime, security police surround his home 24 hours a 
day, a point that was underscored on April 12th when a reporter 
from the French newspaper L'Express tried to pay a visit. Not 
only was Sylvaine Pasquier turned away by the public security, 
she was herself detained for intense questioning.
    The situations of Ha Si Phu, Nguyen Thanh Giang, and Nguyen 
Dan Que highlight the government's repression of peaceful 
dissent. Ha Si Phu has been under house arrest for the last 3 
years without ever being brought to trial. Professor Nhuyen 
Thanh Giang has been persecuted without ever being formally 
charged with any crime. Dr. Nguyen Dan Que was released from 
jail in October, 1998, in a much-publicized amnesty of 
prominent political prisoners and then confined quickly to his 
home. All three men, along with many others in Vietnam, are the 
victims of the government's administrative detainment policy, 
which effectively legalizes arbitrary arrest and detainment. 
Under the infamous Directive 31/CP, signed into law in April 
1997, security officials can detain any individual without 
charge for up to 2 years. The purpose of that administrative 
detainment policy is to repress political dissent while 
avoiding the official trials and lengthy prison sentences which 
attract international attention.
    Arbitrary arrest in Vietnam also extends to religious 
figures. During his January visit to Vietnam, Congressman Ed 
Royce met with several prominent religious leaders and heard 
firsthand the government's restrictions on religious worship 
and persecution of clergymen. Venerable Thich Quang Do, the 
second highest leader of the Unified Buddhist Church of Vietnam 
and a nominee for the 2000 Nobel Peace Prize by 29 Members of 
Congress, told Mr. Royce, ``If I walk out the gate of this 
Pagoda, I know an accident will conveniently happen to me.'' .
    Now, this travesty was brought to light thanks to Mr. 
Royce's insistence on hearing a variety of voices in Vietnam, 
and I hope that Members of the Subcommittee, in future trips to 
Vietnam, will seek to visit dissidents to get a balanced view 
of the country as Representatives Ed Royce, Tom Campbell, Chris 
Smith and Loretta Sanchez have done on their recent trips.
    It is not unreasonable that American corporations and the 
Vietnamese government should lobby for a waiver of the Jackson-
Vanik amendment. Who would want to do business in a corrupt, 
red-tape, and nontransparent economy without subsidized Export-
Import loans and OPIC risk insurance? What is unreasonable, 
however, is that U.S. taxpayers should have to fund programs 
which permit investments not economically viable on their own 
merits and which allow the Vietnamese government to put off 
economic and political reforms.
    Dear members, in conclusion, it is in the interest of the 
United States to encourage Vietnam's transition to a market 
economy. Such a transition can only be achieved through 
sustained economic and political reform. Since the President's 
decision to waive the Jackson-Vanik amendment in March, 1998, 
and to extend the annual waiver since, the Vietnamese 
government has backtracked on reform. Extending the waiver for 
another year gives Hanoi more excuse to put off essential 
reforms. At the same time, it creates a moral hazard as 
American companies effectively gamble on a flawed economic 
system by investing when and where they otherwise would not 
without the benefit of taxpayer subsidies.
    Waiving the Jackson-Vanik amendment now, and then hoping 
and praying that the Vietnamese government will reform, just 
does not work. The first requirement for free enterprise is 
free people. As long as the Vietnamese government continues to 
run a police state, arbitrarily arresting and detaining the 
country's best minds, don't expect it to respect the laws and 
conditions good for business either. Thank you.
    Chairman Crane. Thank you, Mr. Hoang.
    [The prepared statement follows:]

Statement of Dan Duy-Tu Hoang, Vice-President, Public Relations, 
Vietnamese-American Public Affairs Committee, Falls Church, Virginia

    Dear. Mr. Chairman and Members of the Committee,
    I appreciate the opportunity to testify before you today. 
The Vietnamese-American Public Affairs Committee (VPAC), a 
national grassroots organization of Vietnamese American voters, 
strongly opposes waiving the Jackson-Vanik amendment for 
Vietnam for two main reasons:
    (1) The Vietnamese government continues to deny it citizens 
fundamental human rights The essence of the Jackson-Vanik 
amendment is to promote human rights in communist-ruled 
countries by conditioning the granting of U.S. government 
credits and investment.
    (2) Providing Vietnam with access to cheap U.S. credits and 
investment, while the Hanoi government stalls on economic and 
political reform, is a waste of U.S. taxpayer money. Moreover, 
it is a signal to the Vietnamese government to continue 
dragging its feet on much needed reform in all areas.
    Maintaining the Jackson-Vanik amendment in the case of 
Vietnam will help pressure the Vietnamese government for more 
concrete reforms. Let me elaborate on the reasons why we oppose 
extending the waiver.

    Repression of Political and Religious Views

    At this moment, Dr. Nguyen Xuan Tu, a biologist and writer 
whose pen name is Ha Si Phu, is under strict house arrest in 
Dalat city, Vietnam. In the last year, authorities have raided 
his residence on at least two occasions, each time removing his 
personal computer and working papers. According to two credible 
sources, Human Rights Watch and the Free Vietnam Alliance, on 
May 12, 2000, the public security again entered Ha Si Phu's 
home and presented him with a written order threatening to 
bring charges of treason, which carries a maximum penalty of 
death. Ha Si Phu's only activity has been to write a series of 
essays critiquing Marxist-Leninist doctrine and advocating 
political pluralism.
    The unjust treatment of Ha Si Phu is of great concern to 
the Vietnamese American community. Our moral outrage is shared 
by many others. As I understand, there is an effort underway in 
the House of Representatives led by the Congressional Dialogue 
on Vietnam to demand the Vietnamese government to immediately 
release Ha Si Phu. This parallels the protests of the broader 
international community, including human rights organizations 
and scientific groups, against the Vietnamese government's 
persecution of Ha Si Phu. His case, though, is not unique.
    In Hanoi, geophysicist Nguyen Thanh Giang remains under 
heavy police surveillance and harassment. He was jailed for two 
months in 1999 for pro-democracy writings. Since May last year, 
Prof. Nguyen Thanh Giang has been under virtual house arrest 
with his phone disconnected, mail stolen, and home ransacked by 
security officials.
    In Saigon, a medical doctor named Nguyen Dan Que also faces 
house arrest. While Dr. Nguyen Dan Que has not been charged 
with any crime, security police surround his home 24 hours a 
day, a point that was underscored on April 12, 2000 when a 
reporter from the French newspaper L'Express tried to pay a 
visit. Not only was Sylvaine Pasquier turned away by the public 
security, she was herself detained for intense questioning.
    The situations of Ha Si Phu, Nguyen Thanh Giang, and Nguyen 
Dan Que highlight the government's repression of peaceful 
dissent. Ha Si Phu has been under house arrest for the last 
three years without ever being brought to trial. Prof. Nguyen 
Thanh Giang has been persecuted without ever being formally 
charged with any crime. Dr. Nguyen Dan Que was released from 
jail in October 1998 in a much publicized amnesty of prominent 
political prisoners and then quickly confined to his home. All 
three men, along with many others in Vietnam, are the victims 
of the government's administrative detainment policy, which 
effectively legalizes arbitrary arrest and detainment. Under 
the infamous Directive 31/CP, signed into law in April 1997, 
security officials can detain any individual without charge for 
up to two years. The purpose of the administrative detainment 
policy is to repress political dissent while avoiding the 
official trials and lengthy prison sentences which attract 
international attention.
    Arbitrary arrest in Vietnam also extends to religious 
figures. During his January visit to Vietnam, Congressman Ed 
Royce met with several prominent religious leaders and heard 
first hand the government's restrictions on religious worship 
and persecution of clergymen. Venerable Thich Quang Do, the 
second highest leader of the Unified Buddhist Church of Vietnam 
and a nominee for the 2000 Nobel Peace Prize by 29 U.S. Members 
of Congress, told Mr. Royce: ``If I walk out the gate of this 
Pagoda, I know an accident will conveniently happen to me.'' 
(This travesty was brought to light thanks to Mr. Royce's 
insistence on hearing a variety of voices in Vietnam. We 
earnestly hope that members of the Committee in future trips to 
Vietnam will seek to visit dissidents to get a balanced view of 
the country as Representatives Ed Royce, Tom Campbell, Chris 
Smith and Loretta Sanchez have done in their recent trips.)
    Perhaps the most worrisome part of the government's record 
on religion is its ongoing crackdown against the Hoa Hao faith. 
In May 1999, the government created a state-sanctioned Hoa Hao 
Representative Board consisting entirely of senior communist 
party cadres to oversee the affairs of the Hoa Hao Buddhist 
community. To curtail an independent Hoa Hao organization, 
authorities have repeatedly tried to stop gatherings by Hoa Hao 
Buddhists on their most solemn religious occasions and detained 
large numbers of worshippers. This climate of repression has 
created the potential for major social unrest in the southern 
provinces of Vietnam where five million Hoa Hao Buddhists live.

Waste of U.S. Taxpayer Money

    It is not unreasonable that American corporations and the 
Vietnamese government should lobby for a waiver of the Jackson-
Vanik amendment. Who would want to do business in a corrupt, 
red-tape, and non-transparent economy without subsidized 
Export-Import loans and OPIC risk insurance? What is 
unreasonable, however, is that U.S. taxpayers should have to 
fund programs which permit investments not economically viable 
on their own merits and which allow the Vietnamese government 
to put off economic and political reforms.
    Everyone talks about the corruption problem in Vietnam, 
especially the government. But according to a Reuters article 
(``;Despite campaign, graft hobbles Vietnam,'' 5/17/2000), 
Hanoi has nothing to show one year into a major anti-graft 
campaign. Not a single senior government or party official has 
been publicly accused, let alone punished, for corruption. The 
most senior official rebuked for ``mismanagement,'' Ngo Xuan 
Loc, was dismissed as deputy prime minister only to quickly 
return as senior advisor to the premier. The root of the 
problem is that the communist regime is accountable only to 
itself.
    Red tape is another legendary problem. Consider this 
account from the Rushford Report (``;Vietnam, twenty-five years 
later,'' 4/5/2000): ``Every small business operator one sees 
has a piece of paper in his or her pocket giving permission to 
do business, the same kind of noodle shop down the street might 
have a different set of papers. It is a criminal offense not to 
have that permission slip.'' The bureaucratic mess gets worse 
for larger ventures, especially when they involve foreigners.
    Finally, there is the problem of non-transparency in 
Vietnam. This stems from the lack of reliable information, 
which follows from the government's monopoly on the media and 
the ``firewalls'' it uses to block many Internet sites. The 
stifling of free information not only discourages foreign 
investors, but also denies Vietnamese the knowledge they need 
to do business and take part in their national affairs.

Conclusion

    It is in the interest of the United States to encourage 
Vietnam's transition to a market economy. Such a transition can 
only be achieved through sustained economic and political 
reform. Since the president's decision to waive the Jackson-
Vanik amendment in March 1998 and to extend the annual waiver 
since, the Vietnamese government has backtracked on reform. 
Extending the waiver for another year gives Hanoi more excuse 
to put off essential reforms. At the same time, it creates a 
moral hazard as American companies effectively gamble on a 
flawed economic system by investing when/where they otherwise 
would not without the benefit of taxpayer subsidies.
    Vietnamese Americans in general and VPAC in particular 
would dearly like to see material improvements in the lives of 
people in Vietnam. But sustainable development and economic 
progress that benefits all--not a disproportionate few in 
power--can only be achieved on a framework of human rights, 
rule of law, and democracy.
    Waiving the Jackson-Vanik amendment now, and then hoping 
and praying that the Vietnamese government will reform just 
does not work. The first requirement for free enterprise is 
free people. As long as the Vietnamese government continues to 
run a police state, arbitrarily arresting and detaining the 
country's best minds, don't expect it to respect the laws and 
conditions good for business either.

                                <F-dash>


    Chairman Crane. Now I would like to have our colleague from 
the State of Oklahoma introduce our next distinguished guest.
    Mr. Watkins. Thank you, Mr. Chairman and Members of the 
Committee. I am honored that my friend, Barry Clark, who 
represents Oklahoma in Vietnam in this real pioneering effort, 
who I think has got some great words to share with us, but I am 
glad he is here.
    Barry, I know that you are doing a great job there working 
at it and trying to lift the vision not only for Oklahoma but 
for Vietnam of what the real world of freedom is all about.
    So, Mr. Chairman, I appreciate you allowing Mr. Clark to be 
here as one of the panel members.
    Chairman Crane. Well, we are happy to have Mr. Clark.
    Now, proceed, Mr. Clark.

 STATEMENT OF BARRY L. CLARK, PRESIDENT AND DIRECTOR, PACIFIC 
            VENTURES, INCORPORATED, TULSA, OKLAHOMA

    Mr. Clark. Thank you, Mr. Chairman and Subcommittee 
members, for the opportunity to be here today to testify before 
you.
    My name is Barry Clark; and I am President of Pacific 
Ventures, which is an Oklahoma-based consulting and private 
equity company. Our offices are in Tulsa, Oklahoma, as well as 
in Hanoi and Ho Chi Minh City, Vietnam. The focus of our 
consulting business is to assist American companies entering 
the Vietnamese market. We have been in Vietnam since 1995, 1 
year after President Clinton lifted the trade embargo.
    From my first visit to Vietnam in 1993 to moving there for 
3 years in 1995, I have witnessed firsthand the changes as 
Vietnam took the first uncertain steps toward a market economy. 
These changes are providing new economic and civic hopes for 
many of the Vietnamese people and new business opportunities 
for American companies. Similar to most people doing business 
in Vietnam, our challenges have been frequent, costly and time-
consuming. Nevertheless, we are confident that the 
opportunities are real and significant, and we remain 
determined to see them through.
    In addition to private enterprise, Pacific Ventures also 
represents the State of Oklahoma. In September 1996, the State 
of Oklahoma became the first State of any Nation to open a 
trade office in Vietnam. Since the Vietnamese government was 
not accustomed to dealing with individual States, the State of 
Oklahoma's Department of Commerce asked Pacific Ventures to 
represent their clients in this newly emerging market. Through 
our company infrastructure, Oklahoma now has offices in Hanoi 
and Ho Chi Minh City with a staff of 12 Vietnamese and two 
Americans. Oklahoma is still the only American state to have a 
full-time presence in Vietnam.
    The reason the State of Oklahoma opened this trade office 
was due to several of Oklahoma's major industries matching 
those of Vietnam's. These industries are of vital importance to 
both of our economies. They are oil and gas, agriculture, 
education and infrastructure development.
    For the businesses we represent directly and through our 
ties to the State of Oklahoma, we manage the daily challenges 
of arranging meetings, securing licenses, conducting market 
research, identifying potential partners, and navigating the 
labyrinth of red tape. Our preliminary business, as we 
participated in the opening of Vietnam's consumer markets, was 
to establish one of the first soft-serve ice cream companies. 
We represent life and health insurance companies looking to 
enter the Vietnamese market and are also a licensee for the 
Disney Book Co.
    Through our contract with the State of Oklahoma, Pacific 
Ventures has led nine delegations of Oklahoma business and 
institutions to Vietnam to sell Oklahoma-made goods and 
services, as well as six delegations from Vietnam who have come 
to Oklahoma to purchase equipment. The Oklahoma goods and 
services sold to Vietnam have included oil-field drilling 
equipment, which you might expect from Oklahoma, but also bio-
tech products, such as sewage treatment enzymes, assistance in 
building environmentally sound landfills, beef cattle genetics, 
and infrastructure building equipment.
    But the export for which the State of Oklahoma has great 
pride is education. Oklahoma has more than 9,000 foreign 
students studying in its colleges and universities. Oklahoma is 
third in the Nation in the number of Vietnamese students in 
higher education in our state. A good example is Petro-Vietnam, 
the Vietnamese national oil company, which has 57 students--
young people which the company sees as its future leaders--as 
full-tuition paying undergraduate and graduate students at the 
world-famous Sarkeys Energy Center at the University of 
Oklahoma in Norman. These students will go back to Vietnam not 
only with a world-class education in petroleum science and 
engineering but also with a better understanding of the 
American way of life. It wouldn't be complete if I didn't add 
that we also hope that they return home with knowledge of, and 
an appreciation for, the products and services of American, as 
well as Oklahoma companies.
    The Jackson-Vanik waiver has brought about dramatic changes 
that are indeed part of the rising tide that is floating more 
hopes and dreams for Vietnamese entrepreneurs and small 
business owners. Vietnam has great potential as a friend and 
trading partner of the United States. I think Ambassador 
Peterson has stated it best: ``With the continued opening of 
the economy, the middle class will grow, the population will 
become more educated and exposed to more ideas, and Vietnam 
will continue to evolve to become a more open society. But 
changes come in increments. By extending the Jackson-Vanik 
waiver and taking other steps along the path of normalization, 
including extension of normal trade relations, the U.S. will 
advance our interest in encouraging Vietnam's ongoing 
transition.'' .
    In conclusion, I want to express the appreciation of 
Oklahoma government and business leaders for Ambassador 
Peterson's passionate leadership and to his staff at the U.S. 
Embassy for all of their assistance and support. They have made 
our work in Vietnam much more productive than we could have 
ever been otherwise. Again, thank you for this opportunity, 
sir.
    Chairman Crane. Thank you, Mr. Clark.
    [The prepared statement follows:]

Statement of Barry L. Clark, President and Director, Pacific Ventures, 
Incorporated, Tulsa, Oklahoma

    Thank you, Mr. Chairman, members of the subcommittee, for 
the opportunity to testify before you today. My name is Barry 
Clark and I am President of Pacific Ventures, which is an 
Oklahoma-based consulting and private equity company. Our 
offices are in Tulsa, Oklahoma as well as Hanoi and Ho Chi Minh 
City, Vietnam. The focus of our consulting business is to 
assist American companies entering the Vietnamese market to 
sell their products and services. We have been in Vietnam since 
1995, one year after President Clinton lifted the trade 
embargo. From my first visit to Vietnam in 1993, to moving 
there in 1995 for three years, I have witnessed firsthand many 
of the changes as Vietnam took the first uncertain steps 
towards a market economy. These changes have provided new 
economic and civic hopes for many Vietnamese people--and new 
business opportunities for American companies. Similar to most 
people doing business in Vietnam, our challenges have been 
frequent, costly and time-consuming, but never the less we are 
confident that the opportunities are real and significant and 
we remain determined to see them through.
    In addition to private enterprise, Pacific Ventures 
represents the State of Oklahoma. In September 1996 the State 
of Oklahoma became the first state of any nation to open a 
trade office in Vietnam. Since the Vietnamese government was 
not accustomed to dealing with individual states, the State of 
Oklahoma's Department of Commerce ask Pacific Ventures to 
represent their clients in this newly emerging market. Through 
our company infrastructure Oklahoma now has offices in Hanoi 
and Ho Chi Minh City with a staff of twelve Vietnamese and two 
Americans. Oklahoma is still the only American state to have a 
full-time presence in Vietnam. The reason the State of Oklahoma 
opened this trade office was due to several of Oklahoma's major 
industries matching those of Vietnam's. These industries are of 
vital importance to both economies: They are oil and gas, 
agriculture, education, and infrastructure development. For the 
businesses we represent directly and through our ties to the 
State of Oklahoma, we manage the daily challenges of arranging 
meetings, securing licenses, conducting market research, 
identifying potential partners and navigating the labyrinth of 
red tape. Pacific Ventures also supports companies or joint-
venture projects until they are capable of operating on their 
own. Our preliminary business as we participated in the opening 
of Vietnam's consumer markets was to establish one of the first 
soft-serve ice cream companies. We represent life and health 
insurance companies looking to enter the Vietnamese market, and 
are also a licensee for Disney books in Vietnam.
    Through our contract with the State of Oklahoma, Pacific 
Ventures has led nine delegations of Oklahoma businesses and 
institutions to Vietnam to sell Oklahoma-made goods and 
services as well as six delegations from Vietnam, that have 
come to Oklahoma to purchase equipment. The Oklahoma goods and 
services sold to Vietnam have included oil-field drilling 
equipment, which you might expect from Oklahoma, but also bio-
tech products such as sewage treatment enzymes, assistance in 
building environmentally sound landfills, beef cattle genetics, 
and infrastructure building equipment.
    But the export, for which the State of Oklahoma has great 
pride, is education. Oklahoma has more than 9,000 foreign 
students studying in its colleges and universities. Oklahoma is 
third in the nation in the number of Vietnamese students in 
higher education. A good example is Petro--Vietnam, the 
Vietnamese national oil company, which has 57 students (young 
people which the company sees as its future leaders) as full-
tuition paying undergraduate and graduate students at the 
world-famous Sarkeys Energy Center of the University of 
Oklahoma. These students will go back to Vietnam not only with 
a world-class education in petroleum science and engineering, 
but also with a better understanding of the American way of 
life. It wouldn't be complete if I didn't add that we also hope 
that they take back knowledge of and an appreciation for the 
products and services of American as well as Oklahoma 
companies. The Jackson-Vanik wavier has brought about dramatic 
changes that are indeed part of the rising tide that is 
floating more hopes and dreams for Vietnamese entrepreneurs and 
small business owners. Vietnam has great potential as a friend 
and trading partner of the United States. I think Ambassador 
Peterson has stated it best: ``With the continued opening of 
the economy, the middle class will grow, the population will 
become more educated and exposed to more ideas, and Vietnam 
will continue to evolve to become a more open society. But 
changes come in increments. By extending the Jackson-Vanik 
waiver and taking other steps along the path of normalization, 
including extension of normal trade relations, the U.S. will 
advance our interest in encouraging Vietnam's on-going 
transition.''
    In concluding, I want to express the appreciation of 
Oklahoma government and business leaders for Ambassador 
Peterson's passionate leadership and to his staff at the U.S. 
Embassy for all their assistance and support. They have made 
our work in Vietnam much more productive than we could have 
been otherwise. Again, thank you for giving me the opportunity 
to speak today.

                                <F-dash>


    Chairman Crane. I thank all of you for your testimony.
    I would now like to yield very briefly to our Ranking 
Member, Mr. Levin.
    Mr. Levin. Thank you, Mr. Chairman.
    The timing is maybe imperfect, although I was going to say 
perfect. You have completed your testimony, and we have votes 
on the floor.
    I just wanted to say to all of you that we take your 
testimony seriously, and we will be sure that it is widely 
circulated. I want to say to the two of you who have come here 
to oppose the waiver that I want to send your testimony over to 
the State Department for their comments. We will do that, and I 
am sure we will receive a reply from them.
    So thank you, all of you, for coming. Also, to those who 
submitted written testimony for the record, it will, Mr. 
Chairman, as you know, be submitted in the record and will be 
considered seriously by us before this matter comes to the 
floor. Thank you.
    Chairman Crane. Thank you, Mr. Levin.
    Again, thank you all for your participation in the hearing 
this morning.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 12:10 p.m., the hearing was adjourned.]
    [Submissions for the record follow:]
                                            American Legion
                                       Washington, DC 20006
                                                      June 13, 2000

Honorable Philip M. Crane, Chairman
Subcommittee on Trade
House Committee on Ways and Means
1102 Longworth House Office Building
Washington, DC 20313

    Dear Mr. Chairman.
    The American Legion is opposed to the renewal of the 
Jackson-Vanik waiver for trade with Vietnam. This position is 
based on the continued failure of the Vietnamese government to 
fully cooperate with efforts to account for the over 2,000 
Americans that remain missing from the war in Southeast Asia.
    The American Legion does not accept the conclusions of the 
Clinton administration that the Vietnamese government has fully 
cooperated with accounting efforts. Granted, the Vietnamese 
have provided assistance in the area of remains recovery (e.g. 
locating and helping exhume aircraft crash sites). However, the 
United States government is paying handsomely for that 
cooperation. The Vietnamese government holds in their archives 
voluminous data that we believe would be helpful in solving 
many of the 2,000-plus unresolved cases. Thus far the 
Vietnamese have been unwilling to share this information.
    What is needed is unilateral cooperation on the part of the 
Vietnamese government and Communist Party in providing 
information relating to stored remains, and to records on a 
significant number of unresolved cases designated as ``last 
known alive,'' or ``died in captivity.''
    As was the case with our recent opposition to Permanent 
Normal Trade Relations with the People's Republic of China, The 
American Legion is troubled that economic and trade concerns 
continue to take precedence over issues of national security. 
The highest national priority is accounting for our missing 
servicemembers. Vietnam is capable of providing significantly 
more cooperation with our efforts to bring about the fullest 
possible accounting. The American Legion urges the Committee to 
take these factors into account and oppose the Jackson-Vanik 
waiver for trade with Vietnam.
            Sincerely,
                                                John F. Sommer, Jr.

                                <F-dash>

Statement of Anheuser-Busch, St. Louis, MO

    In its press release (No. TR-21) of May 30, 2000 the Ways 
and Means Subcommittee on Trade requested public comment on the 
``nature and extend of U.S. trade and investment ties'' with 
Vietnam as well as issues related to pending bilateral trade 
agreement with Vietnam. Anheuser-Busch strongly supports the 
process of developing closer economic ties with Vietnam. In our 
view, the further integration of Vietnam into the world economy 
will enhance its economic development, increase its standard of 
living and strengthen demand for consumer products. Given its 
size, location and culture, it has tremendous market potential 
for companies in the brewing industry.
    Anheuser-Busch has a longstanding interest in Vietnan. 
Currently, however, there are no authorized sales of our 
flagship brand, Budweiser, in Vietnam. For more than a decade, 
we have sought without success to register our world famous 
Budweiser trademark in Vietnam. The details of the history of 
this effort are set forth in the attached document (Exhibit I).
    As we have expressed directly to the Vietnamese 
authorities, we strongly believe that the relevant departments 
have has ample time to consider our application to register our 
Budweiser trademark and make a decision with respect thereto. 
Adequate protection of intellectual property rights is an 
integral part of the U.S./Vietnam bilateral trade agreements as 
well as Vietnam's standing with the world investment community. 
Adequate protection and equitable treatment include a fair and 
timely decision process with respect to intellectual property 
issues.
    We urge the Committee and the Administration to impress 
upon the Vietnamese the importance of a timely decision with 
respect to this matter as the two countries move forward in the 
development of their overall economic relationship.

                               Exhibit 1

 Summary of Main Arguments in Support of the Request of Anheuser Busch 
         Company's Request for Registration of the Trademarks:

  ``BUDWEISER'' and ``Budweiser'' in the Socialist Republic of Vietnam

1. Background

    Anheuser Busch Company (``A-B'') is one of the largest 
companies in the world. Since 1957, A-B has been the largest 
producer of beer in the world.
2. Trademark Dispute

    For most of this century, A-B has been involved in a 
dispute with Budejovicky Budvar Narodni (``BB'') over the right 
to use the trademark BUDWEISER in a number of countries 
throughout the world. Notwithstanding the parties' competing 
claims over the right to use the BUDWEISER trademark, one fact 
remains undeniable: A-B began using the BUDWEISER trademark in 
1876, nearly 20years before BB was founded in 1895.
    After having sold large volumes of BUDWEISER beer in the 
southern part of Vietnam before 1975, A-B applies to register 
its BUDWEISER trademark in Vietnam in 1989. In 1993, A-B 
applied to register the trademark BUD in Vietnam as well. 
However, four previously registered trademarks of BB consisting 
of the trademark BUDWEISER blocked these applications of A-B. 
In 1997, A-B successfully cancelled these four prior 
registrations of BB on the basis of non-use.
    The cancellation of BB's four trademark registrations 
should have cleared the way for registration of A-B's BUD and 
BUDWEISER trademarks. However, only the BUD trademark proceeded 
to registration. The formal reason for the delay in allowing A-
B's application for BUDWEISER to proceed to registration was 
that BB has two other trademark registrations (BUDWEISER BUDVAR 
and BUDWEISER BUDBRAU) blocking A-B's application for 
BUDWEISER. Notwithstanding the prior applications of A-B for 
BUDWEISER and the pendency of A-B's cancellation action against 
BB's first four BUDWEISER trademark registrations for non-use, 
BB as permitted to register BUDWEISER BUDVAR and BUDWEISER 
BUDBRAU (which are essentially the same marks as the ones that 
were being cancelled).

2.1 Priority of A-B's Application over BB's Subsequent 
Registration of BUDWEISER BUDVAR and BUDWEISER BUDBRAU

    According to the ``first to file'' and other relevant legal 
principles. A-B's applications should have been given priority 
over these subsequent registrations of BB. Therefore, once BB's 
first four BUDWEISER trademark registrations were officially 
cancelled, A-B's application for BUDWEISER should have 
proceeded to registration, as A-B's application for BUD (which 
has also been blocked by these first four registrations (was 
allowed to do. Similarly, BB's subsequent two registrations for 
BUDWEISER BUDVAR and BUDWEISER BUDBRAU, having a later priority 
date than A-B's application for BUDWEISER, should have been 
cancelled.
    In addition, it should be noted that permitting BB to 
register BUDWEISER BUDVAR and BUDWEISER BUDBRAU during A-B's 
pending cancellation action against the same marks undermines 
fundamental tenet of Vietnamese trademark law which states that 
a trademark is subject to cancellation if it is not used for 
the specified period of time.

2.2 The Worldwide Fame of A-B's BUDWEISER Trademark

    Apart from the priority of A-B's applications, another 
legal basis for allowing the registration of A-B's BUDWEISER 
trademark in Vietnam relates to the well-known, indeed famous 
status of A-B's BUDWEISER mark internationally. Overwhelming 
evidence supporting this claim, including registrations in over 
125 countries worldwide and sales volumes almost 100 times 
greater than BB, was contained in documents that were submitted 
to the NOIP on May 5, 1999.
    As a well-known trademark, A-B's BUDWEISER is entitled to 
special protection under Article 6bis of the Paris Convention 
(to which Vietnam is a party), and Circular No. 437/SC. As 
such, the NOIP should allow immediate registration of A-B's 
BUDWEISER in order to give this well-known trademark the 
protection it deserves, and at the same time cancel BB's 
remaining registrations for BUDWEISER BUDVAR and BUDWEISER 
BUDBRAU, neither of which can reasonably called well-known.

3. Investment

    To efficiently supply the demand for A-B's BUDWEISER 
worldwide, A-B has invested in local brewing plants or has 
licensed its famous BUDWEISER mark to local manufacturers, 
including in China, the Philippines, Japan, South Korea, Canada 
and others. In addition, A-B has invested in facilities in 
foreign countries for the manufacture of aluminum beer cans, 
containers and other packaging using the most modern 
manufacturing methods, including a commitment to recycling 
previously used products and materials. This latter commitment 
is particularly important to countries in Asia which are 
experiencing growing pollution problems.
    A-B perceives Vietnam as an exciting new market. If AB were 
to engage in commercial activities in Vietnam, this would 
contribute significantly to the promotion of commercial 
relations between the U.S. and Vietnam. However, the ability of 
A-B to consider engaging in such activities in Vietnam depends 
on it having the right to use its most important trademark: 
BUDWEISER. Accordingly, A-B is keen to be given the right to 
use the BUDWEISER trademark in Vietnam (through formal 
registration of the same) at the earliest possible date.
    For the foregoing reasons, A-B is hopeful that the relevant 
authorities in Vietnam will issue A-B a Certificate of 
Registration for the BUDWEISER trademark as soon as possible.

                                <F-dash>


Statement of Dr. Nguyen Dinh Thang, Executive Director, Boat People 
S.O.S., Merrifield, VA

    Mr. Chairman and members of the Subcommittee,
    Time has come again for Congress to review the President's 
decision to renew the waiver to the Jackson-Vanik Amendment for 
Vietnam. By granting this waiver to Vietnam, the President 
promised that it would substantially promote free and open 
emigration.
    While there are many factors influencing U.S.-Vietnam 
relationship, the Jackson-Vanik Amendment focuses solely on the 
question of free and open emigration. The justification, 
validity and effects of the waiver should therefore be 
evaluated solely on the basis of whether it has promoted free 
and open emigration.
    By statutory definition, free and open emigration means 
more than just the issuance of exit permits to citizens who 
want to emigrate. It also means that no citizen should be made 
to pay more than a nominal fee on emigration or on the visas or 
other documents required for emigration.
    The Vietnamese people has been burdened by an outrageously 
corrupt system. Vietnam's corruption ranks among the worst in 
Asia, according to a report released this month by the Hong 
Kong-based Political and Economic Risk Consultancy (PERC). Even 
Vietnam has to admit that corruption permeates all government 
functions. A police report released earlier this month 
indicated that corruption is on the rise--the level of detected 
embezzlement has increased some 10,000 times over the past five 
months.
    Emigration is not immune to graft. Practically every single 
person who wants to emigrate must pay three to four times the 
annual salary of an average Vietnamese citizen. That is 
certainly more than a nominal fee. Since few Vietnamese 
citizens can afford such bribes, their U.S. relatives are often 
the ones to bear the burden.
    Corruption seriously affects U.S. refugee programs in 
Vietnam. Our State Department has cited statistics showing that 
tens of thousands of refugees have been resettled since the 
U.S. first granted Vietnam the waiver to the Jackson-Vanik 
Amendment two years ago. These refugees too had to pay their 
way out. The State Department's statistics are not an indicator 
of free and open emigration. On the contrary, they constitute 
thousands upon thousands of violations of the principle of free 
and open emigration called for in the Jackson-Vanik Amendment.
    Of course there are many Vietnamese citizens who are 
eligible for emigration but who cannot afford the bribes; they 
continue to be denied clearance for interview under U.S. 
refugee programs. At the last hearing I presented a number of 
specific examples. None of them has been cleared for interview 
a year later.
    Mr. Chairman and members of the Subcommittee,
    There are those who argue that granting the waiver to 
Vietnam would strengthen the hands of the reformist faction 
within the Vietnamese leadership. Developments over the past 12 
months do not support this speculation. There has been no 
serious reform, be it institutional, social or political, to 
point to. The Vietnamese leadership recoils when it realizes 
that the bilateral trade agreement with the U.S. entails major 
reforms.
    The Jackson-Vanik waiver has failed to improve the human 
rights conditions in Vietnam. Two years ago, Vietnam released a 
handful of political and religious prisoners. All of these 
former prisoners of conscience continue to be held under house 
arrest. Vietnam has since sent to jail a larger number of 
political dissidents and religious leaders than it had 
released.
    The Jackson-Vanik waiver for Vietnam has not made 
emigration more free and open, has not produced any reform, has 
not ameliorated the business environment for U.S. investors, 
and has failed to improve human rights conditions in Vietnam. 
Vietnam's corrupt system continues to affect many U.S. citizens 
and their loved ones in Vietnam, and to subvert U.S. refugee 
programs.
    I recommend that this Subcommittee establishes benchmarks 
to track progresses or the lack thereof in each of the above 
areas. Specifically, I recommend that the Subcommittee requests 
the General Accounting Office to survey immigrants and refugees 
from Vietnam about how much they must pay for emigration and to 
track the number of U.S. businesses that are still in business 
and actually make a profit in Vietnam.
    I also recommend that this Congress delays the renewal of 
the waiver until Vietnam meets a number of conditions. Namely, 
Vietnam must clear all cases submitted by the U.S. for 
interview, stop its corrupt practices in emigration, and 
institute reforms to guarantee transparency in all areas of the 
government.
    Thank you Mr. Chairman and members of the Subcommittee.

                                <F-dash>


Statement of Andre Sauvageot, General Electric Company

    I am Andr&eacute; Sauvageot, residing in Hanoi as the Chief 
Representative for the General Electric Company in Vietnam. I 
have held this position for over 7 years. As I did for your 
hearing on the initial waiver and also last year for the 
renewal of the Jackson-Vanik Amendment, I am submitting the 
following updated information to assist the Committee in its 
decision regarding the renewal of the Jackson-Vanik waiver for 
Vietnam.

I. Vietnam Experience Prior to Joining General Electric

    My involvement in Vietnam began in 1964 as a U.S. Army 
Captain assigned as a District Advisor in South Vietnam. This 
entailed participating in combat operations with small South 
Vietnamese units and afforded opportunities to learn about life 
and civil administration at the village level. I completed 8 
years of Vietnam service with varied assignments including US 
Liaison & Coordination Officer for the Military Assistance 
Command (MACV) in the Prime Minister's Office. My last 
assignment, ending in March 1973, was as the Interpreter for 
the Chief of the American Delegation to the Four-Party Joint 
Military Commission charged with implementing the Paris 
Agreement on ending the war.
    From 1976 to 1978 the Army assigned me to the US Department 
of Health, Education & Welfare as an Assistant Director to the 
Indochina Refugee Assistance Program to help with the 
resettlement of Vietnamese refugees in the United States. In 
1984, I retired as a Colonel from the Army after 27 years 
service.
    From 1982 to as recently as 1993, I served as the 
interpreter for the highest level American delegations visiting 
Hanoi. The initial focus was solely on the MIA/POW issue, but 
later broadened to include some of Vietnam's humanitarian 
concerns. Until December 1992, I was employed by the U.S. 
Embassy in Bangkok as the Regional Advisor for the 
Comprehensive Plan of Action designed to encourage voluntary 
repatriation of Vietnamese ``boat people'' back to Vietnam. 
This involved constant visits to the camps in Hong Kong and 
Southeast Asia with follow-up visits to returnees in Vietnam. I 
enjoyed steadfast support from Vietnam's leadership and the 
freedom to travel freely in Vietnam at my own initiative 
throughout my mission.
    My long involvement in Vietnam has given me a profound 
respect for the Vietnamese. Their pragmatism, flexibility, 
courage and intelligence make it a country that is very 
amenable to constructive engagement. The recent House vote to 
grant PNTR to China is an encouraging recognition of the merits 
of constructive engagement. I agree with Department of Defense 
experts working the MIA/POW issue full time that the Vietnamese 
have provided outstanding cooperation and that the cooperation 
has increased as the U.S.-Vietnam relationship expands. The 
same is true on a wide range of commercial and other issues of 
interest to both countries. Progress on all issues is 
positively correlated with improvements in the overall 
relationship based on the principle of mutual benefit.

II. Doing business in Vietnam

    Doing business in Vietnamese remains tough sledding. It is 
not surprising that a country long ravaged by war in a long 
struggle for independence and national unity would take time to 
move from feudalism through Soviet-style state socialism to a 
market economy. The problems with an underdeveloped banking 
system, underdeveloped legal and physical infrastructure, a 
lack of transparency and widespread corruption are serious and 
combine to make it difficult to do business. American companies 
have the additional handicap of arriving behind foreign 
competitors, which were not constrained by the U.S. Trade 
embargo against Vietnam.
    In addition, the lack of domestic capital and a severely 
limited national budget encourage the Vietnamese and their 
foreign business partners to seek off-shore funding. Financing 
must often be in the form of Government-to-Government soft 
loans, as budget constraints may preclude commercial financing. 
To be successful, companies must be prepared to make a long-
term commitment and maintain an in-country presence.
    For the committed company with the right products or 
services, proper corporate policies and minds open to Vietnam, 
the positives far outweigh the negatives.
    The Vietnamese leadership's commitment to economic reform, 
its commitment to diversification of Vietnam's international 
relationships, the national unity behind the leadership on both 
of these major policies, the strong work ethic, and a literate, 
intelligent, trainable workforce are durable, valuable and more 
significant thoughts than the difficulties which so often 
frustrate foreign companies doing business in Vietnam.
    The Vietnamese have forged a society in which 78 million 
people of some 54 different ethnic groups, with a wide mix of 
various religions and a large number of people who subscribe to 
no religion at all, live peacefully together free of the 
religious and ethnic strife with which so many other countries 
are afflicted.
    These strengths are the ingredients by which Vietnam will 
effectively address its shortcomings. Vietnam will succeed in 
integrating with the global economy. The question is which 
companies from which countries will grow their businesses in 
Vietnam; in short, will grow with the country and by their 
engagement help shape the kind of market economy that emerges 
in Vietnam.

III. GE Businesses currently in Vietnam

    After former President Bush permitted American companies to 
establish representative offices in Vietnam, GE was among the 
first ten American companies to seize the opportunity, having 
obtained a license on June 18, 1993.
    Several of GE's major businesses, each with its own 
separate headquarters in the United States, have already 
successfully entered Vietnam's market.

GE Medical Systems (GEMS)

    GE Medical Systems, a global business, headquartered in 
Milwaukee, Wisconsin was the first of GE's eleven major 
businesses to enter the Vietnam market, because medical 
equipment was included among certain humanitarian items 
exempted from the Trade Embargo by former President Bush in 
April 1992. Since 1993, GEMS has been selling ultrasound and x-
ray equipment against stiff foreign competition from long 
established companies such as Siemens from Germany. GEMS has 
made a respectable beginning, including the sale of high-end 
Magnetic Resonance Imaging (MRI) equipment manufactured in 
Wisconsin. This year GEMS won a $1.3 million (USD) contract to 
provide ultrasound systems, financed by the World Bank.

GE Aircraft Engines (GEAE)

    GE Aircraft Engines, headquartered in Cincinnati, Ohio 
regards the Vietnam Airlines (VNA) as a strategic customer with 
significant growth potential. VNA airline has selected GE or GE 
joint venture engines with an aggregate value of some $162 
million, to power its entire small fleet of Boeing and Airbus 
aircraft. GEAE is currently participating in an international 
bidding competition to secure a 2-year maintenance contract for 
the CFM56-5B4 engines on VNA's fleet of 10 A320 aircraft.

GE Capital Aviation Services (GECAS)

    One of the 29 major branches of GE Capital Services and 
headquartered in Stamford, Connecticut, GECAS has dry-leased 3 
new Boeing 767-300ER aircraft to Vietnam Airlines (VNA) for a 
period of 5 years. Now, over 4 years into the lease, GECAS, the 
worlds largest aircraft lessor, is favorably impressed with the 
management and the integrity of VNA, a customer that has always 
paid its lease obligations on time, even after the currency 
crisis hit the Pacific nations. Although the current lease 
expires January 2001, GECAS will bid to renew its lease with 
this priority customer in the near future.

GE Lighting (GEL)

    GE Lighting, headquartered in Cleveland, Ohio has gained a 
modest presence with annual sales in Vietnam running over $1 
million.

GE Appliances (GEA)

    GE Appliances, headquartered in Louisville, Kentucky 
successfully concluded a contract over the past year with a 
private company that is already aggressively selling American 
manufactured appliances (refrigerators, air-conditioners, 
washing machines...) in the Vietnamese market.
GE Transportation Systems (GETS)

    Headquartered in Erie, Pennsylvania GETS manufactures 
locomotives and locomotive components. In Vietnam, GETS has won 
two international bids (1996-97) to provide parts/components to 
the Vietnam Railways (VR). GETS is working on opportunities to 
sell new locomotives and to upgrade VR's older locomotives. Our 
technical proposal for a new locomotive customized to meet VR's 
requirements was so well received that the railway asked us to 
proceed with a financing proposal that combines attractive 
interest rates, full financing and relatively long payment 
terms. GE Capital Marketing Services is currently working with 
the U.S. Export Import Bank and an American Bank to enable us 
to pursue this opportunity with its significant downstream 
potential.

GE Power Systems (GEPS)

    GE Power Systems, headquartered in Schenectady, New York, 
manufactures steam turbines and generators in New York and gas 
turbines in Greenville, South Carolina; and turbine and 
generator control equipment in Salem, Virginia. GETPS has won 
the following contracts in Vietnam:
    <bullet> first ever gas compressors for the White Tiger 
field to bring in gas from off-shore,
    <bullet> 2 generators for Ham Thuan 300MW hydro plant 
(contract award February 1998) and
    <bullet> 2 steam turbines and 2 hydrogen cooled generators 
for Pha Lai 2 600MW thermal, coal fired power plant.
    <bullet> 2 turbines in the Song Hinh hydro plant.

IV. Importance of Jackson-Vanik Waiver--Framework Agreement 
signed last year

    We deeply appreciate the initial support of your sub-
committee and ultimately of the entire Congress for last year's 
decisive majority renewing waiver of the Jackson-Vanik 
amendment.
    Since the U.S. Export Import Bank and the State Bank of 
Vietnam signed the Frame Agreement last year after your renewal 
of the Jackson-Vanik Amendment, General Electric is better 
positioned to meet foreign competition and thereby create 
opportunities for our American workers to produce equipment for 
sale into Vietnam's growing market.
    The Framework Agreement permits the U.S. Export Import Bank 
to rapidly enhance our ability to compete with direct funding 
proposals to our customers. This includes the bidding 
opportunity that we presented last year, the Thac Ba Hydro 
upgrade project. This project has been delayed, partly as the 
result of uncertainty concerning funding.
    However, since your renewal of the waiver last year and the 
signing of the Framework Agreement, interest has been rekindled 
and we have presented additional technical analysis of our 
proposed turbine and turbine control equipment at the request 
of our customer, Electricity of Vietnam (EVN). In addition, GE 
is in a more competitive position to sell locomotives made in 
Pennsylvania and to bid on additional hydro projects.
    As we mentioned last year, EVN's decision to upgrade the 
30-year old Thac Ba hydro power plant calls for ``supplier 
credit'' which means the contractor must present a competitive 
financing proposal. GE's competitors include ABB (Switzerland/
Sweden) and Siemens from Germany.
    GE is extremely competitive from a technical standpoint 
because of its numerous, high quality reference plants and 
because GE, unlike ABB or Siemens, manufactures both the 
turbine and the generators, as well as the turbine and 
generator control equipment.
    Renewal of the Jackson-Vanik waiver will greatly enhance 
GE's ability to pursue the Thac Ba upgrade, new locomotive 
opportunities and other infrastructure projects. Winning Thac 
Ba would help position GE for further wins in Vietnam's growing 
hydro power market. Failure to sustain the Jackson-Vanik waiver 
could greatly damage GE's chances against foreign competition 
on projects for which ODA funding is available and for which 
U.S. Export Import Bank financing is neither available or 
desired.
    For example, assume that Vietnam's largest donor country, 
Japan, were to fund a large project wherein GE was bidding 
against a Japanese company for the contract. Even with 
``untied'' aid, were both the GE and the Japanese company's 
proposals roughly equivalent, political considerations could 
become a factor in awarding the contract. Stated differently, 
diminished U.S. involvement results in less U.S. leverage.
V. Conclusion

    Experience clearly indicates that as the U.S.-S.R.V. 
relationship continues to improve on the basis of mutual 
respect and mutual benefit, progress will continue on all 
fronts. We will continue to work closely with the U.S. 
Government and we appreciate the active support for American 
business and American workers that we have received from 
Ambassador Peterson and his fine staff in Hanoi. We will also 
continue our active involvement with such organizations as the 
U.S.-Vietnam Trade Council and AMCHAM.
    I believe that the most rigorous analysis suggests that 
there is no conflict in pursuit of US commercial objectives in 
Vietnam and our other national interests. In fact, they are 
positively correlated and mutually reinforcing.

                                <F-dash>


Statement of Khmer Kampuchea Krom Federation, from the State of 
Lakewood, California

    Thank you for the opportunity to present testimony 
concerning the direct experience of the Khmer Krom People in 
Vietnam within the context of the Jackson-Vanik Amendment 
waiver review. While we recognize that immigration and human 
rights can best be fostered in a climate of economic and trade 
development, we firmly believe that diplomatic pressure is 
essential to effect political reform.
    Thus, we respectfully submit information opposing the 
Jackson-Vanik Amendment waiver based on the Vietnamese record 
to date on immigration and Human Rights. When the Government of 
Vietnam (GOVN) makes significant progress in these critical 
areas, we would happily support the waiver since it would 
signal true progress toward bettering the lot of our people.

Immigration

    Under the immigration policy announced and supported by 
President Clinton, three criteria are to be met: (1) no one in 
Vietnam should be denied opportunity to emigrate, and (2) no 
one in Vietnam should be made to pay more than a nominal fee 
for emigration or documentation required for emigration, and 
(3) no one should be discriminated against because of ethnic, 
or religious beliefs, or due to their service to the US Armed 
Forces during the Vietnam War.
    There are many cases of Khmer Krom People being denied 
emigration because of their background. There are multiple 
bureaucratic roadblocks, bribery, and pervasive corruption at 
all levels of government in Vietnam creating additional 
obstacles to free emigration. In many instances, applicants to 
U.S. resettlement programs are required to pay huge amounts of 
money. The bribes range from several hundred dollars to several 
thousand dollars.
    According to State Department reports, ethnic minorities 
suffer the most from corruption. There are reasons to believe 
that many victims of racial persecution in Vietnam are among 
ethnic minorities, especially the Khmer Krom People in the 
Mekong Delta. The very disclosure of their qualifications to 
immigrate to the US--under various programs such as ODP or HO--
are tantamount to an admission of guilt for cooperation with 
Vietnam's enemies. A significant number of Khmer Krom are 
currently under house arrest or in hiding.
    Since the beginning of the HO and OPD programs there has 
been little progress in immigration for the ethnic Khmer Krom. 
Of the thousands of Khmer Krom of interest to the U.S., only a 
handful of cases have been identified and granted exit visas. 
Since the first waiver was granted in 1998, the Federation has 
noted no increase in immigration as measured by Federation 
Membership.

Human Rights

    The first sentence of section 402(a) of the Trade Act of 
1974 said that the amendment is ``to assure the continued 
dedication of the United States to fundamental human 
rights...'' With that in mind, Vietnam's human rights record 
does not warrant the waiver of the Jackson-Vanik amendment. 
Vietnam continues to violate the human rights of the ethnic 
minorities, particularly, the Khmer Krom People.
    On April 19, 1999, the Vietnamese government issued 
Administrative Decree 26, entitled Decree of the Government 
Concerning Religious Activities. In this 29-articles long 
decree, the Vietnamese government laid out some serious 
restrictions on religious freedom.
    Article 20 dictates that ``the consecration of those who 
carry the title of Abbot in the Buddhist religion, of 
cardinals, bishops, administrators in the Catholic Church, and 
of dignitaries of equivalent function of other religions, must 
receive the approval of the Prime Minister.''
    Article 21 reads that ``the nomination and transfer of 
clergy, religious and specialists in religious activities must 
obtain the approval of the Peoples Committee whose 
administrative management covers the territory of their 
activities.''
    Article 24 requires that ``religious organizations and 
officials, in order to invite to Vietnam religious 
organizations and officials from abroad, must obtain the 
authorization of the Bureau of Religious Affairs.''
    Article 25 dictates that ``in order to organize a 
particular gathering within a place of worship, it is necessary 
to obtain authorization from the President of the Peoples' 
provincial committee.''
    It is important to note that human rights violations in 
Vietnam are not limited to religious freedom. Three years ago, 
on April 14, 1997, the Vietnamese government issued 
Administrative Decree 31, entitled Government Administrative 
Detainment Policy, which gives the police the power to detain 
anyone suspicious of ``infringing on the national security'' 
for 6 months up to 2 years without trial.
    Over one year ago, Reuters reported on 5/20/99 that the 
government ``has amended its strict press law to tighten state 
control over official media and set rules that all reporting 
must be of benefit to the country.'' Not only did the 
government clamp down on free speech for every citizen, but the 
Vietnamese Communist Party restricted their own party members' 
free speech. On 6/7/99, the Associated Press reported that the 
Politburo decided to ban party members from ``distributing 
documents that question party policies and decisions, and may 
not write anonymous letters or make accusations against people 
they disagree with.''
    Rather than improving on Human Rights, the GOVN appears to 
be backsliding since the first waiver was granted in 1998.

              Vietnam Violates Human Rights of Khmer Krom

    The Khmer Krom People are the indigenous people of the 
Mekong Delta of southern Vietnam. They have lived in the Mekong 
since the first century. They are descendants of the highly 
advanced Khmer Empire--builders of Angkor Watt. Ethnically 
distinct, the Khmer have a different language as well.
    In 1857 the French, under Napoleon III, placed Cochin China 
(as they called the Mekong Delta) under a protectorate. On June 
4, 1949, the French ceded Cochin China to the last Emperor of 
Vietnam, Bao Dai, without a plebiscite or agreement of the 
Khmer Representatives.
    The Khmer Krom now number between 8-10 million. During the 
Vietnam war, they were loyal allies and fought with great 
distinction with the US Special Forces in a dangerous, 
experimental unit--the Mobile Guerilla Force. Khmer Krom were 
not just soldiers--they were elite fighters. Under US Special 
Forces commanders, who trained them to fight outnumbered, and 
outgunned, the Khmer Krom penetrated deep into enemy territory. 
Without artillery support, or hope of reinforcements, they 
turned suicide missions into successes. In tribute to their 
service, General Williams C. Westmoreland cited their 
discipline, courage, and sacrifice in recovering the black box 
of the U2 plane that crashed deep in the enemy territory in 
1966. The mission was so important to the United States that 
President Johnson was immediately notified of its recovery.
    There are books and many eye-witness accounts of former US 
Green Berets providing testimonies for these exceptional 
soldiers. Now, Vietnam is punishing the Khmer Krom for their 
service to the US. The Vietnamese should make peace with their 
own people, if they want the fruits of a full relationship with 
America.
    Mr. Chairman,
    While hoping to win normal trade relations with the United 
States, the Vietnamese government continues to violate the US 
and international Human Rights laws by destroying the sacred 
religious sites of ethnic Khmer Krom in Ho Chi Minh City and 
many other provinces. I would like to bring to your attention 
such violations and ask for your help to save the Khmer Krom 
People from extinction under the Vietnamese communists.
    Culturally, the Khmer Krom culture is under a constant 
pressure by the ``assimilation'' policies of the Vietnam 
government. The Khmer Krom culture, deeply rooted in Hinayanna 
Buddhism, is now crumbling. Originally, there were about 700 
Khmer Buddhist temples all over South Vietnam, the former 
French Cochin-China. However, under the Vietnam government's 
hostile policies of assimilation, many temples have been 
destroyed. As a result, the Khmer Krom People in those areas 
have been uprooted, eliminated or forced to assimilate. The 
number of Khmer Buddhist temples have been greatly reduced and 
there are only 560 remaining. Agents of Vietnam Fatherland 
Front, a branch of the Vietnam communist government, constantly 
scrutinize the Khmer Krom temples. They are to dictating the 
religious practices as well as changing the built-in 
characteristics of the Khmer to assimilate the Vietnamese 
culture.
    Evidently, a new building has been funded by Vietnam 
government to represent Khmer traditions in the province of 
Travinh. It has been artistically skewed to deviate from the 
true Khmer cultural characteristics to impose the Vietnamese 
culture upon the Khmer, and mislead the local and international 
tourists on the Khmer traditions. In many of the Khmer cultural 
festivities, the Vietnam government has subtly introduced many 
Vietnamese cultural characteristics, and the Khmer population 
are forced to accept them to be part of Khmer traditions.
    Recently, the government of Vietnam ordered and had 
destroyed the centuries old and sacred religious site of the 
Khmer Krom People in Ho Chi Minh City. Namely, it destroyed the 
sacred Pali School building, and spiritually disturbed the 
Bodhi Tree where the remains of Khmer Krom ancestors have been 
kept for centuries and paid tribute to every year. The remains 
of thousands of Khmer Krom fighters, whose lives were dedicated 
along with the US Armed Forces during Vietnam War, also lie 
under the same Bodhi Tree. The sacred site is at:
    Most recently in January this year, in the province of 
Travinh, the government of Vietnam ordered all 141 abbots of 
the province's Khmer Krom Buddhist temples to a concentration 
site in the province. In other provinces of the Mekong Delta, 
the Khmer Krom abbots are suffering from similar government 
tactics. These religious leaders have been intimidated, 
humiliated and mentally tortured. Any of the abbots who dared 
to even to dream of welcoming the Millennium celebration were 
threatened with imprisonment. When U.S. Buddhist monks of Khmer 
Krom ethnic origin came to visit their former temples and 
hometown, the Security Department from Hanoi sent their secret 
police agents to intimidate and mentally torture them.
    The Khmer Krom People in the province of Soctrang are now 
forced to celebrate Kathinatean (giving clothing to Buddhist 
Monks) on the same day. This act has violated of Buddhist 
principles and practices, which is to celebrate this festival 
on any day during the month of November. The UN Human Rights 
delegation was made aware of this during their visit in Vietnam 
in October 1998.
    At the millennium celebration January 1, 2000, the Khmer 
Krom People in Cambodia were blessed with permission from the 
government of the Kingdom to celebrate the Millennium events. 
Unfortunately, the Hanoi regime dispatched their secret police 
agents to intimidate and create psychological nightmares within 
the Khmer Krom communities in Cambodia.
    During the WWII and after 1975, Human Rights of this 
minority have been brutally abused by the Vietminh and the 
government of the Socialist Republic of Vietnam respectively. 
Their sufferings are parallel to the recent sufferings of the 
ethnic Albanians in Kosovo and the East Timor people in 
Indonesia. As an example, a recent newspaper report on March 
16, 1999 about the religious right and freedom in Vietnam reads 
as the follows:
    GENEVA, March 16 (Reuters)--The United Nations special 
investigator on religion on Tuesday accused Vietnam of 
continuing to deny people freedom of worship and called for 
reforms.
    Abdelfattah Amor, in his report on the situation in 
Vietnam, said all of the religious communities there were 
prevented from conducting activities freely....
    ``Religion appears as an instrument of policy rather than a 
component of society, free to develop as it wishes, something 
which is ultimately contrary to freedom of religion or belief 
as governed by international law,'' said Amor, a former dean of 
the University of Tunis law faculty who visited Vietnam in 
October.
    Clearly, the Khmer Krom People's ability to exercise their 
religious freedom has been hindered by the Vietnam government.
    Economically, the Khmer Krom are indigenous and land is the 
main source of their viability. Since their land has been 
encroached on and occupied by the Vietnamese in the past, such 
activities continue. Thus, their only economic resource is 
shrinking. Their economic status has been reduced from 
landowners to physical laborers earning less than the 
equivalent of $1.00 U.S. dollar per working day. They are 
living ten-fold below the poverty level, but the government of 
Vietnam constantly prevents any international organizations 
from observing these facts or to help these people. The Khmer 
Krom People, whose farmland is the only vital source for their 
sustenance, have been deprived and deceived by land policies of 
the Vietnam government and, as a result, over 95% of Khmer Krom 
are living in harsh conditions below the poverty level, without 
stable jobs and without sufficient food and medicine.
    According to a recent Associated Press reported from Hanoi 
on Wednesday, December 09, 1998: the Khmer Krom people have 
only about 309 pounds of foods for consumption per year per 
person which is only 50% of the average availability of food to 
a Vietnamese. According to a Vietnamese weekly paper, the Trong 
Dong (Silver Drum) reported in Southern California on Friday, 
November 27, 1998: to alleviate starvation, the Khmer Krom of 
Travinh province (of Vietnam) have to sell their blood...
    There seems to be no genuine effort of the Vietnam 
government to develop Khmer Krom People economically. 
Therefore, education for the Khmer Krom children is poor both 
in the percentage of students attending grades schools and 
higher education. According to our records, no Khmer Krom 
students have been allowed to study abroad. According to 
Deutsche Presse-Agentur, reported from Hanoi on Friday, 
November 13, 1998: only 20 students of Vietnam's millions of 
ethnic minorities have been selected to attend higher 
education. This demonstrates that the Khmer Krom and other 
minorities are not allowed to have opportunities to live their 
lives in the modern society. Their future is now at stake.
    A newspaper published inside Vietnam, Tien Phong (The 
Pioneer) dated 5/9/1999 has identified some of the wide-spread 
and typical abuses of Vietnamese officials toward the Khmer 
Krom farmers by robbing their land, their crops or their house:
    1) On January 25,1999 Mr. Nguyen Viet Khoi, a Vietnamese 
police captain in the city of Soctrang, robbed the farmland 
from a Khmer Krom family (Mr. Ly, Senh), then imprisoned Mr. Ly 
for 3 years, his wife and his 4 adult children at lighter terms 
in prison.
    2) A Khmer Krom farmer, Phuong Thi Lan Anh of Thanh Quoi, 
My Xuyen, Soctrang, her house was robbed by a Vietnamese 
official and she became homeless.
    3) Mr. My Dinh of Nham Lang, Soctrang, a Khmer Krom farmer, 
his land was robbed by a Vietnamese official after he left his 
hut to attend a Buddhist religious service at the temple.
    4) On August 10, 1999 Mr. Tran Van Thach, a Vietnamese 
police major in Soctrang, robbed Mrs. Phen, a Khmer Krom 
farmer, of all her 10 tons of grains she had harvested to feed 
her family for the entire year.
    The Vietnamese communist government in 1976, and again 
recently, have murdered, imprisoned and persecuted the Khmer 
Krom people, including political and religious leaders and the 
general public in order to expedite its assimilation policies 
of minorities. Additional examples of blatant violations on the 
basic human dignity and freedom of the people of Khmer Krom are 
as follows:
    The Khmer Krom People's civic and religious leaders who 
have been murdered by Vietnam Communist government included: 
Dr. Son Ngoc Thanh, Senator Son Thai Nguyen, Mr. Son Thuong, 
Ven. Kim Sang, Ven. Lam Em, Ven. Thach Phok, Ven. Thach Ret, 
Ven. Yim Rong, Ven.Thach Ngos, Ven. Kim Toc Chuong, and 
countless numbers of others.
    The Khmer Krom People's children have been discriminated 
against in education and since the Vietnam government provides 
them with no real venue for advancement, a minimum number of 
them are being able to get access to higher education in 
Vietnam, and none of them are being sent to study abroad, where 
sources of modern technology have originated and developed.

Conclusion:

    The Khmer Krom People who are now poor farmers, do not live 
in the city or the urban areas where UN officials, foreign 
diplomats, news-agencies, or international organizations 
frequently visit or are stationed. They bravely served in the 
U.S. armed forces during the Vietnam war, and because of their 
ethnic and religious background the government of Vietnam has 
severely abused their human rights, and their sufferings have 
never been heard of by the international community.
    On behalf of the Khmer Krom People, the Khmer Krom 
Federation recommends that the waiver be extended only after 
Vietnam agrees to:
    1) Comply with U.S. laws, Charter of the United Nations, 
the Universal Declaration of Human Rights and Minorities 
Rights, and respect the rights of Khmer Krom People and others 
in Vietnam;
    2) End forced assimilation of the Khmer Krom People and 
other ethnic minorities, stop planting communist agents as 
religious leaders in the Khmer Krom Buddhist temples and let 
the Khmer Krom Buddhist monks elect their own leaders without 
interference from GOVN;
    3) Stop persecuting the Khmer Krom veterans who formerly 
fought side by side with the U.S. Armed forces during the 
Vietnam War and now are living in Vietnam;
    4) Provide equal access for job opportunities to Khmer 
Krom;
    5) Allow Khmer Krom students from Vietnam to attend U.S. 
universities and allow more visas for students from Vietnam to 
allow access to U.S. colleges and universities;
    6) Stop interfering with curriculum and education programs 
of the Khmer language for Khmer Krom children. Let the Khmer 
Krom children learn the authenticity of Khmer language, not the 
new language designed by the government of Vietnamese 
Communists to brainwash the Khmer Krom children and keep them 
from learning the real Khmer language;
    7) Allocate a 10% quota on products and services from 
Vietnam that are being allowed access to U.S. markets in such 
ways that products and services must be produced or served by 
Khmer Krom workers and/or Khmer Krom owned businesses;
    8) Permit international organizations and/or U.S. non-
governmental organizations to consider providing their services 
for the Khmer Krom people in the Mekong Delta areas of Vietnam;
    9) Distribute equally international aid of any form to the 
Khmer Krom and minority people in Vietnam;
    10) Yield a portion of the aid from the U.S. Department of 
Agriculture to Vietnam for assisting the Khmer Krom farmers to:
    a) Educate with know-how techniques to increase crop yields 
by such measures as rotating agricultural products;
    b) Make available directly to Khmer Krom farmers the 
chemicals for plant nutrition, pest control and fertilizers; 
and
    c) Provide capital for equipment and technological 
assistance and expertise to Khmer Krom peasants and merchants;
    11) Allow the U.S. Embassy in Hanoi and the U.S. Consulate 
in Ho Chi Minh City to freely monitor the human rights for the 
Khmer Krom and other ethnic minorities in Vietnam;
    12) Ask the United Nations High Commissioner for Human 
Rights to establish UN offices in the Mekong Delta areas to 
monitor human rights abuses against the Khmer Krom people;
    13) Return all properties that the government of Vietnam or 
its agents have confiscated from the Khmer Krom people in all 
provinces of South Vietnam, including but not limited to lands, 
buildings, religious sites, cultural centers, etc.; and
    14) Stop forcing the Khmer Krom in the province of Soctrang 
from having to celebrate the Katinatean on the same day in the 
entire province.

                                <F-dash>


Statement of Hon. John McCain, a United States Senator from the State 
of Arizona

    As the United States and Vietnam work to resolve the 
remaining obstacles to the conclusion of a bilateral trade 
agreement, I am pleased to submit this statement supporting 
extension of the Jackson-Vanik waiver for Vietnam.
    I have strongly supported the process of normalizing 
economic and diplomatic relations with Vietnam over the past 
decade. My support for closer ties between our two countries 
has always been premised on my belief, which has been affirmed 
by the process of normalization, that our interests in Vietnam 
are served not by isolating that country but by working 
together in areas where we agree and by lobbying earnestly for 
change in areas where we differ.
    Such an unsentimental, dispassionate approach to a 
bilateral relationship burdened by the weight of history has 
paid dividends. Our POW/MIA accounting work, which I will 
discuss further below, has accelerated dramatically over the 
course of the past decade, with the result that hundreds of 
American mothers, fathers, wives, sons, and daughters know the 
fate of their lost loved ones--a fate grievously unknown to 
them during the period when we sought to isolate Vietnam rather 
than seek its government's cooperation on the search for our 
missing personnel. Hundreds of American companies are doing 
business in Vietnam, and the bustling commercialism of Ho Chi 
Minh City and other urban centers serves as a reminder that 
although we lost the war, Western influence in Vietnam is 
pervasive and growing. Moreover, our refugee assistance 
programs in Vietnam have been quite successful. It is those 
refugee programs, in the context of the broader bilateral 
relationship, that we gather to review today.
    As we all know, the Jackson-Vanik amendment exists to 
promote freedom of emigration from non-democratic countries. 
The law calls for a waiver if it would substantively enhance 
opportunities to emigrate freely. Opportunities for emigration 
from Vietnam have clearly increased since the President first 
waived the Jackson-Vanik amendment in 1998. The waiver has 
encouraged measurable Vietnamese cooperation in processing 
applications for emigration under the Orderly Departure Program 
(ODP) and the Resettlement Opportunity for Vietnamese Returnees 
agreement (ROVR).
    The best measure of the Jackson-Vanik waiver's success is 
the thousands of Vietnamese who have freely emigrated to the 
United States since the President first waived the Jackson-
Vanik amendment in 1998. Then, 3,754 Vietnamese had departed 
for the United States through ROVR; today, 15,886 have done so. 
Then, 2,461 former re-education camp detainees had not been 
cleared by the government of Vietnam for interview with 
American officials; today, that number has been reduced to 750. 
Then, the Vietnamese government was denying U.S. officials 
access to Montagnards potentially eligible for refugee 
resettlement; today, all but 408 Montagnards identified as 
eligible for interview have been cleared by the Vietnamese 
government for processing by the United States.
    The Jackson-Vanik waiver is working, as measured by its 
inducement of Vietnamese cooperation with our refugee 
resettlement objectives. We are approaching completion of many 
refugee admissions categories under the Orderly Departure 
Program, bringing to an end a historic process that has allowed 
over half a million Vietnamese to emigrate to the United States 
since the 1980s. The Vietnamese government has agreed to help 
implement the resumption of ODP processing for former U.S. 
government employees, which we suspended in 1996. The United 
States is also implementing a new, in-country refugee program 
to assist those Vietnamese who have suffered or who fear 
political or religious persecution.
    The Jackson-Vanik waiver has given momentum to this 
process. Revoking the waiver would likely stall this momentum, 
to the detriment of those who seek to emigrate.
    The Jackson-Vanik waiver has also allowed the Overseas 
Private Investment Corporation (OPIC), the Export-Import Bank 
(EXIM), and the Department of Agriculture (USDA) to support 
American businesses in Vietnam. Competitors from other 
industrialized countries have long had the benefit of lending 
and insurance guarantees provided by their own governments. 
Withdrawing OPIC, EXIM, and USDA guarantees would hurt U.S. 
businesses and slow progress on economic normalization. It 
would reinforce the position of hard-liners in Hanoi who 
believe Vietnam's opening to the West has proceeded too 
rapidly.
    We should also be prepared to approve a U.S.-Vietnam 
bilateral trade agreement once it is completed. Having visited 
Vietnam regularly since 1985, I can attest to the changes in 
Vietnamese society that have resulted from the limited economic 
reforms adopted by the government. Although it is a long-term 
prospect, I take seriously the proposition that the growth of 
the middle class and greater exposure to Americans as a result 
of deepening economic ties between our countries will render 
Vietnam more susceptible to the influence of our values.
    A number of outstanding differences continue to stand in 
the way of closer U.S.-Vietnam relations. Human rights, 
including the freedom to speak, assemble, and worship, remain 
subject to the whims of political leaders in Hanoi. Political 
and economic reforms lag far behind American expectations. Our 
companies operating in Vietnam suffer from bureaucratic red 
tape and corruption.
    I harbor no illusions about the human rights situation in 
Vietnam. There is clearly room for significant improvement. The 
question is how best to advance both the cause of human rights 
and U.S. economic and security interests in Southeast Asia. The 
answer lies in the continued expansion of U.S. relations with 
Vietnam despite our continuing differences with the regime in 
Hanoi, which is struggling to define the terms of Vietnam's 
relationship with the United States.
    The choice is Vietnam's. For our part, we can best 
influence that debate by institutionalizing our bilateral 
trading relationship, working together on areas of mutual 
interest in regional economic and security affairs, gingerly 
moving forward on military-to-military ties, continuing our 
human rights dialogue and other efforts to build needed respect 
for individual freedoms and the rule of law, and cooperating in 
the search for our missing personnel.
    Although the Jackson-Vanik waiver does not relate directly 
to our POW/MIA accounting efforts, Vietnam-related legislation 
often serves as a referendum on broader U.S.-Vietnam relations, 
in which accounting for our missing personnel is the United 
States' first priority. Thirty-nine Joint Field Activities 
conducted by the Department of Defense over the past seven 
years, the consequent repatriation of 288 sets of remains of 
American military personnel during that period, and resolution 
of the fate of all but 41 of the 196 missing Americans last 
known alive in Vietnam attest to the ongoing cooperation 
between Vietnamese and American officials in our efforts to 
account for our missing service men. Such cooperation served as 
an important motivation for Secretary of Defense William 
Cohen's historic visit to Vietnam in March of this year. I am 
confident that such progress will continue.
    Just as the naysayers who insisted that Vietnamese 
cooperation on POW/MIA issues would cease altogether when we 
normalized relations with Vietnam were proven wrong, so have 
those who insisted that Vietnam would cease cooperation on 
emigration issues once we waived Jackson-Vanik been proven 
wrong by the course of events since the original waiver was 
issued in 1998.
    It is important to stress that the Jackson-Vanik amendment 
relates narrowly to freedom of emigration. It does not relate 
to the many other issues involved in our bilateral relationship 
with Vietnam, although rejecting the waiver would likely have 
an adverse effect on other American interests there. The 
Jackson-Vanik waiver is a tool we can selectively use to 
encourage free emigration. The waiver has contributed to that 
objective in Vietnam. At a minimum, using it as a blunt 
instrument to castigate the Vietnamese government for every 
issue of contention between our two countries will not advance 
America's interest in free emigration from Vietnam and may well 
have broader, if unintended, implications.
    Whatever one may think of the character of the Vietnamese 
regime, such considerations should not obscure our clear 
humanitarian interest in promoting freedom of emigration from 
Vietnam. The Jackson-Vanik waiver serves that interest. 
Congress should support it.

                                <F-dash>


Statement of Rong Nay, Montagnard Human Rights Organization, 
Greensboro, NC

    My name is Rong Nay and I am the Assistant Director of the 
Montagnard Human Rights Organization, representing the 
Montagnard people living both in the United States and in the 
Central Highlands of Vietnam.
    I would like to thank Congressman Crane and the Members of 
the Trade Subcommittee for the opportunity to share our 
feelings about the plight of the Montagnards that relate to the 
Jackson-Vanik amendment, free emigration and trade with 
Vietnam.
    Mr. Chairman and Members of the Subcommittee, on June 18, 
1998 and June 17, 1999 we strongly testified against the 
Jackson-Vanik Waiver for Vietnam for the following reasons:
    <bullet> The Vietnamese government continues carrying out a 
policy of punishment and discrimination against the Montagnard 
people in the Central Highlands of Vietnam.
    <bullet> The Vietnamese government continues to deny all 
basic human rights of the Montagnard people, and it maintains a 
policy of Cultural Leveling to force the Montagnards into 
extinction. For example, Montagnard languages can not be spoken 
or taught in school, and the Vietnamese government has 
destroyed Montagnard religions. All Montagnard churches in the 
Central Highlands have been closed since 1975 and it continues 
to prohibit religious freedom by controlling the activities of 
the Montagnard Protestant Church. Even the right to conduct 
religious services in our home is also denied. Violations of 
this nature result in extremely harsh reprisals.
    <bullet> The Vietnamese government has not made sufficient 
progress towards a free emigration policy to warrant the 
waiver. A large number of eligible applicants has been denied 
exit permits or has not been processed because they were former 
FULRO movement families, former U.S government employees or 
religious leaders.
    Besides administrative roadblocks, pervasive corruption at 
all levels of government creates additional obstacles to free 
emigration. In many instances, applicants to U.S. resettlement 
programs are demanded huge amount of money that the Montagnard 
people cannot afford. This in effect violates the spirit of the 
Jackson-Vanik amendment and also is against the law and policy 
in the United States.
    The Montagnards have been blocked from international 
humanitarian aid groups since the collapse of South Vietnam in 
1975. Several hundred foreign NGOs were permitted in Vietnam 
for relief and development efforts, but no American and almost 
no other foreign humanitarian aid agency is permitted in the 
Central Highlands for the Montagnards. Efforts to deliver aid 
to Montagnards in the villages almost always fail because of 
corruption within the province people's committees.
    The Vietnamese government maintains ``Restricted Areas'' in 
the Central Highlands where elderly Montagnards of past US 
loyalties are kept and denied medical treatment. No foreigners 
are allowed access into these areas. No one in the world would 
know that they intentionally do it. But this is being done 
secretly.
    Mr. Chairman and Members of the Subcommittee, we are here 
in Capitol Hill, Washington DC, a world far away from the 
Central Highlands of Vietnam. We are honored to have our voice 
heard again today, and we strongly inform you that the 
Vietnamese government has not changed their policy since 1975.
    Our Montagnard people have been cheated and discriminated 
for many years in Vietnam, but now we are being told to bribe, 
cheat, and split up our families so that some of us will have a 
chance for freedom in America. The Vietnamese government asks 
many refugees to act as secret agents of their government to 
inform them about the activities of our communities here in the 
U.S. They use fear to control our people.
    When many Montagnards from the U.S. go back to Vietnam to 
visit their families, the local police government of Vietnam 
forces them to present themselves at the police office and 
investigates them with many questions about the Montagnards 
living in U.S. Most questions are about the former leaders of 
the Montagnard community. They are warned not to say anything 
to their family about the life in the U.S. How can the U.S. 
citizenship be forced to do this? This is not free travel or 
the spirit of free emigration.
    In addition, the police have to follow them everywhere 
during their vacation day by saying that: ``We have to protect 
you,'' but the U.S citizen has to feed and pay them for their 
police service. This is not free travel or free emigration.
    We are the survivor groups of the Montagnard people living 
in the U.S. who strive to uphold the human dignity of the 
Montagnard living in the Central Highlands whose voices remain 
silent behind closed borders. Today, we are honored to have our 
voice heard, to speak, to stand for the Montagnards whose 
rights have been stripped away, and to present their situation 
to the people of the United States. We fought for freedom and 
independence against the Hanoi's violations, assimilation, and 
extermination of the Montagnard people. We pray that the Hanoi 
government will hear our true voice:
    Why do we have no rights to live as human beings?
    Why we cannot get our families out of Vietnam?
    Why we cannot worship our Christian faith freely?
    Why we cannot receive humanitarian aid and NGOs in the 
Central Highlands?
    Why we cannot have the same opportunities in education and 
development as Vietnamese people?
    Today, We ask only to be treated as human beings. We love 
our families and our children just the way the Vietnamese do.
    The intention of the Jackson-Vanik Admendmen is to promote 
free emigration, but our Montagnard people continue to suffer 
separated from love ones. The Hanoi government writes FULRO 
anti-Revolutionary on the paperwork of the Montagnard people. 
This technique is to stop our relatives to emigrate to the U.S. 
Yes, FULRO was the Montagnard resistance movement, but it no 
longer exists. The war is over and our families should be 
together. We now struggle peacefully. The day of our freedom 
and independence is gone. We are a broken people, but we can 
stand up with hope and dignity.
    The United States government is the only hope to get our 
Montagnard people out of Vietnam and help our Montagnard people 
who remain in the Central Highlands to have the rights to live 
and have the opportunity to develop their lives.
    I beseech you on behalf of those whose cry has been 
silenced to help us end the cultural genocide that has pushed 
the Montagnard people of South Vietnam to the brink of 
extinction. Our people are hiding in fear or rotting in 
unmarked graves. We are not free to live in our own land, we 
are poised at the threshold of extinction and without help, the 
Montagnard will become swallowed up by their oppressors and 
disappear as a distinct people forever
    The Jackson-Vanik Waiver should not be renewed until free 
emigration and Human Rights are respected. We believe that Free 
Trade should only be with a government that honors free 
emigration and basic human rights.
    Thank you so much for the privilege of presenting my 
testimony

                                <F-dash>


Statement of Dolores Apodaca Alfond, National Alliance of Families, 
Bellevue, WA

    We thank the committee for the opportunity to submit this 
statement for the record. We do this knowing full well that the 
decision to extend the Jackson-Vanick waiver as it applies to 
Vietnam has already been made.
    Sadly, our nation is now lead by a group of hypocrites. Men 
and women who decry human rights violations, unless there is a 
profit to be made. Men and women who are now willing to strip 
our servicemen of a POW designation, should they become 
captured in an ``Operation other than War,'' and turn them into 
``isolated personnel.'' That's the new terminology currently 
used at the Department of Defense, ``isolated personnel'' and 
``operations other than war.''
    The National Alliance of Families for the Return of 
American's Missing Servicemen continues to be concerned with 
Vietnam's failure to provide information concerning our 
servicemen Prisoner and missing as a result of the War in 
Southeast Asia. In previous hearings, we provided indisputable 
evidence that Vietnam was salting recovery sites. We also 
provided extremely compelling evidence that one man, Army 
Captain John Mc Donnell, was alive in a POW camp in February 
1973. Captain McDonnell is still among the unaccounted for. 
Where is Vietnam's ``full cooperation?'' The answer is simple. 
It doesn't exist. This administrations' claim of Vietnamese 
``full cooperation'' is a myth created to justify trade with a 
nation that continues to withhold the truth regarding our POW/
MIA's.
    Another myth created to justify trade with Vietnam is their 
progress in the area of human rights. Vietnam continues to be 
an oppressive communist dictatorship. Human rights violations 
are rampant. All recognized Human Rights organizations, 
worldwide, continue to condemn Vietnam for its' oppression of 
religious freedom and freedom of speech. Yet, the United States 
turns a blind eye to these gross violations, and cites the very 
minimal changes occurring in Vietnam as progress that should be 
rewarded.
    Would this Congress reward a man who beat his child seven 
days a week, because he scaled back and only beat that child 
six days a week? Of course not. Yet, this Congress continues to 
reward Vietnam, while they continue to withhold POW/MIA 
information and they continue their human rights violations.
    Our expanded aid and trade with Vietnam has not opened 
Vietnam to democracy. It has not substantially reduced the 
incidents of human rights violations. Vietnam is still ranked 
high on the list of Amnesty International for their Human 
Rights violations. Nor, has our expanded trade succeeded in 
opening all of Vietnam's records on American POW/MIAs. Vietnam 
remains a closed society, oppressing its' people and doling out 
POW/MIA information as it suits their needs.
    Let's be honest as to why we are granting another extension 
to the Jackson-Vanick wavier, as it applies to Vietnam. The 
reason is simple. Big Business profits and when profits factor 
into a decision principle goes out the window.
    Just as we turned a blind eye to human rights violations in 
China, we now turn that blind eye to the human rights 
violations in Vietnam. We do this not to expose Vietnam, and 
other oppressive countries such as China, to western democracy. 
We do this so that corporate America can manufacture sneakers 
or jackets for under $2.00 and sell them for well over $100.00.
    Extending the Jackson-Vanick waiver, as it applies to 
Vietnam, is NOT about human rights of the Vietnamese people. It 
is NOT about seeking the truth about our POW/MIAs. It is NOT 
about morality. It's about profit and we should at least be 
honest about it. We should also be ashamed.
    [Attachments are being retained in the Committee files.]

                                <F-dash>


Statement of Sandra J. Kristoff, New York Life International, Inc.

    Over six years after the United States initiated the 
normalization of economic relations with Vietnam, that 
process--at once technical, emotional, and of great consequence 
for both countries--appears to be drawing nearer to a 
conclusion. New York Life International welcomes this 
opportunity to reiterate its conviction that full normalization 
is profoundly important to the economic and national security 
interests of the United States. We hope that the remaining 
steps in the normalization process can be completed as quickly 
as possible, and we urge the Subcommittee, and the House as a 
whole, to advance that process by accepting the President's 
renewal of the Jackson-Vanik waiver for Vietnam for another 
year.
    Our company, along with so many others in the American 
business community, sees tremendous commercial potential in 
Vietnam. There is no question that a country of some 80 million 
industrious people represents a singularly attractive market 
for life insurance and many other American goods and services. 
At the same time, it is equally clear that New York Life's 
ability to compete effectively in Vietnam rests squarely on the 
existence of a fully normalized trading relationship between 
the United States and Vietnam, including the legal framework 
provided by a bilateral trade agreement. With our Asian, 
European, and other competitors already actively engaged in the 
Vietnamese market, it would be a major understatement to say 
that New York Life is anxious for a rapid conclusion to the 
normalization process.
    New York Life deeply appreciates the hard work that 
negotiators from both the United States and Vietnam have 
devoted to the conclusion of a bilateral trade agreement. Our 
U.S. negotiators have done a superb job in pursuing an 
agreement that is comprehensive, commercially meaningful, and 
will advance Vietnam's integration into the global economic 
community, including the World Trade Organization. The 
Vietnamese, for their part, have approached this negotiation as 
an opportunity to advance their country's economic development 
through greater competition and the rule of law.
    The results of these efforts were evident in the 
preliminary agreement that was reached last summer. We know, of 
course, that this ``agreement in principle'' has not been 
without controversy in Hanoi. We fully appreciate that the 
commitments contained in the preliminary agreement were bound 
to generate much debate in Vietnam's economic policy circles.
    Nevertheless, we support the position of Ambassador 
Barshefsky and her negotiators to stand by last summer's 
``agreement in principle'' as the basis for moving towards a 
final agreement. The elements of a deal remain in place, and we 
are very much encouraged by recent signs that the two sides are 
working to finalize this technically difficult process.
    Certainly where life insurance and other financial services 
products are concerned, the agreement in principle would have a 
major impact in expanding the ability of companies like New 
York Life to compete in the Vietnamese market. The agreement 
reportedly is based extensively on the disciplines that exist 
within the WTO's General Agreement on Trade in Services. We 
anticipate that Vietnam's commitments to these disciplines 
would be phased in over a 6-year period, bringing about a much 
more transparent and predictable framework for doing business 
in that country's life insurance market.
    Since the lifting of the embargo and the beginning of 
political normalization, the United States and Vietnam have 
made great strides in healing painful divisions and building a 
productive dialogue. Many Members of Congress deserve enormous 
credit for their role in moving the relationship forward. The 
Administration has worked diligently to strengthen bilateral 
ties, while vigorously addressing important issues such as the 
POW/MIA effort. New York Life has especially appreciated the 
tremendous skill and credibility Ambassador Peterson has 
brought to managing the relationship in Hanoi.
    In addition, the American business community has also 
played a prominent role in strengthening the friendship between 
the two countries, and New York Life International is proud to 
have been a part of that effort. In this 25th anniversary year 
of the conclusion of the Vietnam War, our company is convinced 
that the time is ripe to bring the normalization process to its 
full conclusion. Our involvement in Vietnam to date persuades 
us that full economic engagement is the right way to achieve 
the U.S. interest in a stable, prosperous, and progressively 
freer society in Vietnam.
    We remain hopeful that the two governments will conclude 
the bilateral trade agreement rapidly, so that Congress can 
consider and approve that agreement by the end of its current 
session. That outcome clearly will require significant efforts 
on the part of everyone involved. But the costs of allowing the 
normalization process to slide into another year are 
considerable, both for American business interests and for the 
broader national interest in placing U.S.-Vietnam relations 
firmly on a new track.
    In the interim, it is vitally important that Congress allow 
the current Jackson-Vanik waiver to remain in effect for 
another year, as the President has proposed. While the waiver 
currently does not allow for the extension of NTR status, the 
programs that are available by virtue of the waiver, including 
those of OPIC and the Ex-Im Bank, are making important 
contributions to the expansion of an American commercial 
presence in Vietnam.
    More importantly, the waiver sends a signal of engagement 
that is essential to ensuring continued progress in all areas 
of the relationship, including with regard to the ongoing trade 
negotiations. In particular, renewal of the waiver will provide 
a critical message of support for the ongoing process of 
economic reform and liberalization in Vietnam. While that 
reform effort has not always progressed as swiftly or as 
smoothly as we would like, a rejection of the Jackson-Vanik 
waiver would certainly be seized upon by opponents of reform as 
an excuse to reverse the considerable progress achieved during 
the last decade.
    New York Life International is grateful for the 
Subcommittee's interest in U.S.-Vietnam economic and commercial 
relations. We hope that members of the Subcommittee will join 
us in urging officials of both the U.S. Administration and the 
Vietnamese Government to ``seize the moment'' by rapidly 
concluding the bilateral trade agreement.

                                <F-dash>


Statement of Bruce R. Harder, Veterans of Foreign Wars of the United 
States

    Mr. Chairman and Members of the Subcommittee:
    The Veterans of Foreign Wars of the United States is 
pleased to be able to make a written statement for the record.
    This statement is the written testimony of Bruce R. Harder, 
Director, National Security and Foreign Affairs of the Veterans 
of Foreign Wars of the United States. We understand that the 
purpose of today's hearing is to evaluate U.S. trade relations 
with Vietnam and to consider President Clinton's renewal of 
Vietnam's waiver under the Jackson-Vanik Amendment to the Trade 
Act of 1974.
    This written testimony presents the VFW leadership's views 
on the impact of the President Clinton's 12-month renewal of 
Vietnam's waiver under the Jackson-Vanik Amendment to the Trade 
Act of 1974. The VFW's remarks are limited to describing the 
effect that the President's action is expected to have on the 
Prisoner of War (POW) and Missing in Action (MIA) issue that 
resulted from the Vietnam War.
    Our opinion is based on a recent VFW leadership trip to 
Southeast Asia that took place from March 18th to April 2, 
2000. The VFW delegation included: the Senior Vice Commander-
in-Chief, John F. Gwizdak, Junior Vice Commander-in-Chief James 
N. Goldsmith, Past Commander-in-Chief Billy Ray Cameron, and 
Director, National Security and Foreign Affairs, Bruce R. 
Harder. On the fact-finding trip, the VFW delegation visited 
Thailand, Laos, and Vietnam.
    The purpose of the trip was to collect facts, receive 
update briefings, meet key personnel, discuss progress on POW/
MIA accounting directly with them, and make an assessment of 
the POW/MIA accounting effort in Southeast Asia. Our national 
officers traveled to Southeast Asia to demonstrate our 
continuing commitment to the ``fullest possible accounting'' 
process for Missing Americans from the war. We traveled to 
Southeast Asia to gain first hand experience and listen to key 
U.S. and foreign government officials and foreign veterans' 
organizations.
    On the trip, the VFW delegation met with top level U.S. 
government personnel in each country. Our visit included office 
calls with the either the U.S. Ambassador or Charg&eacute; de 
Affairs in the case of Lao P.D.R.; the Commanders of Joint Task 
Force Full Accounting Detachments One (Thailand), Two 
(Vietnam), and Three (Laos); the Commander of the JTF-FA Joint 
Field Activity (JFA 00-3L) in Laos, and other key U.S. 
diplomats and U.S. military personnel. In addition, the VFW 
delegation spent three days in the field working out of the Ban 
Along Base Camp in Southeastern Laos on a Joint Field Activity 
searching for remains of missing Americans from the war. As in 
the past, we found the Americans deployed under the command and 
control of Joint Task Force-Full Accounting including teams 
from the Army's Central Identification Laboratory Hawaii to be 
highly motivated, dedicated, and focused on the mission.
    Furthermore, the VFW delegation met with Lao and Vietnam 
veterans group officials and high-level foreign government 
officials in Laos and Vietnam to include the Director of the 
Vietnamese Office for Seeking Missing Personnel. We wanted to 
make sure that the key officials in each country understood 
that accounting for our missing comrades is still a priority 
issue with the VFW. Our views are based on experience gained 
during our recent visit, and from additional research and 
interviews conducted by the VFW.
    The POW/MIA issue has been and remains a priority issue 
with the Veterans of Foreign Wars of the United States. VFW 
Resolution Number 443, ``Americans Who Are Prisoners of War or 
Missing in Action,'' provides the VFW's policy on the POW/MIA 
issue as it relates to those Americans unaccounted-for from all 
our nation's past wars. Our policy is broken down into two 
simple goals. The VFW's first goal is to reach the fullest 
possible accounting of Americans missing from all our nation's 
past wars. Our second goal is to urge the President of the 
United States of America and every member of the Congress to 
speak out on every occasion to expedite the return of those 
U.S. servicemen who are still unaccounted for from all our 
nation's past wars. To the VFW, full accounting means the 
return of either a live American serviceman or his identified 
remains to this country and his family for proper military 
burial with full honors.
    With 2,020 (1,517 in Vietnam) Americans still missing from 
the War in Southeast Asia, the government still has much work 
to do before the accounting process is complete. The VFW 
supports the current U.S. government effort to achieve the 
fullest possible accounting effort for those Americans who did 
not return home from our nation's past wars, but we believe 
that more can be done to accelerate the accounting effort. For 
example, assigning additional personnel and providing 
additional financial resources to the U.S. Army Central 
Identification Laboratory Hawaii can accelerate the accounting 
process. In addition, the Defense Prisoner of War/Missing 
Personnel Office should be fully staffed and excluded from any 
planned Department of Defense personnel or structure 
reductions. Finally, we should encourage Lao P.D.R. government 
leaders to remove the personnel cap that limits the number of 
Americans in country to 40 during joint field activities. In 
theory, if the Lao government allowed the U.S. to double the 
size of our JFA personnel, we could double the pace of the 
accounting process in Laos. Because of environmental factors 
and other issues such as aging witnesses, the longer the 
process, the more difficult the task of accounting becomes.
    The VFW believes that it plays an important role in staying 
engaged with the U.S. government and other organizations on the 
POW/MIA issue. We closely review the government's program, 
policy, and activities for accounting for Americans who remain 
``unaccounted-for'' from all of our nation's past wars. As one 
of the largest and most respected veteran's organizations, we 
believe it is our responsibility to closely monitor activities 
and developments in the POW/MIA area and to take an active role 
when it is appropriate.
    I am responsible for keeping our National POW/MIA 
Committee, our Department POW/MIA Chairmen, and our national 
leaders informed on the POW/MIA issue. We accomplish our goals 
by staying in frequent contact with the Defense Prisoner of 
War/Missing Personnel Office (DPMO), and other veteran and 
family organizations on the issue. In addition, I closely 
monitor the news media and stay in regular contact with State 
Department representatives on issues related to POW/MIA 
accounting.
    The VFW has been making trips to Vietnam since July 1991. 
On our first trip VFW officials accompanied Congressman Lane 
Evans of Illinois and representatives of other Veterans Service 
Organizations to visit Hanoi, Hue City, and Ho Chi Minh City. 
Since that first visit, the VFW has made regular annual visits 
back to Southeast Asia. In 2000 VFW representatives will visit 
Vietnam and Thailand on two separate occasions, and Laos on one 
occasion. Our mission on every trip to Southeast Asia has been 
the same. We urge both U.S. Government and foreign government 
officials and their veteran's organizations to diligently work 
toward resolving the cases of Americans missing from the war in 
Southeast Asia. The VFW sends national officers to Southeast 
Asia each year to help remind all involved that the mission is 
not yet completed. We will not rest until the mission is 
accomplished and our missing comrades are accounted for. We 
will not forget those who were left behind. Our goal is to 
bring home every missing American warrior.
    Our trips to Vietnam have occurred both before and after 
the trade embargo was lifted and diplomatic relations were 
established. Since the establishment of diplomatic relations 
between the United States and Vietnam, we have not seen any 
decrease in the effort to account for our missing men on the 
part of either the U.S. or Vietnam. On our visit to both 
Vietnam and Laos this year, we saw no evidence that current 
U.S. government policies on trade were having a negative effect 
on the MIA accounting process.
    We believe that current U.S. trade policies towards Vietnam 
have resulted in both gradual improvements in U.S.-Vietnamese 
relations in general and proportional improvements in 
Vietnamese cooperation in efforts to account for missing 
Americans from the war. A few examples of better overall U.S.-
Vietnamese cooperation are taken from the VFW report of our 
most recent visit to Southeast Asia in March-April 2000.
    The following conclusions from our trip report are offered 
as a result our discussions, meetings, and observations during 
the subject visit:
    Our report states, ``In Vietnam, on the issue of 
unaccounted for Americans from the War in Southeast Asia, my 
conclusion is that the Vietnamese government appears to be 
cooperating 'in good faith' with the U.S. government in working 
to resolve the issue. However, there is always room to improve 
the process.''
    Evidence that Vietnamese cooperation is happening is as 
follows:
    a. The Vietnamese government primarily assists the U.S. 
accounting effort with the Vietnamese Office for Seeking 
Missing Personnel (VNOSMP) which is part of their Ministry of 
Foreign Affairs. Also, it has established a unilateral program 
to distribute information about missing Americans to Vietnamese 
citizens.
    b. The VNOSMP has made significant improvement in terms of 
the quality of their Unilateral Investigations over past 
several years. Since April 1996, Vietnam has conducted 15 
unilateral investigations. The results of these unilateral 
investigations have been delivered to JTF-FA. In April 1999, 
Vietnam presented comments on the over 600 ``no further 
pursuit'' cases. VNOSMP says it will invest more time and 
personnel to unilateral operations to meet the desires of the 
American Congress, families of the missing, and veterans' 
organizations.
    c. The Vietnamese Office for Seeking Missing Personnel told 
us that they regularly receive information from Vietnamese 
citizens about missing Americans and share that information 
with JTF-FA Detachment. Two.
    d. VNOSMP cooperated and worked closely with DPMO to 
provide information to help complete the DPMO ``Remains Study'' 
which was published on June 14, 1999. According to DPMO, the 
Vietnamese participated in the effort to an unprecedented 
degree, sharing insights with U.S. analysts, facilitating 
interviews with Knowledgeable sources, conducting 
investigations when asked, and turning over documents in 
response to requests. DPMO is continuing to seek more data 
about the extent and limits of Vietnam's collection of American 
remains. The process of seeking additional information on the 
remains issue continues.
    e. VNOSMP obtains access for JTF-FA research and 
investigative teams.
    f. VNOSMP says that it fully understands the importance of 
documents to the U.S. identification process. They claim to 
have provided more than 160 documents to the U.S. government 
that are related to missing American servicemen. Mr. Hung said 
that VNOSMP stands ready to do more and continues the search 
for additional U.S. MIA related documents.
    g. Vietnamese officials have agreed to focus their efforts 
on the 41 Last Known Alive cases. According to VNOSMP, joint 
investigations have resulted in determining that 155 
individuals from the original Last Known Alive list of 196, 
have died. In April and August 1999, two technical meetings 
were held in Hanoi during which the most capable U.S. and 
Vietnamese specialists exchanged information and discussed ways 
to investigate the remaining cases.
    h. VNOSMP said Tri-lateral Operations (U.S./Vietnam/Laos) 
have been successful. To date, Vietnam has sent 33 Vietnamese 
witnesses to Laos to participate in investigations involving 31 
cases. The investigations have resulted in identifying 11 
potential burial sites. In addition Vietnamese witnesses have 
traveled to Cambodia to take part in the investigation of 4 
cases. This resulted in the successful excavation of one case. 
Vietnamese documents and witnesses are one of the best 
potential sources for resolving many cases of missing Americans 
in Laos and Cambodia. The Vietnamese have agreed to continue 
cooperative Tri-lateral efforts, especially with Laos.
    i. The Oral History Program and document turnover have been 
relevant for case investigation and resolution. From January 
1992 to the present, 245 oral history interviews were 
completed. Vietnamese officials promised continued cooperation 
in the search for additional documents, and said they have 
issued directives asking the Vietnamese people to bring forward 
any information they have on U.S. MIAs.
    j. On live sighting investigations, VNOSMP said that they 
would continue to cooperate when requested by the U.S. to 
assist in investigations. VNOSMP said that they have 
participated in more than 130 investigations with over 500 
witnesses interviewed and none of the investigations have 
resulted in any useful information. VNOSMP has concluded that 
all of the live sighting reports to date have been false, and 
have result in the waste of time and energy. JTFFA Detachment 
Two briefed us that 96 live sighting investigations have been 
conducted in Vietnam, and that none of the investigations led 
to any credible evidence of a live American from the war was 
held against his will after Operation Homecoming was completed 
in 1973.
    k. As indicated earlier in the report, bilateral operations 
between the United States and Vietnam have been successful. 
Since January 23, 1992, CILHI recovery teams have recovered and 
repatriated 307 sets of remains from Vietnam. To date, CILHI 
has identified 136 sets of remains. Five JFAs are conducted in 
Vietnam each year.
    Also, in Vietnam, leads and excavation sites will probably 
begin to thin out in 2002. Given the current number of planned 
investigations and excavations, JTFFA operations in SRV will 
continue on a steady pace until at least FY2004. Cases 
remaining unresolved at that point will be extremely difficult 
to resolve because of the lack of information, terrain, and 
other factors. Their resolution may have to wait until new 
leads are uncovered in the future.
    Some additional examples of progress on the POW/MIA issue 
is listed below according to the four criteria used by the 
Administration to measure Vietnamese cooperation.
    The first criteria are the efforts by Vietnam to recover 
and repatriate American remains. Since 1973, 563 Americans have 
been accounted for in Southeast Asia. Of that total, 406 were 
accounted--for from Vietnam. Also, since 1988, 59 Joint Field 
Activities (JFAs) have been conducted in the SRV (44 since 
1992). Four JFAs were conducted in SRV last year (1999). 
Typically, each JFA in SRV involves more than 100 U.S. 
personnel working with Vietnamese counterparts doing 
investigations and excavation operations. Between February 22, 
2000 and May 24, 2000, Joint Task Force-Full Accounting (JTF-
FA) conducted 2 Joint Field Activities (JFAs) in Vietnam. The 
past two JFAs resulted in the repatriation of 6 sets of 
remains. Over this period the Central Identification Lab Hawaii 
(CILHI) has identified 2 individuals representing 2 different 
cases. As of March 1, 2000, JTF-FA Detachment Two has 
repatriated 307 sets of remains from Vietnam and the Central 
Identification Laboratory Hawaii has identified 136 individuals 
who were previously unaccounted--for.
    In addition, the SRV has been responsive to U.S. requests 
to conduct case-specific unilateral investigations. These 
investigations include witness interviews and archival 
research. Each year the SRV reserves two periods during which 
Vietnamese unilateral teams conduct investigations and then 
report their findings to U.S. officials. Vietnamese unilateral 
investigation teams have provided reports on 48 different 
cases. As of June 1, 2000, the total number of unilateral 
reports received since 1996 is 272. Vietnam's unilateral 
efforts have supported the U.S. ``Remains Study'' that 
evaluates the SRV's official efforts to recover American 
remains. The SRV responses provided to U.S. questions reflect 
extensive research and investigative activity. In one instance, 
the SRV's investigative results lead directly to the 
identification of U.S. remains.
    The VNOSMP pledged to continue cooperation with the U.S. 
government to execute joint and unilateral operations designed 
to resolve the cases of missing Americans from the war to the 
fullest extent possible.
    In November 1998, Mr. Robert L. Jones, DASD DPMO, requested 
an SRV Foreign Ministry review of the ``deferred'' and ``no 
further pursuit'' category of unaccounted-for cases. The idea 
was to determine if the Vietnamese possessed additional 
information pertaining to these cases. Vietnamese Vice Foreign 
Minister Bin promised a formal response to Mr. Jones by the end 
of March 1999, and the response was delivered to DPMO on time. 
Analysts at JTF-FA and DPMO are now reviewing and analyzing the 
Vietnamese response.
    The second criteria are the continued resolution of ``last 
known alive'' (LKA) priority discrepancy cases. Of the 196 
persons associated with ``last known alive'' cases (individuals 
who survived their loss incidents, but did not return alive and 
remain unaccounted-for) in Vietnam. Fate has been determined 
for all but 41 of these individuals. Determination of the fate 
for individuals on this list last occurred on March 1, 2000 
when the fates of 2 more individuals were determined.
    Of the 155 ``last known alive'' cases whose fate has been 
determined, DoD has resolved the cases or identified the 
remains of 40 formerly unaccounted-for Americans who were 
originally on the LKA list. Since 1993, 18 last known alive 
cases have been resolved. These are the most difficult cases to 
solve.
    The special remains list is a representative sampling of 
cases for which the U.S. government has evidence that the SRV 
government, at one time, possessed remains of American 
servicemen that were still unaccounted for in 1993 when the 
report was prepared and given to the SRV. The U.S. government 
has resolved special remains cases involving 21 individuals. 
This reduces the original list of 98 individuals on this list 
to the present list of 77 individuals.
    The third criteria are Vietnamese assistance in 
implementing the trilateral investigations with Laos. Since 
1994 when the agreement for these investigations was signed, a 
total of 39 Vietnamese witnesses have participated in 
operations in Laos and Cambodia. In March 1999, a Laotian 
witness participated in an investigation in Cambodia. As of 
April 1999, Vietnam identified more than 40 witnesses for 
participation in future operations in Laos. Eight witnesses 
were identified since December 1, 1998.
    The fourth criteria are accelerated Vietnamese efforts to 
provide all POW/MIA related documents. Since 1994, when 
Vietnamese unilateral search teams were created, the Vietnamese 
Office for Seeking Missing Personnel (VNOSMP) has provided 14 
separate turnovers totaling more than 300 documents that 
consist of 500-600 untranslated pages. Recently, VNOSMP 
provided 12 documents in two separate turnovers. These were 
related to the U.S. study of Vietnam's collection and 
repatriation of U.S. remains or `` Remains Study.'' In 
addition, 263 oral histories have been conducted not including 
the hundreds completed during JFA operations. Finally, over 
28,000 archival items were reviewed and photographed since 
January 1993 by joint research teams.
    Since we did not observe a decrease in the POW/MIA 
accounting and cooperation effort with the Vietnamese after the 
lifting of the trade embargo, establishment of diplomatic 
relations, and past waiver of the Jackson-Vanik Amendment, it 
suggests that this year's waiver of the Jackson-Vanik Amendment 
restrictions will not result in any decrease in cooperation 
between our countries on the POW/MIA issue. The Vietnamese know 
that the POW/MIA accounting is the single most important issue 
governing the relationship between our two countries. Based 
upon our observations and conversations with JTF-Full 
Accounting personnel and other U.S. government officials during 
our visit to Vietnam in March 2000, it is my opinion that 
current trade relations with Vietnam have not hindered the 
accounting process for missing Americans. Also, if improving 
U.S.-Vietnamese trade relations and normalizing our diplomatic 
relationship with Vietnam helps us reach our goal of achieving 
the ``fullest possible accounting'' of missing Americans, then 
these steps seem to be producing the intended positive results.
    The VFW has had a POW/MIA initiative for the last several 
years. Briefly, we encourage our members to come forward with 
information and documentation about Vietnamese casualties from 
the war. Keeping the information anonymous, we then present the 
information to the Vietnamese veterans' organization when we 
visit Vietnam. We have presented information about their losses 
to their veterans on four different occasions. We believe this 
initiative has helped improve relations with the Vietnamese 
people, and shows American sincerity in attempting to resolve 
this issue. Feedback from Joint Task Force-Full Accounting 
personnel permanently stationed in Hanoi, indicates that this 
initiative others like it, have resulted in improved 
cooperation between U.S. personnel and Vietnamese counterparts. 
Also, we have asked the Vietnamese veterans for help in 
resolving some of the most difficult cases of our missing in 
action.
    In conclusion, the VFW believes that progress has been made 
on POW/MIA accounting in Vietnam, Laos, and Cambodia since the 
establishment of Joint Task Force-Full Accounting in January 
1992. Over the past decade years, we have developed an 
effective and cooperative relationship with Vietnam on the POW/
MIA issue. Since 1992, this partnership with Vietnam has 
produced reasonable results in the accounting process, but more 
work still remains. Twenty years ago the relationship between 
our countries was inhospitable and as a result, the POW/MIA 
accounting process was slow and less productive. Our visits to 
Southeast Asia, our meetings and discussions with both the 
Department of Defense and Department of State officials here in 
Washington, and our constant review of monthly POW/MIA 
progress, lead us to the conclusion that we should continue the 
policy of engagement with Vietnam. We believe that the current 
relationship between the U.S. and Vietnam is helping the POW/
MIA accounting process.
    Finally, our primary goal is to achieve the fullest 
possible accounting of Americans missing from the war in 
Southeast Asia as well as all Americans missing from all our 
nation's wars and conflicts. We think the normalization of 
trade relations between the United States and Vietnam helps to 
accomplish this goal. Our view is that the current effort with 
Vietnam, Laos and Cambodia is producing positive results. 
Certainly, we are not satisfied that it has taken so long to 
reach this point. The current accounting effort should have 
begun the moment the war ended, but unfortunately our country 
was unable to develop an effective working relationship with 
Vietnam on this issue until years after the war ended. We will 
continue to remain vigilant and press our government and the 
governments of Vietnam, Laos, and Cambodia to reach the fullest 
possible accounting as soon as possible. No matter how long it 
takes, the VFW will continue to support the effort and strive 
to reach our goal--the fullest accounting for every missing 
American warrior.
    Mr. Chairman and Members of the Subcommittee, thank you for 
this opportunity to present the views of the Veterans of 
Foreign Wars of the United States on the issue of U.S.-Vietnam 
Trade Relations.

                                   - 
</pre></body></html>
